           REPORT ON THE
FEDERAL COMMUNICATIONS COMMISSION
          FISCAL YEAR 2003
       FINANCIAL STATEMENTS

   03-AUD-05-07       December 19, 2003




        Office of Inspector General

                  *******

    Federal Communications Commission
                                         OFFICE OF INSPECTOR GENERAL
                                                                        MEMORANDUM




DATE:          December 19, 2003

TO:            Chairman
               Managing Director
               Chief Financial Officer

FROM:          Inspector General

SUBJECT:       Audit of the Federal Communications Commission’s
               Fiscal Year (FY) 2003 Financial Statements


This letter transmits Clifton Gunderson LLP’s (hereafter referred to as “CG-LLP”) report
on its FY 2003 financial statement audit of the Federal Communications Commission
(FCC) and the results of the Office of Inspector General’s (OIG) review thereon.

In accordance with the Accountability of Tax Dollars Act of 2002, FCC prepared
consolidated financial statements in accordance with Office of Management and Budget
(OMB) Bulletin No. 01-09, Form and Content of Agency Financial Statements, and
subjected them to audit. The Chief Financial Officers Act of 1990 (Public Law 101-576
referred to as the “CFO Act”), amended, requires the FCC OIG, or an independent
external auditor as determined by the Inspector General, to audit agency financial
statements in accordance with Government Auditing Standards issued by the Comptroller
General of the United States. Under a contract monitored by the OIG, CG-LLP, an
independent public accounting firm, performed the audit of FCC’s FY 2003 financial
statements.


OIG Evaluation of CG-LLP’s Audit Performance

To fulfill our audit responsibilities under the CFO Act for ensuring the quality of the
audit work performed, we conducted a review of CG-LLP’s audit of FCC’s FY 2003
financial statements in accordance with Government Auditing Standards and OMB
Bulletin No. 01-02, Audit Requirements for Federal Financial Statements.

Specifically, we:

       •       reviewed CG-LLP’s approach and planning of the audit,
       •       evaluated the qualifications and independence of its auditors,
       •       monitored progress of the audit at key points,
       •       examined working papers and audit documents to evaluate compliance
               with Government Auditing Standards,
       •       reviewed CG-LLP’s audit reports to ensure compliance with Government
               Auditing Standards and OMB Bulletin No. 01-02, and
       •       performed other procedures we deemed necessary.

Based on the results of our review, we determined CG-LLP planned, executed, and
reported the results of its audit of FCC’s FY 2003 financial statements in accordance with
applicable auditing standards. Therefore, in our opinion, CG-LLP’s work provides a
reliable basis for the firm’s opinion on FCC’s FY 2003 financial statements. Based on
our review of the audit, we concur with CG-LLP’s finding of reportable conditions
related to internal control and instances of noncompliance with applicable laws and
regulations. Accordingly, we concur with its reports thereon.



Opinion on the Financial Statements

CG-LLP issued an unqualified opinion on FCC’s consolidated balance sheets as of
September 30, 2003 and 2002, the related consolidated statements of net cost, changes in
net position, financing, custodial activity, and combined statements of budgetary
resources. CG-LLP opined, the financial statements referred to above present fairly, in
all material respects, the financial position of the FCC as of September 30, 2003 and
2002, its net cost, changes in net position, budgetary resources, custodial activity, and
reconciliation of net cost to budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.



Matters Pertaining to Effectiveness of Internal Control Identified During the Audit

In performing its internal control testing of controls necessary to achieve the objectives in
OMB Bulletin No. 01-02, CG-LLP identified matters relating to significant deficiencies
in the design or operation of FCC’s internal control that, in its judgment, could aversely
affect FCC’s ability to record, process, summarize, and report financial data consistent
with the assertions by management in the financial statements. Specifically, these
matters were categorized as material weaknesses and reportable conditions per definitions
of the American Institute of Certified Public Accountants.

Material weaknesses are reportable conditions in which the design or operation of one or
more of the internal control components does not reduce to a relatively low level the risk
that misstatements in amounts that would be material in relating to the financial




                                             2
statements may occur and not be detected within a timely period by the employees in the
normal course of performing their assigned functions. CG-LLP identified material
weaknesses in the areas of:

       •       Financial Reporting
       •       Auction Transactions
       •       Cost Accounting
       •       Universal Service Fund Financial Reporting: Accounting
               and Reporting Controls
       •       Information Technology

CG-LLP identified additional reportable conditions not considered to be material
weaknesses, which include:

       •       Revenue Recognition
       •       RAMIS Application and Processes
       •       Payroll Activities
       •       Debt Collection Improvement Act Reporting
       •       OMB Circular Nos. A-127 and A-130 Reviews
       •       Federal Managers’ Financial
               Integrity Act of 1982 Compliance and Reporting


Results of Tests of Compliance with Laws and Regulations

FCC management is responsible for complying with laws and regulations applicable to
the agency. To obtain reasonable assurance about whether FCC’s financial statements
are free of material misstatements, CG-LLP performed tests of compliance with certain
provisions of laws and regulations, noncompliance with which could have a direct and
material effect on the determination of financial statement amounts and certain other laws
and regulations specified in OMB Bulletin No. 01-02, including the requirements referred
to in the Federal Financial Management Improvement Act of 1996. As appropriate, CG-
LLP limited its tests of compliance to these provisions and it did not test compliance with
all laws and regulations applicable to FCC.

CG-LLP’s tests disclosed instances of noncompliance with specific laws and regulations
required to be reported under Government Auditing Standards and OMB Bulletin No. 01-
02 as follows:

       •       Chief Financial Officers Act of 1990
       •       OMB Circular No. A-129, Polices for Federal Credit Programs and Non-
               Tax Receivables
       •       Debt Collection Improvement Act of 1996
       •       Federal Financial Management Improvement Act of 1996




                                            3
TABLE OF CONTENTS


TRANSMITTAL MEMORANDUM


SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES

      Transmittal Memorandum

      Inspector General Statement on the Federal Communications
      Commission’s Major Management Challenges

      Commission’s Response to Inspector General Statement on the
      Federal Communications Commission’s Major Management Challenges


SECTION II            INDEPENDENT AUDITOR’S REPORT

      Opinion on the Financial Statements                                                  2


SECTION III           INDEPENDENT AUDITOR’S
                      REPORT ON INTERNAL CONTROL

      Material Weaknesses:

      I.       Financial Reporting                                                         2

               A. Integrated Financial Management Systems                                  3

               B. Spreadsheet Subsidiary Ledger Systems                                   5

               C. Timely Recording and Analysis of the Federal Communications
                  Commission (FCC) Reporting Components’ Financial Activities             8

               D. FCC’s Supervisory Review of the Universal Service Fund
                  Financial Reporting Process                                              9

               E. Federal Financial System Setup and Posting Model Definitions            10

       II.     Auction Transactions                                                       11

       III.    Cost Accounting                                                            13

               A. Cost Accounting System                                                  13

               B. Cost Allocation Process and Cost Finding Techniques                     14




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                       Page i
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
TABLE OF CONTENTS



               C. Matching Revenues to Costs                                                  15

      IV.      Universal Service Fund Financial Reporting:
               Accounting and Reporting Controls                                              16

      V.       Information Technology                                                         17

               A. Compliance with OMB Circular No. A-130 Requirement
                  For a Comprehensive Security Plan                                       17

               B. Accelerate Efforts to Develop and Test FCC’s
                  Contingency Plans                                                           20

               C. Inadequate Password Controls for Universal Service Fund
                  Major Applications                                                          22

               D. Non-compliance with OMB Circular No. A-130 Requirements
                  For the Universal Service Fund                                              23

               E. Disaster Recovery Test for the Universal Service Fund                       24


       Reportable Conditions:

       VI.     Revenue Recognition                                                            25

       VII.    Revenue Accounting and Management Information System (RAMIS)
               Application and Processes                                                      26

               A. Electronic Data Processing Controls                                         26

               B. RAMIS Accounts Receivable Module                                            27

               C. Collections in RAMIS                                                        28

       VIII.   Payroll Activities                                                             29

       IX.     Debt Collection Improvement Act Reporting                                      31

       X.      OMB Circular Nos. A-127 and A-130 Reviews                                      33

       XI.     Federal Managers’ Financial Integrity Act Compliance and Reporting             33




03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                         Page ii
                       COMMISSION’S FY 2003 FINANCIAL STATEMENTS
TABLE OF CONTENTS


       Status of Prior Year Comments:

                  •   Condition – Loans Subsidiary Ledger Non-Financial Information              35

                  •   Condition – Regulatory Fees                                                35

                  •   Condition – Accounting for Obligation                                      35

                  •   Condition – Accounting for Accounts Payable                                35

                  •   Condition – Compliance with Certain Aspects of the
                                  Clinger-Cohen Act of 1996                                      36


SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS

       Chief Financial Officers Act of 1990                                                      2

       OMB Circular No. A-129, Policies for Federal Credit Programs and
       Non-tax Receivables                                                                       3

       Debt Collection Improvement Act of 1996                                                   3

       Federal Financial Management Improvement Act of 1996                                      4


SECTION V             FEDERAL COMMUNICATIONS COMMISSION
                      FISCAL YEAR 2002 ANNUAL FINANCIAL REPORT

       Management’s Discussion and Analysis                                                      1

       Consolidated Balance Sheet                                                                30

       Consolidated Statement of Net Cost                                                        31

       Consolidated Statement of Changes in Net Position                                         33

       Combined Statement of Budgetary Resources                                                 34

       Consolidated Statement of Financing                                                       35

       Consolidated Statement of Custodial Activity                                              36

       Notes to Consolidated Financial Statements                                                37




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                            Page iii
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
TABLE OF CONTENTS


      Required Supplementary Information                                  61

      Other Accompanying Information                                      73


SECTION VI          STATUS OF RECOMMENDATIONS
                    FROM PRIOR YEAR FINANCIAL STATEMENT AUDIT


SECTION VII         ACRONYMS & ABBREVIATIONS




03-AUD-05-07        REPORT ON THE FEDERAL COMMUNICATIONS        Page iv
                    COMMISSION’S FY 2003 FINANCIAL STATEMENTS
             SECTION I

FEDERAL COMMUNICATIONS COMMISSION’S
   MAJOR MANAGEMENT CHALLENGES
                                       OFFICE OF INSPECTOR GENERAL
                                                                      MEMORANDUM




DATE:            December 4, 2003

TO:              Chairman
                 Managing Director

FROM:            Inspector General

SUBJECT:         Inspector General Statement on the Federal Communications
                 Commission’s Major Management Challenges


In November 2000, the President signed the Reports Consolidation Act of 2000 (Public
Law No. 106-531), which requires Inspectors General to provide a summary and
assessment of the most serious management and performance challenges facing Federal
agencies and the agencies’ progress in addressing them. To date, the Federal
Communications Commission (FCC) Inspector General was not subject to this
requirement since the Commission was not a covered agency per the Chief Financial
Officers Act of 1990. With the enactment of the Accountability of Tax Dollars Act of
2002, the FCC is now subject to these provisions. This document responds to the
requirements and provides the initial response to be included in the Consolidated Audit of
the Federal Communications Commission Fiscal Year 2003 Financial Statements.

We identified the following seven significant management issues facing FCC for fiscal
year 2003.

             •      Universal Service Fund Fraud
             •      Financial Reporting
             •      Loan Subsidiary Ledgers
             •      Information Technology and Information Systems Security
             •      Revenue Gap
             •      Reporting Components
             •      Physical Security and Protection of Personnel
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES



Universal Service Fund (USF) Fraud

Fraud is an inherent risk in the USF core business process: collection, certification, and
disbursement of funds for advanced telecommunications services. As of fiscal year end
2003, 43 investigations have been initiated. Of those investigations, 35 are on-going and
eight have been closed. Investigations have led to indictments as well as subsequent
sentencing relating to fraudulent actions. To date, over $3.3 million in recoveries have
been processed by the fund administrator with additional recoveries greater than $1.9
million sought.

FCC has taken action to address fraud in the USF business process however additional
efforts are needed. FCC and the USF Administrator, in conjunction with the Office of
Inspector General and the Department of Justice, have developed processes for suspected
fraudulent activity monitoring, investigation, and referral. However, controls over
management oversight and accountability for receipts of USF funds have been materially
weak because of inadequate management controls, lack of a sufficient independent audit
program to deter future fraudulent activity, and weaknesses in the structure of the
program.


Financial Reporting

FCC does not maintain current and accurate financial data during the course of the year.
As a result, FCC undertakes a massive effort to compile, analyze, and correct its financial
data to prepare accurate financial statements quarterly and at fiscal year end. FCC can
enhance both its processes and timing of financial reporting practices, improve its
policies and procedures to ensure consistent accounting practices, and continue its
endeavor for an updated, integrated financial management system entity-wide.

FCC has made progress in correcting financial management weaknesses. Recent
improvements in its loan receivable and cost accounting processes resulted in FCC
obtaining unqualified opinions. Despite these achievements, FCC needs to take
additional steps to ensure proper financial management reporting. Specifically, it has not
made the major changes needed to address a long-standing weakness in financial
reporting. Significant elements of this weakness include the lack of:

               •   integrated financial management system(s) within FCC as well as its
                   reporting components
               •   timely recording and analysis of financial activities for certain
                   accounts
               •   a cost accounting system that accounts for unit costs per generally
                   accepted accounting principles,



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 1
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION I              FEDERAL COMMUNICATIONS COMMISSION’S
                       MAJOR MANAGEMENT CHALLENGES



               •   complete budgetary accounting for consolidated reporting
                   components, and,
               •   a complete and thorough process for compiling the entity consolidated
                   statements with minimum errors.


Loan Subsidiary Ledgers

Testing of loan ledger balances repeatedly identifies errors. FCC’s loan subsidiary ledger
is comprised of loan models which are elaborate and complex spreadsheets documenting
loan information and balances. In addition to the inherent limitations of the spreadsheet
models, the applications utilized in the spreadsheet software are implemented to their
maximum potential use which create more problems. Furthermore, FCC’s loan review
process is manually intensive, therefore the risk of error is higher as a result of these
conditions.

FCC is addressing its loan subsidiary ledger issue with the creation of the loan module in
the Revenue Accounting and Management Information System and the outsourcing of its
loan portfolio to a loan service provider. In October 2003, the loan service provider
assumed service responsibility for FCC’s loan portfolio. For fiscal year 2004 financial
reporting, FCC expects to discontinue use of the loan model spreadsheets as its system of
record. Additional future challenges now exist in the management and oversight of the
loan servicing contract.


Information Technology and Information Systems Security

As technology advances and our reliance on technology increases, the need for a strong
information technology infrastructure becomes even more important. FCC’s operations
have become increasingly more reliant on automated systems and further integration of
FCC data and services with external users via the internet is escalating. Along with
explosive growth in computer connectivity comes the ability to disrupt or sabotage
critical operations, read or copy sensitive data, and tamper with critical processes.

FCC’s information technology control environment and systems security need to be
enhanced. FCC is noncompliant with a number of Federal statutes and policies.
Commission systems have been susceptible to malicious attacks via viruses and worms,
and unauthorized access. Inadequacies and inconsistencies exist in the mainframe and
network access request process and efforts to develop and test FCC’s contingency plans
have been slow. Additionally, FCC lacks a viable capital asset plan, needs to further
enhance its audit trail facility utilization and review, and strengthen its password access
controls.



03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                            Page 2
                       COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION I              FEDERAL COMMUNICATIONS COMMISSION’S
                       MAJOR MANAGEMENT CHALLENGES




FCC has taken steps to address its information technology and information systems
security vulnerabilities. FCC developed its agency-wide security plan and is working
toward compliance with required Federal policies and statutes; however, completion
dates for key items to address this challenge have repeatedly been revised.


Revenue Gap

Although FCC collects approximately $250 million in regulatory fees each year, FCC can
not determine if all required fees are collected. The difference between what is collected,
an amount subject to Congressional determination, and what should have been collected
if all regulated parties paid their fees, is deemed a revenue gap.

Recent systems development and the mandatory use of the FCC Registration Number
provide the Commission with a record of each collection which facilitates bill generation
to non-payees. However, FCC does not have a complete universe of potential regulatory
fee payees, it can not determine the total regulatory fee subject to collection, and it does
not have a complete universe to facilitate regulatory fee rate assessment for future years.


Reporting Components

Throughout its history, FCC created subsidiary organizations and administrative
components, subject to various levels of FCC oversight, to conduct Commission business
and meet the agency mission. Fundamentally, these organizations were created without a
complete assessment or determination of how component functions or responsibilities
would comply with Federal laws and regulations, policy, or concepts. This issue exists to
date and creates considerable confusion.

Until recently, FCC addressed questions arising from this issue on an individual basis
resulting in a legal interpretation. At the close of fiscal year 2003, FCC adopted the first
of what is expected to be a series of Commission Orders defining the applicability of
certain laws and regulations to these organizations and components.


Physical Security and Protection of Personnel

This challenge is not unique to FCC. Since September 11, 2001, physical security and
protection of personnel have been critical issues in the Federal government and the
United States in general.




03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                            Page 3
                       COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION I             FEDERAL COMMUNICATIONS COMMISSION’S
                      MAJOR MANAGEMENT CHALLENGES



The FCC has taken steps to identify and implement security measures to protect FCC
personnel and its physical infrastructure. Specifically, FCC created a program to inform
personnel regarding potential threats and threat management, prepared measures to
address potential catastrophic events, and made security enhancements to FCC facilities.

Despite these efforts, the Commission has related personnel and physical infrastructure
issues to complete. For example, the FCC has not completed a Commission-wide
continuity of operations plan. Security and protection enhancements to some facilities
have not been completed. And, recommendations regarding work place violence need to
be addressed by an appointed task force.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 4
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
         SECTION II

INDEPENDENT AUDITOR’S REPORT
SECTION II                     INDEPENDENT AUDITOR’S REPORT




                                    Independent Auditor’s Report


To the Inspector General of the
Federal Communications Commission


We have audited the accompanying consolidated balance sheets of the Federal
Communications Commission (FCC) as of September 30, 2003 and 2002, the related
consolidated statements of net cost, changes in net position, financing, custodial activity
and combined statements of budgetary resources for the years then ended (collectively
the financial statements). These financial statements are the responsibility of the FCC’s
management. Our responsibility is to express an opinion on these financial statements
based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the
United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States;
and Office of Management and Budget (OMB) Bulletin No. 01-02, Audit Requirements
for Federal Financial Statements. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the financial statements are free of
material misstatement. An audit includes examining, on a test basis, evidence supporting
the amounts and disclosures in the financial statements. An audit also includes assessing
the accounting principles used and significant estimates made by management, as well as
evaluating the overall principal statements’ presentation. We believe our audits provide a
reasonable basis for our opinion.



Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




03-AUD-05-07                   REPORT ON THE FEDERAL COMMUNICATIONS                  Page 1
                               COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION II             INDEPENDENT AUDITOR’S REPORT



In our opinion, the financial statements referred to in the first paragraph, present fairly, in
all material respects, the financial position of the FCC as of September 30, 2003 and
2002, its net cost, changes in net position, budgetary resources, custodial activity, and
reconciliation of net cost to budgetary resources for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

As discussed in Note 25 to the financial statements, FCC changed its budgetary
accounting and reporting of investments held outside of U.S. Treasury in response to
modified reporting requirements issued by the Department of the Treasury effective
during fiscal year 2003.

In accordance with Government Auditing Standards, we have also issued our reports
dated December 8, 2003 on our consideration of the FCC’s internal control over financial
reporting, and on our tests of the FCC’s compliance with certain provisions of laws and
regulations. Those reports are an integral part of our audit performed in accordance with
Government Auditing Standards and should be read in conjunction with this report in
considering the results of our audit.

Our audits were made for the purpose of forming an opinion on the basic financial
statements taken as a whole. The Management Discussion and Analysis and Required
Supplemental Information are not a required part of the basic financial statements but are
supplementary information required by OMB Bulletin No. 01-09, Form and Content of
Agency Financial Statements. The Other Accompanying Information is presented for the
purposes of additional analysis and is not a required part of the financial statements. We
have applied certain limited procedures to such information, which consisted principally
of inquiries of FCC management regarding the methods of measurement and presentation
of the supplementary information. However, we did not audit the information and
express no opinion on it.

a1
Calverton, Maryland
December 8, 2003




03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS                              Page 2
                       COMMISSION’S FY 2003 FINANCIAL STATEMENTS
         SECTION III

INDEPENDENT AUDITOR’S REPORT
    ON INTERNAL CONTROL
SECTION III                    INDEPENDENT AUDITOR’S REPORT
                               ON INTERNAL CONTROL




                         Independent Auditor’s Report on Internal Control


To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission
(FCC) as of and for the year ended September 30, 2003, and have issued our report
thereon dated December 8, 2003. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No.
01-02, Audit Requirements for Federal Financial Statements.

In planning and performing our audit, we considered FCC’s internal control over
financial reporting by obtaining an understanding of FCC’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 01-02. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act (FMFIA) (31 U.S.C.
3512), such as those controls relevant to ensuring efficient operations. The objective of
our audit was not to provide assurance on internal control. Consequently, we do not
provide an opinion on internal control.


Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




03-AUD-05-07                   REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                               COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



Our consideration of the internal control over financial reporting would not necessarily
disclose all matters in the internal control over financial reporting that might be
reportable conditions. Under standards issued by the American Institute of Certified
Public Accountants, reportable conditions are matters coming to our attention relating to
significant deficiencies in the design or operation of the internal control that, in our
judgment, could adversely affect the agency’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial
statements. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a
relatively low level the risk that misstatements in amounts that would be material in
relation to the financial statements being audited may occur and not be detected within a
timely period by employees in the normal course of performing their assigned functions.
Because of inherent limitations in internal controls, misstatements, losses, or
noncompliance may nevertheless occur and not be detected. However, we noted certain
matters discussed in the following paragraphs involving the internal control and its
operation that we consider to be reportable conditions and material weaknesses.

MATERIAL WEAKNESSES

I. Financial Reporting (Repeat Condition)

   The Chief Financial Officers Act of 1990 (CFO Act) assigned responsibility for
   developing and maintaining integrated accounting and financial management systems
   including financial reporting and internal control to each Federal agency. OMB
   Bulletin No. 01-09, Form and Content of Agency Financial Statements, defines the
   form and content of financial statements to be prepared by each agency. To
   accomplish the objective of complying with the CFO Act, the agency is required to
   develop a system to prepare a complete set of financial statements on a timely basis in
   accordance with generally accepted accounting principles (GAAP). The statements
   are to result from an accounting system that is an integral part of a total financial
   management system containing sufficient structure, effective internal control, and
   reliable data. Financial reporting also consists of policies and procedures related to
   the processing and summarizing of accounting entries and the preparation of financial
   statements.

   FCC’s financial reporting process continues to improve when compared with prior
   years. However, the continued reliance on inadequate financial management systems
   results in a material weakness in financial reporting.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 2
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      A. Integrated Financial Management Systems (Modified Repeat Condition)

          OMB Circular No. A-127, Financial Management Systems, requires that each
          agency establish and maintain a single integrated financial management
          system. Without a single integrated financial management system to ensure
          timely and accurate financial data, poor policy decisions may occur due to
          inaccurate or untimely information. Managers are less likely to be able to
          report accurately to the President, Congress, and the public on Government
          operations in a timely manner. In addition, scarce resources are more likely to
          be directed toward the collection of information rather than to delivery of the
          intended programs.

          Having a single, integrated financial management system does not necessarily
          mean having only one software application covering all financial management
          systems needs within an agency. Also, it does not mean that all information is
          physically located in the same database. Rather, a single, integrated financial
          management system is a unified set of financial systems linked together
          electronically in an efficient and effective manner to provide agency-wide
          financial system support. Integration means that the user is able to have one
          view into systems such that, at whatever level the individual is using the
          system, he or she can obtain needed information efficiently and effectively
          through electronic means. Interfaces are acceptable as long as the supporting
          detail is maintained and accessible to managers. Interface linkages must be
          electronic unless the number of transactions is so small that it is not cost
          beneficial to automate the interface. Easy reconciliations between systems,
          where interface linkages are appropriate, must be maintained to ensure data
          accuracy.

          FCC’s consolidated financial statements were compiled and prepared from
          four separate core financial systems administered by four separate reporting
          components. At financial statements preparation time, FCC goes through the
          exercise of compiling financial data in separate spreadsheets in a complex and
          time-consuming process. The financial data included in the spreadsheets is
          consolidated for financial statement preparation.

               •   FCC’s Core Financial System

                   FCC utilizes the Federal Financial System (FFS) as its general ledger
                   and core financial management system. FFS is not capable of
                   generating most user reports for data analysis on a real time basis. To
                   compensate for FFS’s limitations, FCC uses a software application to
                   download data from FFS for analysis. Other financial management



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 3
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



                   systems used by FCC include a property management system, loan
                   spreadsheets, license databases, collection system, cost system,
                   Revenue Accounting and Management Information Systems
                   (RAMIS), payroll systems, and various spreadsheet applications. Of
                   these systems, certain accounts receivable/collections modules in
                   RAMIS began a daily interface with FFS in December 2002.
                   Additionally, the payroll system interfaced with FFS at the time
                   payroll is processed. None of the remaining mentioned financial
                   management systems are integrated with FFS.

      Recommendation:

      1. Assess the degree and adequacy of the planned integration for the overall
         financial management systems. These integrations should include all
         receivable transactions to be recorded in RAMIS, the fee billing system, the
         interface with the loan servicer systems, the auction subsidiary systems, the
         cost systems, and the various stand alone systems such as property
         management systems, spreadsheets and financial reporting.

      Management Comment:

      Management concurs. The Commission is working diligently to accomplish a
      fully integrated financial management system. During fiscal year (FY) 2003,
      specific actions included implementing the accounts receivable module of
      RAMIS for all collections, interfacing and posting of the collection activity feed
      from the lockbox provider into RAMIS and ultimately FFS, and testing the
      posting of the daily transmission of loan transactions from our loan service
      provider in preparation for assuming loan servicing responsibilities of the FCC
      loans on October 1, 2003. An additional two modules are planned for
      implementation in FY 2004. Effective October 1, 2003, the FCC implemented a
      new cost accounting system which is linked between RAMIS and FFS. The FCC
      will review other external systems not yet integrated and determine the feasibility
      of linking those systems.

               •   Reporting Components Core Financial Systems

                   The FCC’s reporting components, Universal Service Fund (USF), the
                   Telecommunications Relay Services Fund (TRS), and the North
                   America Numbering Plan (NANP), have general ledger systems that
                   do not interface with FCC’s accounts receivable sub-ledger, accounts
                   payable sub-ledger, or cash systems. In addition, each of these sub-
                   systems is an independent system or is comprised of spreadsheets.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 4
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



                 Monthly, accounting transactions from various systems are
                 summarized in spreadsheets for data entry into FCC’s general ledger
                 system.

                 The USF, TRS, and NANP general ledger systems are also not United
                 States Standard General Ledger (USSGL) compliant. There are no
                 budgetary entries in these general ledgers. FCC prepares a crosswalk
                 of the USF, TRS, and NANP proprietary accounts to USSGL.

                 On October 3, 2003, FCC released order FCC 03-232 which requires
                 the administrators of the USF and TRS funds to prepare financial
                 statements for the funds consistent with generally accepted accounting
                 principles for Federal entities (Federal GAAP) and to keep the funds in
                 accordance with the USSGL. Implementation of these new rules is to
                 be completed by FY 2005.

                 OMB Bulletin No. 01-09 states, “When the reporting entities of which
                 these components are a part, issue consolidated or consolidating
                 statements that include such components, GAAP for Federal entities
                 shall be applied to these components.”

      Recommendation:

      2. Continue open communication with the reporting components’ management
         and if necessary, develop guidance for their compliance with the Federal
         GAAP.

      Management Comment:

      Management concurs. During FY 2003, FCC made advancements in the
      reporting of its components and will continue to improve the guidance and
      communications to ensure regulatory compliance.

      B. Spreadsheet Subsidiary Ledger Systems (Modified Repeat Condition)

          FCC’s two major financial activities are related to loans receivable and
          auctions. The activities and relevant information of these accounts are tracked
          and accounted for in subsidiary ledger systems that are comprised of
          numerous manually, intensively prepared, elaborate and complex
          spreadsheets.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 5
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



          The relevant information maintained in the loan subsidiary system consists of
          original and adjusted loan principal, quarterly billed interest, suspension
          interest, payment data, application of payments, and cash flow data for the
          credit subsidy calculator, among other items. The data maintained in the
          auction-related subsidiary ledger includes winning bids, net winning bids, first
          down payment from upfront payment, additional first down payment paid,
          penalties, second down payment paid, outstanding balance, collections,
          deferred revenue, transferred to revenue, and revenue. These spreadsheets
          support the flow of transactions throughout the year.

          The applications applied in the loan subsidiary systems and the auction-related
          subsidiary systems have been implemented to their maximum potential use,
          thereby creating certain problems in addition to the inherent risks and
          limitations in a spreadsheet-based application, such as:

               •   Substantial manual intervention, thereby increasing the risks of human
                   errors;
               •   Formulas can be changed easily, affecting the flow through the rest of
                   the spreadsheets;
               •   Difficulty in tracking changes made to spreadsheets, including formula
                   changes;
               •   Difficulty in verifying change controls and that correct changes were
                   made;
               •   Unique transactions are difficult to incorporate; and
               •   Difficulty in performing automatic checks and balances on the
                   transactions in the spreadsheets.

          FCC plans to replace the auction-related spreadsheets with RAMIS, and has
          contracted with a loan-servicing firm to service its loan portfolio in FY 2004.

          Joint Financial Management Improvement Program’s (JFMIP) Direct Loan
          System Requirements, states that a direct loan system interact with the core
          financial system to perform fund control checks, initiate or record payment,
          record the results of other direct loan-related financial transactions, and
          acknowledge receipt of financial information exchange. It must be able to
          perform automatic system balancing to ensure that direct loan partners are
          able to agree on transaction number and dollar values passed, processed and
          rejected. This automated balancing includes cumulative subsidiary account
          balancing to the general ledger.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 6
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



          OMB Circular A-127 states, “The design of financial management systems
          shall reflect an agency-wide financial information classification structure that
          is consistent with the USSGL, provides tracking of specific program
          expenditures, and covers financial and financially related information. This
          structure will minimize data redundancy, ensure that consistent information is
          collected for similar transactions throughout the agency, encourage consistent
          formats for entering data directly into the financial management systems, and
          ensure that consistent information is readily available and provided to internal
          managers at all levels within the organization.”

      Recommendation:

      3. Ensure RAMIS includes all the functional requirements for an auction
         financial accounting system.

      Management Comment:

      Management concurs. The functional requirements for the auction financial
      accounting module have been written and programmed. They are currently in a
      test mode and will be tested during an auction scheduled in December 2003.
      Upon successful testing, implementation is planned for FY 2004.

      Recommendation:

      4. Ensure transition and conversion controls from the current system to RAMIS
         in FY 2004 are implemented.

      Management Comment:

      Management concurs. The two modules expected to be implemented in FY 2004
      are either in test mode or requirements design phase. Throughout the
      programming and testing of the auctions module, reconciliations to ensure the
      accuracy and completeness of the data were performed and continue to be
      performed. The automated generation of accounting transactions has been
      verified against the manual transactions to ensure all transactions are being
      accounted for in each phase of the module.

      Recommendation:

      5. Ensure transition and conversion controls from the current loan system to the
         outside loan-servicer systems in FY 2004 are implemented.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 7
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC’s loan servicer has an integrated direct loan system to
      account for all events (loan extension, accounting servicing, Department of the
      Treasury cross-servicing, portfolio management, delinquent debt collection, and
      other financial reporting requirements) in a single loan system. Reconciliations
      between RAMIS, the loan service provider’s system, and the spreadsheets have
      been performed for more than 6 months before the October 1, 2003 conversion
      date, to ensure the controls and functions of the new system are operating
      accurately and effectively. FCC will continue this practice through the first
      quarter of FY 2004.

      C. Timely Recording and Analysis of the FCC and Reporting Components’
         Financial Activities (Modified Repeat Condition)

          Transaction level activities were not recorded in the general ledger and/or
          subsidiary ledger on a timely basis and analysis of several activities was
          inadequate. Although FCC’s interim financial statements were more complete
          this year when compared to prior years in terms of reported accounting
          transactions, several significant transactions were recorded through period-end
          journal voucher entries or through the use of “on-top” financial statement
          adjustments. For example, loan activities (principal and interest receivable,
          interest revenue, and application of collections) were recorded using a journal
          voucher entry at the end of each quarter.

          Not recording or delayed recording of transactions diminishes the value of
          financial management reports for decision-making purposes. Standards for
          Internal Control in the Federal Government issued by the General Accounting
          Office (GAO) states, “Transactions should be promptly recorded to maintain
          their relevance and value to management in controlling operations and making
          decisions.”

      Recommendation:

      6. Implement procedures to ensure financial transactions are recorded and
         analyzed at least once a month or more frequently as appropriate. For
         example, perform analysis of current year, multi-year regulatory fee
         collections at least quarterly in addition to evaluating the effect of multi-year
         regulatory fees received in prior years and report the current activities or
         balances in the interim financial statements.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 8
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. Effective the third quarter FY 2003, FCC implemented an
      analytical procedure to review and post the quarterly impact of the multi-year
      regulatory fees collected throughout the fiscal year. The analysis and supporting
      information is provided to the financial statements staff for posting to the
      quarterly financial statements. And as of October 1, 2003, daily transactions for
      loans are posted to FCC’s financial system from the loan service provider and are
      reviewed and reconciled. During FY 2004, procedures on these processes will be
      reviewed and updated to include any changes.

      D. FCC’s Supervisory Review of the USF Financial Reporting Process
         (Modified Repeat Condition)

          In FY 2003, FCC instituted review procedures to ensure that financial
          information from the reporting components is accurate, reasonable, and
          properly supported prior to inclusion in the FCC consolidated financial
          statements. However, the policies and procedures relating to the reporting
          components’ financial reporting, compilation, and review procedures are
          elaborated in a section of the policies and procedures manual, which is in
          draft. This is a condition that has existed for a number of fiscal years.
          Additionally, the procedures are generally limited to analytical comparisons
          with prior year balances and review of current year reconciliations. There are
          no steps to access and assure data integrity, completeness, existence, quality,
          or reliability of the financial data provided for compilation. With the number
          of material exceptions noted in our audit of the interim USF financial reports,
          the FCC’s supervisory review and compilation controls need to be
          strengthened to be effective.

          FCC management is responsible for obtaining reasonable assurance on the
          completeness and the reliability of the reporting components’ financial
          reporting and their compliance with laws and regulations before their financial
          information is consolidated into the FCC consolidated financial statements.

      Recommendations:

      7. Conduct a comprehensive review of the reporting components’ financial
         accounting and reporting policies to ensure their policies are acceptable and in
         compliance with FCC’s policies.

      8. Perform a quality control review of the reporting components’ financial
         information to ensure that the information is complete, accurate, reasonable,




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 9
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III         INDEPENDENT AUDITOR’S REPORT
                    ON INTERNAL CONTROL



          and properly presented prior to incorporation in FCC’s consolidated financial
          statements.

      9. Finalize and implement the FCC policies and procedures related to the
         reporting components’ financial reporting, compilation, and review process to
         include review procedures that will assess and assure data integrity,
         completeness, existence, quality and reliability of the financial data.

      Management Comment:

      Management concurs. Over the past year, FCC and its reporting components met
      on a regular basis to discuss FCC policy and to review accounting issues and the
      financial condition of the funds. FCC approved an order that requires one
      reporting component to conform to Federal GAAP requirements beginning
      October 1, 2004. Currently, FCC is working on the possibility of conformance
      with its other reporting components. Also, FCC modified its policies and
      procedures, which will be finalized in FY 2004, to include new reporting
      requirements of its reporting components. During FY 2004, a review of the
      current policies and procedures manual for Associate Managing Director-
      Financial Office will be performed.

      E. Federal Financial System Setup and Posting Model Definitions (Modified
         Repeat Condition)

          In FY 2003, FCC continued to encounter incorrect FFS system setup and
          posting model definitions which required correcting previously recorded
          transactions. These problems resulted in non-compliance with the transaction
          posting models consistent with USSGL guidance and policies when recording
          and classifying some transactions. This system deficiency may continue to
          impair the quality and reliability of the financial management information
          even though the incorrect entries were identified and eventually corrected.

      Recommendation:

      10. Perform a periodic or quarterly update of FFS system setup and posting model
          definitions to ensure timely correction of outdated models and compliance
          with the latest transaction posting models consistent with USSGL guidance
          and policies for recording and classifying transactions. Also, ensure changes
          made to FFS are tested and accepted before entering production.




03-AUD-05-07        REPORT ON THE FEDERAL COMMUNICATIONS                        Page 10
                    COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC will continue to review its existing posting models
      for improvements and efficiency.

II.   Auction Transactions

      The Wireless Telecommunications Bureau (WTB) is the primary source of
      substantial activities on auctions and licensing that trigger accounting transactions
      to be acted upon by the Financial Operations Center (FOC). These activities
      include loan information, licensing decisions, assignments and assumptions,
      results of an auction, winning bid, bidding credits, upfront payments, first and
      second down payments, negotiations, waivers, penalties, auction rules and
      regulations, and many more. When auctions and licensing activities have a
      financial impact, the operating procedure is for WTB to notify and provide FOC
      with the necessary information and supporting documentation. We questioned the
      effectiveness of this operating procedure between the WTB and FOC as explained
      below.

      Our audit disclosed 2 instances where FCC did not record approximately $229
      million and $61 million (excluding interest, penalties and other cost) of accounts
      receivable until they were brought to FCC’s attention during the audit. These
      accounts receivable represent the difference between the original auction
      winning bid amount and the re-auction winning re-bid amount, plus a penalty
      for defaulting on a winning bid. These financial activities originated from
      orders released by the WTB in FY 2001 and FY 2000.

      Under FCC rules, a bidder who fails to remit the required down payment for the
      licenses for which it was the highest bidder shall be deemed to be in default on
      those licenses. Pursuant to FCC’s rules in 47 Code of Federal Regulations
      (CFR) Section 1.2109 (b), Section 24.704, and Section 1.2104(g)(2) (1996), a
      winning bidder that defaults on a payment obligation is subject to a default
      payment. Specifically, the bidder is required to pay the difference between the
      amount bid and the amount of the winning bid the next time the license is
      offered by FCC (so long as the subsequent winning bid is less than the amount
      bid), plus an additional payment equal to three percent of the defaulter’s bid, or
      the subsequent bid, whichever is less (47 CFR Section 24.704 (1996)). In
      addition, the debt, if assessed, is subject to interest, penalties, and
      administrative costs, and interest accrues from the date FCC issues an order as
      permitted under 31 U.S.C. Section 3717.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 11
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Although these accounts receivable did not impact the balance sheet at
      September 30, 2003 because FCC determined that the net realizable value would
      be zero, the basis for this determination was that the accounts receivable were
      over a year old and its policy is to reserve 100 percent for such receivables. In
      addition, FCC believes that the chance of collecting the accounts receivable is
      diminished when a default occurs, and one of the companies is challenging the
      default payment in court.

      Equally important to note is that FCC’s tracking of the details of these licenses
      from the original auction to subsequent re-auctions was in the form of multiple
      spreadsheets and other supporting documents from various sources. Since the
      auctioning of licenses is a significant portion of FCC’s operations, it is essential
      that information about the current status of a license and its history be easily
      accessible and bureaus and offices have the ability to update and share both
      financial and non-financial information.

      Recommendations:

      11. Establish an effective process between WTB and FOC to ensure that all
          financial related activities of auction and licensing operations are recorded and
          timely recorded.

      12. Establish a database linked to RAMIS and the future auction/loan subsidiary
          system to create an audit trail or record of delinquent winning bidders whose
          licenses were cancelled and then re-auctioned, and the amounts collected or
          receivable from the re-auction. While RAMIS is not yet operational for
          auction receivables, FCC should create and maintain a comprehensive
          schedule that will provide this information. The comprehensive schedule
          should be subjected to a quality control review and reconciliation should be
          performed on a periodic basis.

      13. Establish and implement collection enforcement procedures for outstanding
          receivables.

      Management Comment:

      Management concurs. FCC is currently working on establishing formal policies
      and procedures to address these concerns. In coordination with bureaus and
      offices within FCC, procedures should be completed early in the second quarter
      of FY 2004. Currently, external spreadsheets are maintained per auction and are
      updated to ensure all occurrences of cancellation and re-auctions are captured.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                           Page 12
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



       These spreadsheets will be used until the auction module is implemented in
       RAMIS in the second quarter of FY 2004. At that point, these transactions will be
       accounted for step by step within the system.

III.   Cost Accounting (Repeat Condition)

       The combination of the following reportable conditions made cost accounting a
       material weakness.

       A. Cost Accounting System (Repeat Condition)

          FCC continued to lack a cost accounting system that (1) collects and reports
          the costs of FCC’s activities and programs accurately and timely, and (2)
          meets the JFMIP System Requirements for Managerial Cost Accounting.

          FCC’s cost accounting system has not been a fundamental part of the financial
          management system. Although cost reports are generated and distributed to
          various FCC bureaus and offices, the reliability of these reports is
          questionable due to the lack of review of the cost allocation methodology and
          formulas, and the lack of review of the proper application of the cost
          accounting activity codes. Because the cost accounting system is inadequate,
          FCC management does not use its reports in preparing financial statements or
          analyzing program costs.

          FCC identified its responsibility segments for cost allocation purposes, but did
          not determine its related outputs and did not calculate the related output costs
          for its responsibility segments as part of its cost methodology. Also, the cost
          system could not provide information for performance measurement. FCC is
          implementing a new cost accounting system in FY 2004.

          Statement of Federal Financial Accounting Standards (SFFAS) No. 4,
          Managerial Cost Accounting Concepts and Standards for the Federal
          Government, requires reporting entities to perform a minimum level of cost
          accounting and provide basic cost information necessary to accomplish the
          many objectives associated with planning, decision making, and reporting.
          This minimum level includes collecting cost information by responsibility
          segments, measuring the full cost of outputs, providing information for
          performance measurement, integrating both cost accounting and general
          financial accounting by using the USSGL, providing useful information, and
          accommodating any of management’s special cost information needs that may
          arise due to unusual or special situations or circumstances.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 13
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



          Without a cost accounting system to centrally accumulate, organize and
          timely report cost data in a format that meets management’s current needs,
          such information is not readily available for use by managers to aid in
          routinely managing costs and in decision making. Also, FCC could not
          measure the full costs of outputs; could not institute a reporting frequency that
          was timely and on a regular basis without investing in significant resources;
          and had not integrated both managerial cost accounting and general financial
          accounting utilizing the USSGL.

      Recommendations:

      14. Ensure the cost systems to be implemented in FY 2004 meet the minimum
          requirements outlined in the JFMIP system requirements.

      15. Ensure the cost systems to be implemented in FY 2004 will provide
          information to meet the requirements of SFFAS No. 4.

      Management Comment:

      Management concurs. To address the cost accounting weakness, FCC initiated a
      review of systems and selected a new cost accounting system during FY 2002
      with planned implementation for October 1, 2003 for FY 2004 reporting. During
      FY 2003, key staff throughout the agency worked on the implementation of a new
      cost accounting system which addresses these key issues, provides more efficient
      and effective reporting for the bureaus and offices, and provides a critical
      management tool for budgeting, costing, full time equivalent (FTE) and program
      performance. The new system, Budget Execution and Management System, was
      implemented and initiated on October 1, 2003.

      B. Cost Allocation Process and Cost Finding Techniques (Modified Repeat
         Condition)

          As in prior years, to compensate for the lack of an effective cost accounting
          system and in order to prepare the Statement of Net Cost (SNC) by program,
          FCC downloaded program costs from FFS into a spreadsheet application.
          FCC used these spreadsheets and implemented cost finding techniques to
          allocate costs to FCC programs. The use of these complex allocation
          spreadsheets increases the risk of errors, and the risk for those errors not to be
          detected timely in the normal course of operation. For example, the following
          exceptions were identified only as a result of the audit process.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                            Page 14
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



               •   During interim testing, in our recalculation of the allocation of leave,
                   bureau overhead, and direction and support, we found many amounts
                   in the ending balance column “Subtotal After Final Bureau
                   Allocation” on the Bureau Overhead allocation tab of the spreadsheet
                   did not roll-forward correctly as the beginning balance column
                   “Subtotal After Final Bureau Allocation” on the Executive Allocation
                   tab of the spreadsheet.
               •   During interim testing, we noted that in one spreadsheet, the cost
                   allocation adjustment for the Spectrum Management (SM) and the
                   USF programs was calculated based on total costs after the allocation
                   of unassigned cost. However, in another spreadsheet (the SNC
                   Activity Split), the cost allocation adjustment was posted prior to the
                   allocation of the unassigned cost. This inconsistency resulted in
                   different cost bases used in allocation of program costs and revenue.

          FCC implemented cost finding techniques in the last quarter of FY 2002 to
          capture the costs of the SM and the USF programs for FY 2002. The cost
          finding techniques were implemented for a full year in FY 2003. This process
          entailed significant resources from FCC to manually analyze the data
          gathered. In the cost finding techniques, direct payroll cost is the significant
          data in determining the “full allocated cost” of a program. In our test to verify
          the accuracy of cost codes used by employees in charging their hours to the
          programs, we identified incorrect coding of leave hours due to codes already
          hard-coded in the payroll system.

      C. Matching Revenues to Costs (Repeat Condition)

          FCC allocated earned revenues in the same proportion as allocated costs
          instead of matching related revenues to costs. SFFAS No. 7, Accounting for
          Revenue and Other Financing Sources and Concepts for Reconciling
          Budgetary and Financial Accounting, states, “Related revenue should be
          matched with the cost.” Specific earned revenue should be matched against
          specific program costs in accordance with the program costs and revenue
          description in the budget submission to Congress.

      Recommendation:

      16. Review the propriety of the costing methodology and the matching of earned
          revenue against costs.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 15
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC will address this issue as part of an enhancement to
      the new cost accounting system. This particular issue will be addressed in late FY
      2004 or early FY 2005 after the development and implementation of the new cost
      accounting system.

IV.   USF Financial Reporting:        Accounting and Reporting Controls (Repeat
      Condition)

      The USF is a special receipt fund and a special account expenditure fund
      administered by Universal Service Administrative Company (USAC). USAC
      provides FCC with specific financial information on a monthly basis for external
      reporting and financial statement consolidation purposes. The USF financial
      operations are maintained independently of FCC. FCC relies heavily on USAC’s
      financial reporting controls and processes for the USF (see related finding in
      Section I.D. of this report).

      We identified the following control weaknesses in USAC’s accounting and
      reporting processes:

               •   Non-recording of the budgetary journal entries,
               •   Inadequate supervisory review of the financial information,
               •   Untimely communication of identified accounting adjustments to FCC
                   for consideration in the consolidated financial statements, and
               •   Inadequate review procedures prior to making a disbursement to “at
                   risk” service providers who were in the “do not disburse” status.

      GAO Standards for Internal Control in the Federal Government state, “Internal
      control activities help ensure that management’s directives are carried out. The
      control activities should be effective and efficient in accomplishing the agency’s
      control objectives.” Examples of control activities include proper execution of
      transactions and events, accurate and timely recording of transactions and events,
      and appropriate documentation of transactions and internal control.

      Recommendations:

      17. Account for USF activities in accordance with the Federal GAAP.

      18. Ensure effective implementation of the supervisory reviews.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 16
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III         INDEPENDENT AUDITOR’S REPORT
                    ON INTERNAL CONTROL



      19. Tighten controls to ensure that timely communication to appropriate parties is
          made regarding service providers that are placed on the watch list. Compare
          payments to be made against the disbursement watch list prior to releasing a
          payment, or institute a payment system, flagging the service providers in the
          “do not disburse” list.

      Management Comment:

      Management concurs. FCC now requires the financial reporting and auditing of
      the USF to conform to Federal GAAP requirements beginning October 1, 2004.
      The policies and procedures of the reporting components will be reviewed and
      updated as appropriate to respond to findings identified during the audit.
      Additionally, FCC will review its existing policies and procedures on financial
      reporting to ensure supervisory oversight and review are incorporated where
      necessary.

V.     Information Technology (IT) (Modified Repeat Condition)

      The reportable conditions below, when evaluated together, made IT a material
      weakness.

      A. Compliance with OMB Circular No. A-130 Requirement for a
         Comprehensive Security Plan (Modified Repeat Condition)

          Some of the key components of an entity-wide security program are the
          performance of risk assessments and the development of a comprehensive
          security plan. Every organization needs a set of management procedures for
          identifying and assessing risks, and deciding what policies and controls are
          needed to achieve effective security controls.

          OMB Circular No. A-130, Management of Federal Information Resources,
          Appendix III, Security of Federal Automated Information Resources, as
          revised in November 2000, established a minimum set of controls for federal
          agencies, including risk assessments, assigning responsibility for security,
          security planning, periodic review of security controls, and management
          authorization of systems to process information.

          Deficiencies in security controls that significantly impact FCC’s ability to
          protect its sensitive or critical resources include:




03-AUD-05-07        REPORT ON THE FEDERAL COMMUNICATIONS                         Page 17
                    COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



               •   FCC directive 1131.1 “Information Security Manual” has expired.
                   FCC has not issued a new directive to replace the expired information
                   security directive.
               •   FCC has not completed the implementation of its entity-wide security
                   program plan. FCC has also not certified and accredited its entity-
                   wide security program plan.
               •   FCC has not completed nine of its nineteen risk assessments for its
                   major applications and mission-critical general support systems.
               •   FCC has finalized eighteen security plans for certification and
                   accreditation. However, one remaining security plan for the Federal
                   Personnel/Payroll System (FPPS) is in the development stage.
               •   The routine review of security controls over FCC’s systems is not
                   consistently reported and the certification and accreditation of these
                   systems is not conducted timely. FCC completed five formal
                   certifications and accreditations of its systems during FY 2003 and
                   completed an additional five certifications and accreditations in
                   October 2003.
               •   FCC does not have adequate audit trails facility utilization and review.
                   The Computer Security Officer has not developed and distributed a
                   Commission-wide policy to make mandatory the use of audit trails
                   utilization and review.

      Recommendation:

      20. Issue a new directive to replace the expired information security directive.

      Management Comment:

      Management concurs. A revised information security directive is expected to be
      completed in early second quarter of FY 2004.

      Recommendation:

      21. Complete the implementation, certification and accreditation of an FCC-wide
          security plan as prescribed by OMB Circular No. A-130.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 18
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III         INDEPENDENT AUDITOR’S REPORT
                    ON INTERNAL CONTROL



      Management Comment:

      Management concurs. The FCC Information Technology Center (ITC) created
      the FCC Information Technology Strategic Plan dated July 2002. The FCC
      Information Technology Strategic Plan includes and outlines the FCC ITC
      computer security infrastructure and computer security strategy for the FCC IT
      resources. FCC ITC management believes the FCC Information Technology
      Strategic Plan serves as a basis for the entity-wide security plan.

      Recommendation:

      22. Conduct current risk assessments for the two FCC general support systems
          and seven major applications.

      Management Comment:

      Management concurs. Risk assessments are an integral component of the FCC
      ITC Computer Security Program (CSP) certification and accreditation process.
      CSP activities are ongoing for FY 2004 to conduct risk assessments for the
      remaining major application and general support systems.

      Recommendation:

      23. Develop and implement security plans for FCC’s one major application
          system, FPPS.

      Management Comment:

      Management concurs. FCC received the FPPS security plan from its external
      servicer. FCC’s CSP will develop an additional security plan which addresses
      FCC’s security roles and responsibilities.

      Recommendation:

      24. Establish a system to periodically review security controls over FCC’s
          computer systems in accordance with OMB Circular No. A-130, Appendix
          III.

      Management Comment:

      Management concurs. FCC’s CSP established the certification and accreditation
      tracking sheet during FY 2003. The tracking sheet allows the CSP to track and




03-AUD-05-07        REPORT ON THE FEDERAL COMMUNICATIONS                     Page 19
                    COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      schedule review and test dates of all major applications, minor applications,
      general support systems, and other activities conducted by the CSP in accordance
      with OMB Bulletin Circulars No. A-127 and A-130, Appendix III. To support the
      review process, the CSP will develop formal documentation which outlines the
      activities conducted by the CSP.

      Recommendation:

      25. Complete the certification and accreditation of FCC’s major applications and
          general support systems based on the security plans developed and
          implemented.

      Management Comment:

      Management concurs. As of October 2003, the CSP certified and accredited ten
      major applications. CSP activities are ongoing for FY 2004 to certify and accredit
      the remaining major application and general support systems.

      Recommendation:

      26. Enhance audit trail facility utilization and review.

      Management Comment:

      Management concurs.

      B. Accelerate Efforts to Develop and Test FCC’s Contingency Plans
         (Modified Repeat Condition)

          Losing the capability to process and protect information maintained on FCC’s
          computer systems can significantly impact FCC’s ability to accomplish its
          mission. The purpose of service continuity controls is to ensure that, when
          unexpected events occur, critical operations continue without interruption or
          are promptly resumed. FCC does not have procedures in place to protect
          information resources and minimize the risk of unplanned interruptions nor a
          plan to recover critical operations should interruptions occur. FCC is not in
          compliance with OMB Circular No. A-130 Appendix III and Federal
          Information Processing Standards Publications (FIPS PUBS) 87, Guidelines
          for ADP Contingency Planning.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                        Page 20
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



          This weakness was reported in FY 1999, and except for the Auctions network,
          FCC has not completed the development and documentation of a
          comprehensive disaster recovery and business continuity plan. FCC has
          procured contractor assistance in completing this task.

          The deficiencies reported in prior years will continue to exist until FCC
          completes and tests the effectiveness of the security plan being developed.
          The service continuity control deficiencies listed below, could affect FCC’s
          ability to respond to a disruption in business operations as a result of a disaster
          or other long-term emergency.

               •   FCC has not formally identified and prioritized all critical data and
                   operations on its major applications and the resources needed to
                   recover them, if there is a major interruption or disaster.
               •   FCC has not integrated the contingency plans of its data centers,
                   networks and telecommunication facilities in a comprehensive disaster
                   recovery plan (DRP).
               •   FCC does not participate in the Disaster Recovery Test of the FFS
                   Application. FCC does not have a copy of the FFS Security Plan and
                   the DRP implemented by its service provider.
               •   FCC provided the Fee Filer online system for the submission of
                   Annual Regulatory Fees and related data. During the recent fee filing
                   period, the system was off-line for approximately 7.5 hours due to a
                   system crash. Major hardware was replaced, which resolved the
                   problem. However, a backup server was not designated for the Fee
                   Filer at the time of the system crash and the tape restoration
                   procedures were not initiated since the cause of the system crash was
                   determined to be hardware related. The Fee Filer system was
                   determined as a critical support function for RAMIS; however,
                   additional funding resources were not requested to provide enhanced
                   system redundancy.

      Recommendations:

      27. Develop and test contingency plans for FCC’s major applications, networks,
          and telecommunications facilities.

      28. Obtain written documentation from FCC’s data centers of developed and
          tested contingency plans and participate in the scheduled tests of the plans.

      29. Develop a comprehensive contingency plan that integrates the individual
          plans of its data centers, networks, and telecommunications facilities.



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 21
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      Management Comment:

      Management concurs. FCC completed an FCC Business Impact Analysis and
      Alternate Processing Options Analysis during FY 2003, which outlines and
      prioritizes FCC critical data and operations of its network. Efforts are ongoing by
      the CSP to complete the DRP that will include detail recovery procedures for
      RAMIS and all other major applications. Testing and training on the DRP is
      scheduled for FY 2004. Additionally, the FCC Application Integration Group
      will work to replicate the Fee Filer application at a secondary location for
      availability during the activation of the DRP.

      C. Inadequate Password Controls for USF Major Applications

          •    Access to the Simplified Tracking and Review System is controlled via
               log-ins and authorization. The user ID and password are set up by the IT
               Security Services. We noted the following password control weaknesses:

                  •   IT Security Services staff selects the password for new users.
                      Users are not required to change their passwords after first time
                      logon and the passwords do not expire.
                  •   IT Security Services staff emails the new user’s ID and password
                      to requestor’s direct manager. The direct managers notify the user
                      their user ID and password.

          •    USAC, via its service provider, out-sources data entry services to an
               outside company (contractor). The contractor users are authorized access
               to the service provider’s internal website. The service provider security
               administrator sets up the contractor employee’s user ID and password.
               The passwords for the contractor users are defined by the contractor
               contact. Users are not required to change their passwords after first time
               login and the passwords have no expiration date.

          •    The passwords for the Disbursement Aggregation System (DAS), ABCD
               application and Great Plains application do not expire and users are not
               required to change their passwords after first time logon.

               FIPS PUBS 112, Password Usage, identifies fundamental electronic data
               processing (EDP) management functions pertaining to passwords and
               specifies some user actions required to satisfy these functions. In addition,
               it specifies several technical features which should be implemented in an
               EDP system in order to support a password system. These provisions
               have not been implemented as noted above.



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 22
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      Recommendation:

      30. Strengthen password controls to comply with FIPS PUBS 112 Password
          Usage.

      Management Comment:

      Management concurs. Changes will be implemented relative to the system and its
      password controls to address the findings.

      D. Non-compliance with OMB Circular No. A-130 Requirements for the
         USF

          USAC is responsible for ensuring the security of the data in maintaining the
          USF. USAC contracted with a firm to perform certain accounting services,
          disbursement, collection and tracking of the USF transactions, but is
          ultimately responsible for ensuring the information technology related
          requirements are complied with by the firm.

               •   We examined the most recent risk review and excerpts performed by
                   the firm and noted that the firm assessed only the business risk of a
                   current major modification to the USAC contract with the firm. The
                   policy of conducting an independent risk review at key milestones in
                   each engagement is not sufficient for the risk assessments required by
                   OMB No. A-130, Appendix III. The firm has not performed a risk
                   assessment that complies with OMB No. A-130, Appendix III for the
                   USAC major applications.
               •   “eUSAC IT Standard-Procedures-and-Policies” prepared by the firm
                   are the general IT procedures for the USAC project. The firm has not
                   developed a security plan for each major application supporting the
                   USAC project.

      Recommendation:

      31. Perform risk assessments for all USF major applications every three years or
          whenever there is a major change to system software or hardware.

      Management Comment:

      Management concurs. Although it has not been determined that Circular A-130
      applies for such systems, FCC management will require USAC to perform a
      review of application controls, as defined in OMB Circular A-130, Appendix III,



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 23
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      for each USF application that is a major application as defined in Appendix III.
      Management will require such reviews to be performed at least every three years
      for each application. Management may also require such a review to be
      performed when management determines that it is warranted by a change to
      system software or hardware.

      Recommendation:

      32. Develop and implement security plans for each USF major application.

      Management Comment:

      Management concurs. Although it has not been determined that Circular A-130
      applies for such systems, FCC management will require USAC to develop and
      implement an application security plan, as defined in OMB Circular A-130,
      Appendix III, for each USF application that is a major application as defined in
      Appendix III.

      E. Disaster Recovery Test for the USF

          OMB No. A-130, Appendix III, and FIPS PUB 87 require federal agencies to
          periodically test their disaster recovery plan and keep it current in case of a
          disaster or business interruption. The firm contracted to perform accounting
          services for USAC currently uses an internally prepared disaster recovery
          planning manual which was issued in 2001. The manual provides guidelines
          for recovering wide area network, internet services on the in-bound and out-
          bound portals and critical operations in case of a disaster.

          The firm confirmed there have been no changes and updates to the manual
          since 2001 and could not provide documentation supporting the fact that the
          manual has been subjected to continual and rigorous management review in
          order to ensure it is up-to-date. In addition, a disaster recovery test has not
          been performed.

      Recommendation:

      33. Periodically review and update the disaster recovery manual to reflect current
          conditions. Recent plan reassessments should be documented. The disaster
          recovery testing should be performed at least once a year. The test results
          should be analyzed and the plan should be changed accordingly.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 24
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. Although it has not been determined that Circular A-130
      applies for such systems, FCC management will require USAC to include
      contingency planning and testing in the application security plan for each USF
      system that is a major application as defined in OMB Circular A-130, Appendix
      III.

REPORTABLE CONDITIONS

VI.    Revenue Recognition (Modified Repeat Condition)

      In FY 2003, as in the prior year, FCC did not fully comply with the various
      revenue recognition standards and the established accounting policy for the
      recognition of revenue from auction collections for licenses. Our audit disclosed
      instances where revenue from regulatory fees and auctions were not recorded as
      revenue at the appropriate time. For instance, four licensees received Prepared to
      Grant Public Notices (FCC’s auction revenue recognition point) in March 2003,
      but their upfront and first down payments were not transferred out of deferred
      revenue and into revenue as of March 31, 2003 interim reporting period. Also,
      four auction collections, all of which were second down payments, were
      incorrectly recorded as revenue in the general ledger at the time of collection
      rather than as a reduction to a receivable balance. Moreover, incorrect
      transaction processing resulted in recognizing all auction and multi-year
      regulatory fee collections as revenue at the time of collection.

      SFFAS No. 7 states, “Revenue from exchange transactions should be recognized
      when goods and services are provided to the public or to another Government
      entity at a price,” and “Non-exchange revenue is recognized when a reporting
      entity establishes a specifically identifiable, legally enforceable claim to cash or
      other assets.” In addition, the standard indicates, “Revenue from specific
      exchange type transactions should be recognized as follows: …(d) when services
      are rendered continuously over time or the right to use an asset extends
      continuously over time, such as the use of borrowed money or the rental of space
      in a building, the revenue should be recognized in proportion to the passage of
      time or the use of an asset.”

      Recommendations:

      34. Establish and implement accounting procedures that will track the status
          (issuance of Prepared to Grant Public Notice) of auction licenses as “not
          granted,” “ready to grant,” and “granted.” This will include tracking the dates



03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                          Page 25
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



          when the status of the license changed and reference to supporting
          documentation such as the Prepared to Grant Public Notice.

       35. Implement procedures to ensure that revenue transactions are recorded in the
           proper accounting period. One of these procedures should include the use of
           the billing documents on all revenue related transactions and properly and
           timely applying collections to the billing documents.

       Management Comment:

       Management concurs. FCC continues to improve the process and procedures
       relative to tracking the status of licenses not granted, ready to grant, and granted.
       The FCC is in the process of testing the RAMIS auctions module that will allow
       posting of status on a real-time basis. The auctions module will be implemented
       in second quarter of FY 2004.

VII.   RAMIS Application and Processes

       A. Electronic Data Processing Controls

          FCC Office of Inspector General (OIG) engaged a firm to review the RAMIS
          application’s EDP controls. The report identified several weaknesses in
          internal EDP controls that collectively are considered a reportable condition.
          The weaknesses are explained in more detail in a separate report dated
          November 24, 2003, and titled, Report on Audit of the Revenue Accounting
          and Management Information System (RAMIS) System released by the FCC
          OIG.

       Recommendation:

       36. Develop and/or revise existing procedures to address the weaknesses noted in
           the FCC OIG audit report on the RAMIS system.

       Management Comment

       Management concurs. FCC provided responses to the aforementioned report in
       October 2003. For findings requiring resolution, plans will be generated for
       corrective action. If necessary, policies will be updated and new ones drafted to
       complete the action plan.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 26
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      B. RAMIS Accounts Receivable Module

          Fines and forfeitures and regulatory fee receivables were fully converted to
          RAMIS in FY 2003. Our audit identified numerous errors in the recorded
          receivables as follows:

               •   Bill dates or bill due dates recorded in RAMIS were not the correct
                   dates based on the supporting documentation;
               •   Budget fiscal year in RAMIS was not the budget fiscal year to which
                   the receivable actually pertained;
               •   The type of supporting documentation (Notice of Apparent Liability,
                   Notice of Forfeitures, Consent Decree, and Forfeiture Order) of the
                   receivable in RAMIS did not agree to the actual supporting
                   documentation;
               •   Bill due date for unpaid regulatory fee was a date other than the
                   September deadline;
               •   The transaction date of a receivable in RAMIS changed each time the
                   transaction was queried or reviewed;
               •   Receivables were recorded in the wrong fund;
               •   Amount recorded on RAMIS was different from the supporting
                   documentation; and
               •   Activities such as a collection were not recorded in RAMIS.

      These errors were primarily due to system limitations in RAMIS, but also due to
      human errors such as mispostings and misplaced supporting documentation.

      The GAO Standards for Internal Control in the Federal Government states that
      accurate and timely recording of transactions and events should be part of the
      entity’s control activities.

      Recommendations:

      37. Perform post-implementation tests of the RAMIS accounts receivable
          application to ensure that all potential limitations and additional requirements
          are identified and corrected.

      38. Implement procedures to ensure that FOC receives all supporting
          documentation of a fines and forfeiture financial activity.

      39. Implement records maintenance procedures to prevent documentation from
          being misplaced.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 27
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      40. Strengthen supervisory review procedures.

      Management Comment:

      Management concurs. A new procedure is currently in place to identify any
      processing or systems limitation for modifications to the RAMIS system. As
      modules are implemented this procedure will be utilized to address any systems
      changes necessary. In addition, policies and procedures will be reviewed and
      updated for any system changes in processing, to include additional supervisory
      oversight and review. A review of the existing policies and procedures manual
      will be performed in FY 2004.

      C. Collections in RAMIS

      Our tests identified certain weaknesses related to collections in RAMIS as
      follows:

               •   Source documentation for one or more collection activities were
                   merged as one activity in RAMIS. This reporting format makes
                   reconciliation between the bank, RAMIS and the Department of the
                   Treasury’s data more time consuming and potentially difficult;
               •   Collections were not posted to RAMIS timely;
               •   Collections were not recorded in the appropriate fund;
               •   The RAMIS Receipts Detail Report did not agree with the total cash
                   deposit amount reported by the bank to the Department of the Treasury
                   and FFS; and
               •   While the total collections amount from RAMIS reports could be
                   agreed to the total cash deposits in FFS, the details supporting the
                   individual line items could not be specifically identified in RAMIS.

          GAO’s Standards for Internal Control in the Federal Government states,
          “Transaction should be promptly recorded to maintain their relevance and
          value to management in controlling operations and making decisions.”
          Further, application controls are “designed to help ensure completeness,
          accuracy, authorization, and validity of all transactions during application
          processing. Controls should be installed in an application’s interfaces with
          other systems to ensure that all inputs are received and are valid and outputs
          are correct and properly distributed.”




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 28
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      Recommendation:

      41. Create reports in RAMIS that will provide details of each summary line item
          posted in FFS.

      Management Comment:

      Management concurs. The report has been created, currently being tested, and
      will be run daily to assist in the reconciliation procedures between the financial
      systems.

      Recommendation:

      42. Re-write and test the RAMIS Receipts Detail Report to ensure that RAMIS
          accurately captures the bank’s detail deposit information accurately and
          timely.

      Management Comment:

      Management concurs. FCC reviewed the financial reports from RAMIS and is
      modifying those to provide the most accurate and complete information.

VIII. Payroll Activities (Modified Repeat Condition)

      Weaknesses identified in the past audits on payroll activities have not been
      corrected.

          •    Leave error reports received from the National Finance Center (NFC),
               showing differences between NFC’s leave record for each employee and
               FCC’s leave records were not reconciled. Our audit disclosed significant
               differences for all categories of leave balance such as the annual leave,
               sick leave, compensatory time, and credit hours categories.
          •    Other deficiencies include: (1) incorrectly completed timesheets, (2)
               incorrect accounting codes used on timesheets, and (3) reconciliations
               were not being performed on corrected data sent from FFS to the FCC’s
               desktop payroll reconciliation system.

      GAO Standards for Internal Control in the Federal Government state that
      transactions should be accurately recorded in a timely manner. One of the control
      activities used to accomplish this goal requires the performance of reconciliation
      and having controls in place to detect errors.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                       Page 29
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III         INDEPENDENT AUDITOR’S REPORT
                    ON INTERNAL CONTROL



      Recommendation:

      43. Perform a periodic reconciliation of all the leave categories from the two
          systems, NFC and FCC records.

      Management Comment:

      Management concurs. FCC has contracted the services of an outside contractor to
      conduct audits on all FCC employees identified with leave discrepancies. Audits
      continue to be conducted for all employees whose timecards and Statement of
      Earnings and Leave do not match. In addition, after individual audits have been
      completed, Human Resource Management (HRM) reviews the bi-weekly error
      reports and works with timekeepers, employees, and supervisors to immediately
      correct errors that occur after the audits are completed. FCC continues to remind
      employees, timekeepers and supervisors of the importance of reviewing timecards
      to ensure accuracy.

      Recommendation:

      44. Conduct employee training to re-emphasize the importance of proper coding
          and to ensure that timesheets are properly completed and certified by
          supervisors.

      Management Comment:

      Management concurs. HRM conducts employee briefings on time and attendance
      each year. As part of the implementation of the new integrated time reporting and
      cost accounting system, employees, timekeepers, and supervisors were trained
      and briefed. FCC periodically sends reminders to employees, timekeepers and
      supervisors on properly coding the FCC Time and Attendance Worksheet and
      Timecard. FCC employees, timekeepers, and supervisors are aware of their roles
      and responsibilities in ensuring that the Time and Attendance Worksheets and
      timecards are completed correctly.

      Recommendation:

      45. Ensure that timekeepers reconcile time and attendance report errors generated
          from the FCC’s desktop payroll reconciliation system.




03-AUD-05-07        REPORT ON THE FEDERAL COMMUNICATIONS                        Page 30
                    COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. Timekeepers are currently required to correct project code
      errors. FCC is working on follow-up procedures to ensure corrections are done
      timely.

IX.   Debt Collection Improvement Act Reporting (Modified Repeat Condition)

      The Debt Collection Improvement Act of 1996 (DCIA) requires agencies to (1)
      notify the Department of the Treasury of all debts delinquent by more than 180
      days for offset and (2) refer to the Department of the Treasury, with some
      exclusions, all debts delinquent more than 180 days for cross-servicing debt
      collection.

      Although FCC submits quarterly Treasury Report on Receivables (TROR) to the
      Department of the Treasury, existing policies and procedures are inadequate to
      ensure that all debts delinquent for more than 180 days are referred to the
      Department of the Treasury for cross-servicing debt collection. Chapter 4,
      Accounts Receivable, Section 500 of the FCC policy and procedures manual
      requires that uncollected receivables (excluding loans) older than 90 days be sent
      to the Department of the Treasury. Although this current policy is not consistent
      with the 180 days established by the Department of the Treasury, FCC did not
      enforce its own policy.

      Our review of the TROR as of June 30, 2003, disclosed that no amounts have
      been referred to the Department of the Treasury for off-set, and only $2.5 million
      of eligible administrative receivables of $102 million had been referred for cross-
      servicing. Of this amount, $88.6 million belongs to the reporting components. In
      addition, we noted that the USF accounts receivable reported in the TROR at June
      30, 2003 was higher than the amount on the general ledger balance by $23
      million.

      Our audit also noted several instances where debts that were delinquent were not
      assessed interest, penalties or administrative fees as allowed by the DCIA and
      FCC’s rules, 47 CFR Part 1.1940 Interest, Penalties, Administrative Costs and
      Other Sanctions Assessment.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 31
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Recommendation:

      46. Develop TROR policies and procedures to include the Department of the
          Treasury referral requirements for the reporting components’ accounts
          receivables. Ensure the policies and procedures also include a requirement for
          periodic review and update of existing procedures.

      Management Comment:

      Management concurs.        FCC has worked extensively with the reporting
      components to implement procedures associated with the implementation of
      DCIA. Effective the fourth quarter of FY 2003, FCC received monthly files from
      one of its reporting components, and as of October 2003, an additional two
      components submitted files. Formal procedures are being finalized reflecting the
      entire DCIA process from delinquency letters to the final stage of transferring the
      debt to the Department of Treasury.

      Recommendation:

      47. Refer eligible delinquent debt, more than 180 days old, to the Department of
          the Treasury for offset or timely cross-servicing.

      Management Comment:

      Management concurs. FCC continues looking for ways to better streamline and
      timely forward debt to the Department of the Treasury. In addition to ensure
      debts are being submitted timely, an independent staff member is performing a
      second review prior to debt being submitted to the Department of the Treasury.
      In addition, the Department of the Treasury has implemented a new electronic
      program, which FCC will participate in, whereby all supporting document and
      debt will be sent electronically, thus the information (debt) will be received faster.
      FCC is currently working with the Department of the Treasury to enroll with the
      program.

      Recommendation:

      48. Perform a review of the delinquency debt letter procedures to ensure that all
          delinquent debtors are receiving the dunning letters and that interest, penalties
          and administrative fees are being assessed in conjunction with the submission
          of the letters to the debtors.




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                            Page 32
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III          INDEPENDENT AUDITOR’S REPORT
                     ON INTERNAL CONTROL



      Management Comment:

      Management concurs. During FY 2003, debt transfer was suspended due to a
      backlog at the Department of the Treasury. Currently, the suspension is lifted and
      FCC continues to prepare batches of outstanding debt for submission to the
      Department of the Treasury. FCC will ensure that its revenue and accounting
      system has the capability to automatically assess interest, administrative fees and
      penalties, and ensure these debts substantially comply with DCIA and FCC’s
      policies and procedures.

X.     OMB Circular Nos. A-127 and A-130 Reviews (Repeat Condition)

      FCC has identified its major financial applications and general support systems,
      and established a timetable for meeting the requirements of OMB Circular No. A-
      127, and A-130 review of these applications. Although FCC had begun
      conducting some OMB Circular Nos. A-127 and A-130 reviews in FY 2002, not
      all identified systems have been reviewed. Until these reviews are performed and
      completed, FCC cannot determine compliance with these circulars to include in
      its annual FMFIA report and to ensure substantial compliance with the Federal
      Financial Management Improvement Act of 1996.

      Recommendations:

      49. Institute a program for conducting periodic reviews in accordance with OMB
          Circular Nos. A-127 and A-130 and perform the reviews timely.

      50. Establish policy and procedures in a proper manner for conducting periodic
          reviews of the reporting components in accordance with OMB Circular Nos.
          A-127 and A-130.

      Management Comment:

      Management concurs.

XI.    Federal Managers’ Financial Integrity Act Compliance and Reporting

      As required by OMB Bulletin No. 01-02, we compared the material weaknesses
      and material non-conformances reported by FCC in its draft FMFIA report dated
      November 28, 2003 to our report on internal control dated December 8, 2003
      noting differences. We do not believe, however, that failure to report these
      material weaknesses constitutes a separate reportable condition or material
      weakness because different criteria are used in determining material weaknesses




03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS                         Page 33
                     COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



      for both reports, and management has reported some of the material weaknesses.
      However, FCC did not take timely and effective actions to correct material
      internal control deficiencies identified in prior years’ Independent Auditor’s
      Report on Internal Control. Also, many of the original target correction dates for
      the deficiencies reported in the FMFIA report were not met and had to be revised.
      Section IV of the OMB Circular No. A-123, Management Accountability and
      Control (Revised June 21, 1995), states, “…management has a responsibility to
      complete action, in a timely manner, on audit recommendations on which
      agreement with the IG has been reached.”

      Following are the elements of material weaknesses identified in this report that
      were not specifically identified in the FMFIA report:

          •    Financial Statement Reporting
                • Timely recording and analysis of financial activities,
                • Spreadsheet subsidiary ledger systems (except for loan subsidiary), and
                • FFS setup and posting model definitions,

          •    Auction Transactions

          •    Cost Accounting System
                • Cost allocation process and cost finding techniques, and
                • Matching revenues to costs,

          •    Information Technology
                • Accelerate efforts to develop and test FCC’s contingency plans,
                • Inadequate password controls for USF major applications,
                • Non-compliance with OMB Circular A-130 requirements for the USF,
                  and
                • Disaster recovery test for the USF.

STATUS OF PRIOR YEAR COMMENTS

      As required by Government Auditing Standards and OMB Bulletin No. 01-02, we
      have reviewed the status of FCC’s corrective actions with respect to the findings
      and recommendations from the previous year’s report on internal controls. For
      those items not addressed in various sections of our Independent Auditor’s Report
      on Internal Control, summarized above, the following discusses the current status
      of resolutions for matters raised:




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 34
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



   •   Condition - Loans Subsidiary Ledger Non-Financial Information

       In FY 2002, our audit disclosed instances where loan information in the loan
       subsidiary ledgers was incorrect. This information included incorrect maturity
       date(s) and incorrect repayment date(s) which differed between the loan
       documents on file and the subsidiary ledgers.

       In FY 2003, we identified some non-financial information exceptions in the loan
       subsidiary system, which we reported in the management letter.

   •   Condition - Regulatory Fees

       In FY 2002, FCC’s fee collection database was not linked to its licensing
       databases, making it difficult for FCC to perform routine automated checks on
       whether all licensees paid their regulatory fees. Also, FCC did not have an
       agency-wide policy regarding actions that should be taken by the bureaus when a
       regulatory fee has not been paid. This results in inaction or inconsistent treatment
       of the regulatory fee non-payers by the bureaus.

       In FY 2003, RAMIS replaced the fee collection database. RAMIS is linked to
       the licensing databases and performs the required fee sufficiency requirements
       of the various licensing systems. FCC also developed an agency-wide policy
       regarding actions that should be taken when a regulatory fee has not been paid.
       Therefore, we have excluded this reportable condition in FY 2003.

   •   Condition - Accounting for Obligation

       FCC’s internal control policy requires a certification from bureau and office
       managers that obligations have been reviewed and are correct. This policy is
       part of FCC’s monthly and year-end financial and budgetary review process to
       determine whether an obligation should be deobligated and/or an undelivered
       order should be reclassified to a delivered order. In FY 2003, our audit tests
       did not disclose any exception related to this control. Therefore, we have
       excluded this reportable condition in FY 2003.

   •   Condition – Accounting for Accounts Payable

       FCC recognized a liability for goods and services when an invoice is received
       and logged into the FFS. This accounting policy is not in accordance with
       GAAP which states that a liability is to be recognized for the unpaid amounts
       when goods and services are received, not necessarily at the point of disbursement




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 35
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION III           INDEPENDENT AUDITOR’S REPORT
                      ON INTERNAL CONTROL



       nor at the point an invoice is received. In FY 2003, FCC compensated for this
       weakness by implementing an accrual procedure involving fund managers
       identifying amounts for items received but not billed, and reviewing undelivered
       orders and unliquidated obligations. Therefore, we have excluded this reportable
       condition in FY 2003.

   •   Condition – Compliance with Certain Aspects of the Clinger-Cohen Act of
       1996

       We noted that certain aspects of the Clinger-Cohen Act were not followed in FY
       2002 in the development and implementation of the RAMIS application. We
       noted that the weaknesses had been corrected in FY 2003. Therefore, we have
       excluded this reportable condition in FY 2003.



With respect to internal control related to performance measures reported in FCC’s
Management Discussion and Analysis, we obtained an understanding of the design of
significant internal controls relating to the existence and completeness assertions, as
required by OMB Bulletin No. 01-02. Our procedures were not designed to provide
assurance on internal control over reported performance measures, and, accordingly, we
do not provide an opinion on such controls.

In addition to the material weaknesses and reportable conditions described above, we
noted certain matters involving internal control and its operation that we reported to the
management of FCC in a separate letter dated December 8, 2003.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB, and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
December 8, 2003




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                         Page 36
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
              SECTION IV

      INDEPENDENT AUDITOR’S REPORT
ON COMPLIANCE WITH LAWS AND REGULATIONS
SECTION IV                     INDEPENDENT AUDITOR’S REPORT
                               ON COMPLIANCE WITH LAWS AND REGULATIONS




       Independent Auditor’s Report on Compliance with Laws and Regulations


To the Inspector General of the
Federal Communications Commission


We have audited the financial statements of the Federal Communications Commission
(FCC) as of and for the year ended September 30, 2003, and have issued our report
thereon dated December 8, 2003. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America; the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No.
01-02, Audit Requirements for Federal Financial Statements.

The management of FCC is responsible for complying with laws and regulations
applicable to FCC. As part of obtaining reasonable assurance about whether FCC’s
financial statements are free of material misstatements, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts, and certain other laws and regulations specified in OMB Bulletin No. 01-02,
including the requirements referred to in the Federal Financial Management Improvement
Act of 1996 (FFMIA). We limited our tests of compliance to these provisions and we did
not test compliance with all laws and regulations applicable to FCC.

The results of our tests of compliance with laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed instances of noncompliance with the
following laws and regulations that are required to be reported under Government
Auditing Standards and OMB Bulletin No. 01-02, which are described below.
Centerpark I
4041 Powder Mill Road, Suite 410
Calverton, Maryland 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                        Offices in 13 states and Washington, DC




03-AUD-05-07                   REPORT ON THE FEDERAL COMMUNICATIONS                 Page 1
                               COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



Chief Financial Officers Act of 1990 (CFO Act)

Government Management Reform Act of 1994 (GMRA) amended the requirements of
the CFO Act by requiring, among other things, the preparation and audit of organization-
wide financial statements of 24 executive departments and agencies. The Accountability
of Tax Dollars Act of 2002 extends the requirements of the GMRA to certain other
agencies including FCC.

The government has a responsibility to use timely, reliable, and comprehensive financial
information when making decisions, which have an impact on citizens’ lives and
livelihood. To meet this responsibility, the CFO Act establishes a leadership structure,
provides for long-range planning, requires audited financial statements, and strengthens
accountability reporting. Specifically, the CFO Act establishes the authority, functions
and responsibilities of a Chief Financial Officer (CFO). These include, among others,
that the CFO:

•   Develop and maintain integrated accounting and financial management systems that
    comply with applicable accounting principles, standards, and requirements; internal
    control standards; and requirements of OMB, Department of the Treasury, and others;

•   Direct, manage, and provide policy guidance and oversight of all agency financial
    management personnel, activities, and operations; and

•   Implement agency asset management systems, including systems for cash
    management, credit management, debt collection, and property and inventory
    management and controls.

FCC did not fully meet the above criteria as explained in more detail in our Independent
Auditor’s Report on Internal Control (IC Report), Sections I through V. The key items
we identified include:

    •   FCC’s financial management systems do not comply with certain accounting
        standards and requirements, and internal control standards;

    •   FCC’s financial information system is not fully integrated. Data comes from
        various subsystems and spreadsheet programs for the accounting, preparing, and
        reporting of financial statements; and




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                        Page 2
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



   •   Direction, policy guidance memorandum for FCC’s financial statement
       preparation and oversight of the reporting components’ financial operations are
       inadequate. A memorandum for the preparation of fiscal year (FY) 2003 financial
       statements was not issued by the CFO until October 20, 2003.

OMB Circular No. A-129, Policies for Federal Credit Programs and Non-Tax
Receivables

In FY 2003, as in the prior year, FCC’s Narrowband licenses did not have installment
payment plan notes stating the loan amounts and terms. In addition, Security Agreements
were not issued by FCC for this block of loans. These loans, with outstanding balances
of $78 million at the end of third quarter, are direct loans accounted for under the Federal
Credit Reform Act of 1990. Section 502 of the Federal Credit Reform Act defines “direct
loan” as a disbursement of funds by the Government to a non-Federal borrower under a
contract that requires repayment of such funds with or without interest.

OMB Circular No. A-129, Section III, Loan Documentation states, “Loan origination
files should contain loan applications, credit bureau reports, credit analyses, loan
contracts, and other documents necessary to conform to private sector standards for that
type of loan.” Additionally, Section IV, Loan Servicing Requirements states that
“Approved loan files (or other systems of records) shall contain adequate up-to-date
information reflecting the terms and conditions of the loan, payment history, including
occurrences of delinquencies and defaults, and any subsequent loan actions which result
in payment deferrals, refinancing or rescheduling.”

Debt Collection Improvement Act of 1996 (DCIA)

FCC’s Treasury Report on Receivables (TROR) for administrative receivables submitted
to the Department of the Treasury as of June 30, 2003, disclosed that no amounts have
been referred for off-set, and only $2.5 million of the $102 million of eligible receivables
was referred to the Department of the Treasury for cross-servicing. See IC Report,
Section IX for a more detailed explanation.

In addition, FCC does not participate in a computer match of its delinquent receivables
with records of Federal employees at least annually as required by the amended Section
5514 of Title 5 of the DCIA. Although a clearance package, which includes a
certification statement the employee must sign and date relative to any FCC
indebtedness, is currently provided to all employees who are leaving the agency, this
procedure does not adequately address the requirements of the DCIA.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                            Page 3
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



The results of our tests of compliance disclosed no instances of noncompliance with other
laws and regulations discussed in the preceding paragraphs, exclusive of FFMIA, that are
required to be reported under Government Auditing Standards or OMB Bulletin No. 01-
02.

Federal Financial Management Improvement Act of 1996 (FFMIA)

Under FFMIA, we are required to report whether FCC’s financial management systems
substantially comply with the Federal financial management systems requirements,
applicable Federal accounting standards, and the United States Standard General Ledger
(USSGL) at the transaction level. To meet this requirement, we performed tests of
compliance with FFMIA Section 803(a) requirements.

The results of our tests disclosed instances described below, where FCC’s financial
management systems did not substantially comply with Federal financial management
systems requirements, applicable Federal accounting standards, and the USSGL at the
transaction level.

Federal Financial Management Systems

   •   Integrated Financial Management System – The Federal Financial System (FFS)
       and feeder systems (direct loan systems and spreadsheets, cost systems, auction
       related systems, property management system, license database systems, certain
       accounts receivable systems, procurement systems and various spreadsheets) are
       not integrated or electronically interfaced. The reporting components’ core
       financial systems are also not integrated. A user is not able to have one view into
       systems such that, at whatever level the individual is using the system, he or she
       can obtain the information needed efficiently and effectively through electronic
       means. See our IC Report, Section I.A. for a more detailed explanation.

       The primary reason for noncompliance is that FCC was not able to meet its
       timetable and the length of time needed to implement several financial
       management systems’ enhancements developed over the last four years.

   •   Agency-wide Financial Information Classification Structure – As explained in
       detail in the IC Report, Section I.E., FCC and its reporting components’ core
       financial systems, have not been fully consistent with the USSGL. FCC made a
       number of posting model changes in FFS, its core system, as part of its
       implementation of the Revenue Accounting and Management Information
       Systems during this fiscal year. The most significant posting model change was
       the Regulatory Fee model. A new posting model has been designed for Auctions
       revenue postings to be implemented in FY 2004. Also a new International



03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 4
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



       Telecommunications Settlements posting model is to be designed and
       implemented in FY 2004. These changes are expected to allow FCC to eliminate
       manual adjustments currently made to correct posting model deficiencies.

   •   Security – In FY 2003, as in prior years, we identified several weaknesses, which
       collectively are considered a material weakness, and are described in more detail
       in our IC Report, Section V. The weaknesses include noncompliance with OMB
       Circular No. A-130, Management of Federal Information Resources, requirement
       for a comprehensive security plan, inadequacies and inconsistencies in the
       mainframe and network access request process, and lack of a fully developed and
       tested contingency plan. FCC has not completed security plans for one of its
       major applications and has not implemented, certified and accredited its entity-
       wide security plan. In addition, only five of the nineteen major applications and
       general support systems (GSS) were certified and accredited in FY 2003. The
       initial stage of this process, which includes a risk assessment as part of an all-
       inclusive security test and evaluation, was completed for ten of the major
       applications, and a current risk assessment for the two GSS is in progress. In
       addition, there was a lack of an agency-wide contingency plan to address
       continuity of operations in the event of a disaster.

       Information protection-related weaknesses identified in FCC’s information
       systems environment are repeat finding conditions. Impacted areas include
       FCC’s distributed computer system as well as its mainframe computers. These
       vulnerabilities expose FCC and its computer systems to risks of external and
       internal intrusion, subject sensitive FCC information related to its major
       applications to potential unauthorized access, modification, and/or disclosure, and
       increase the risks of fraud, waste and abuse.

       The weaknesses noted above have been identified since the FY 1999 audit and
       progress in correcting the deficiencies has been slow. FCC explained that the
       primary reason for this noncompliance is the length of time needed to implement
       the corrective actions and the availability of resources.

Federal Accounting Standards

Our audit disclosed the following instances of non-compliance with the Federal
Accounting Standards:

   •   Due to the lack of an adequate cost accounting system, in FY 2003 as in prior
       years, FCC was not able to produce managerial cost information consistent with
       standards in the Statement of Federal Financial Accounting Standards (SFFAS)




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                          Page 5
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



       No. 4, Managerial Cost Accounting Concepts and Standards for the Federal
       Government, as described in our IC Report, Section III.

   •   SFFAS No. 1, Accounting for Selected Assets and Liabilities states, “When an
       entity accepts title to goods, whether the goods are delivered or in transit, the
       entity should recognize a liability for the unpaid amount of the goods." FCC
       recognizes accounts payable only when an invoice is received and logged into the
       financial system rather than when goods and services are received.

   •   SFFAS No. 7, Accounting for Revenue and Other Financing Sources and
       Concepts for Reconciling Budgetary and Financial Accounting, states, “Related
       revenue should be matched with the cost.” Specific earned revenue should be
       matched against specific program costs in accordance with the program costs and
       revenue description in the budget submission to Congress. FCC allocates the
       earned revenue among its programs based on the ratio of the program costs to the
       total costs. See Section III.C. in our IC Report.

U.S. Standard General Ledger at the Transaction Level

Substantial compliance with the USSGL at the transaction level requires the agency’s
recording of financial events to be consistent with all applicable account descriptions and
posting models/attributes reflected in the USSGL issued by the Department of the
Treasury, Financial Management Service, effective for the period covered by the audit.
As discussed in our IC Report, Section I.E., the setup and posting model definitions do
not fully comply with the transaction posting models consistent with the USSGL
guidance and policies when recording and classifying transactions.

Also, as discussed in Section I.A. of the IC Report, the accounting transactions of the
Universal Service Fund, the Telecommunications Relay Services Fund and the North
American Numbering Plan, collectively called "reporting components," which were
transactions from feeder systems summarized in a trial balance for consolidation into
FCC financial statements, were not recorded in a manner consistent with the account
definitions and posting models/attributes specified in the USSGL. The feeder systems
from the reporting components also did not record budgetary entries.

FCC’s Managing Director and the CFO have been assigned the responsibility of ensuring
the substantial compliance with the FFMIA. A discussion of the actions taken by FCC
and our recommendations to strengthen FCC’s financial management systems are
outlined in our IC Report. FCC management plans to continue with the corrective
actions started or implemented in prior years.




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                           Page 6
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
SECTION IV            INDEPENDENT AUDITOR’S REPORT
                      ON COMPLIANCE WITH LAWS AND REGULATIONS



Management Comment:

Management concurs. The aforementioned laws and regulations are addressed within the
findings on the Independent Auditor’s Report on Internal Controls. As FCC corrects and
resolves identified issues, the occurrences on non-compliance will diminish.



Providing an opinion on compliance with certain provisions of laws and regulations was
not an objective of our audit, and, accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the management of FCC,
FCC Office of Inspector General, OMB and Congress, and is not intended to be and
should not be used by anyone other than these specified parties.

a1
Calverton, Maryland
December 8, 2003




03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS                      Page 7
                      COMMISSION’S FY 2003 FINANCIAL STATEMENTS
               SECTION V

  FEDERAL COMMUNICATIONS COMMISSION
FISCAL YEAR 2003 ANNUAL FINANCIAL REPORT
Federal
Communications
Commission




          Fiscal Year 2003
       Annual Financial Report
         (October 1, 2002 – September 30, 2003)
                                                       Table of Contents

                                     Federal Communications Commission
                                   Fiscal Year 2003 Annual Financial Report



I. MANAGEMENT’S DISCUSSION AND ANALYSIS.....................................................................1
      Overview of the Annual Financial Report ......................................................................................1
      Legislative History and Background...............................................................................................1
      FCC Mission....................................................................................................................................1
      FCC Organizational Structure and Reporting Components ............................................................2
      Strategic Goals and Objectives .......................................................................................................4
      Resources to Achieve Performance Goals ......................................................................................5
      Strategies by Major Program Activity ............................................................................................6
      Highlights of FY 2003 Performance ...............................................................................................7
      Verification, Validation, and Program Evaluation........................................................................20
      Financial Management – Legal Compliance, Systems, and Controls...........................................21
      Looking Ahead – Possible External Factors Impacting FCC Performance ..................................23
      Highlights of the FY 2003 Financial Results ................................................................................25
      Limitations of the Financial Statements........................................................................................28


II. FINANCIAL STATEMENTS ........................................................................................................29
          Consolidated Balance Sheet………………………………………………………………….30
          Consolidated Statement of Net Cost…………………………………………………………31
          Consolidated Statement of Changes in Net Position…………………………………………33
          Combined Statement of Budgetary Resources………………………………………………...34
          Consolidated Statement of Financing………………………………………………………….35
          Consolidated Statement of Custodial Activity…………………………………………………... 36
      Notes to the Consolidated Financial Statements ...........................................................................37


III. REQUIRED SUPPLEMENTARY INFORMATION ...................................................................61


IV. OTHER ACCOMPANYING INFORMATION ...........................................................................73


V. GLOSSARY OF ACRONYMS.....................................................................................................81




                                                                        i
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2003 Annual Financial Report


                I. MANAGEMENT’S DISCUSSION AND ANALYSIS

Overview of the Annual Financial Report
This Annual Financial Report (Report) contains management, performance and financial information about
the Federal Communications Commission (FCC, Commission, or agency). It presents the Management’s
Discussion and Analysis, including: the FCC’s mission and organizational structure; performance highlights;
future issues such as significant demands, risks, uncertainties, events, conditions and trends; brief
descriptions of the systems, controls and legal compliance; summary information related to the Federal
Manager’s Financial Integrity Act material weaknesses and non-conformances and corrective actions; as well
as highlights of the financial statements. This Report contains the FCC’s principal financial statements for
fiscal year (FY) 2003, including a consolidated balance sheet, consolidated statement of net cost,
consolidated statement of changes in net position, combined statement of budgetary resources, consolidated
statement of financing, consolidated statement of custodial activity, notes to the consolidated financial
statements, and required supplementary information. Additional performance information is available in the
“Other Accompanying Information” section of this report. A complete assessment of the FCC’s annual
performance results and trend information will be presented separately in the FCC’s Annual Program
Performance Report in February 2004. This Annual Financial Report is a guide to key FCC initiatives and
activities during FY 2003, or planned for future years, that demonstrate the breadth of the Commission’s
work.


Legislative History and Background
The Commission is an independent United States (U.S.) Government regulatory agency, directly responsible
to Congress. The FCC was established by the Communications Act of 1934 (the Act) and is charged with
regulating interstate and international communications by radio, television, wire, satellite, and cable. The
FCC also regulates intrastate telecommunications services for hearing-impaired and speech-impaired
individuals as set forth in Title IV of the Americans With Disabilities Act (ADA). FCC’s headquarters is
located in Washington, DC, and it has field locations throughout the Nation. The FCC’s jurisdiction covers
the 50 states, the District of Columbia, and U.S. possessions.
The FCC is directed by five Commissioners, appointed by the President and confirmed by the Senate for
five-year terms, except when filling an unexpired term. The President designates one of the Commissioners
to serve as Chairman. Only three Commissioners may be members of the same political party.
Commissioners may not hold a financial interest in any company or entity that has a significant interest in
activities regulated by the Commission.


FCC Mission
It is the mission of the FCC to ensure that the American people have available – at reasonable costs and
without discrimination – rapid, efficient, nation- and world-wide communication services; whether by radio,
television, wire, satellite, or cable.1




1
    FCC FY 2003-2008 Strategic Plan, Page 4. 47 U.S.C. §151 – Title 1, Section 1 of the Communications Act of 1934, as amended.

                                                                1
                                                                                    Federal Communications Commission
                                                                                Fiscal Year 2003 Annual Financial Report

FCC Organizational Structure and Reporting Components
The FCC Chairman leads the Commission as head of the agency. The Commissioners supervise all FCC
activities, delegating responsibilities to six bureaus and ten staff offices. Even though the bureaus and offices
have individual functions, they regularly join forces and share expertise in addressing Commission issues.
The Commission and the Chairman have delegated management and administrative responsibility to the
Managing Director.
The FCC has six operating bureaus: Consumer and Governmental Affairs, Enforcement,2 International,
Media, Wireless Telecommunications, and Wireline Competition. These bureaus are responsible for
developing and implementing regulatory programs, processing applications for licenses or other filings,
analyzing complaints, conducting investigations, and taking part in FCC hearings.
In addition, there are ten staff offices: Administrative Law Judges, Communications Business Opportunities,
Engineering and Technology, General Counsel, Inspector General, Legislative Affairs, Managing Director,
Media Relations, Strategic Planning and Policy Analysis,3 and Workplace Diversity.
Detailed information on specific bureau and office responsibilities as well as the following organizational
chart for the Commission can be found at: http://www.fcc.gov/.

                                            FCC Organizational Chart




2
  In FY 2003, the Enforcement Bureau renamed its Technical and Public Safety Division to the Spectrum Enforcement Division and
created a new Office of Homeland Security.
3
  In FY 2003, the Office of Strategic Planning and Policy Analysis (OSP) replaced the Office of Plans and Policy. OSP works with
the Chairman, Commissioners, bureaus, and offices to develop strategic plans for the agency.

                                                              2
                                                                          Federal Communications Commission
                                                                      Fiscal Year 2003 Annual Financial Report

Components of the FCC for Financial Statement Purposes
In addition to the activities directly undertaken by the above bureaus and offices, authorities of the FCC for
financial statement purposes include the following:
Universal Service Fund (USF) – The USF is a significant program of the FCC. As designated in the U.S.
Budget each year, the USF consists of five elements, four of which are the universal service support
mechanisms and the fifth being the Telecommunications Relay Service (TRS) Fund. The universal service
support mechanisms were established pursuant to Section 254 of the Act, as amended. The TRS Fund was
established pursuant to Section 225 of the Act, as amended. The universal service support mechanisms and
the TRS operate on a different fiscal year from other FCC programs; the universal service support
mechanisms’ fiscal year commences January 1 and ends December 31, and TRS’s fiscal year commences
July 1 and ends June 30.
The Universal Service Administrative Company (USAC) administers the four universal service support
mechanisms of the USF under the direction of the FCC. The universal service support mechanisms are
funded through mandatory contributions from U.S. telecommunications providers, including local and long
distance phone companies, wireless and paging companies, and payphone providers. There are four
universal service support mechanisms: high cost, low income, rural health care, and schools and libraries.
Consumers benefit from the support mechanisms which provide money directly to service providers to
defray the cost of delivering services to customers who use the telecommunications services supported by
these mechanisms. Additional information on USAC and USF, respectively, can be found at:
http://www.universalservice.org/default.asp and http://www.universalservice.org/programs/defaultt.html.
The National Exchange Carriers Association (NECA) administers the TRS Fund under the direction of the
FCC. The TRS Fund compensates TRS providers for the reasonable costs of providing interstate telephone
transmission services that enable a person with a hearing or speech disability to use such services to
communicate with a person without hearing or speech disabilities in a manner that is functionally equivalent
to the ability of individuals without hearing or speech disabilities. The costs of providing interstate TRS are
recovered from subscribers of interstate telecommunications services through shared-funding cost recovery
mechanisms. Additional information on NECA and the TRS can be found on the Internet at:
http://www.neca.org/ and http://www.fcc.gov/cgb/dro/trs.html, respectively.

North American Numbering Plan (NANP) – The NANP is the basic numbering scheme permitting
interoperable telecommunications service within the United States, Canada, Bermuda, and most of the
Caribbean. Section 251(e)(1) of the Act requires the Commission to create or designate one or more
impartial entities to administer telecommunications numbering and to make such numbers available on an
equitable basis. Section 251(e)(2) of the Act requires that the costs of number administration arrangements
and number portability be borne by all telecommunications carriers on a competitively neutral basis as
determined by the Commission. In implementing Section 251, the FCC appointed a NANP Administrator
and a Billing and Collection Agent. NeuStar, Inc. is the NANP Administrator (NANPA) and North
American Billing and Collection, Inc. (NBANC) is the Billing and Collection Agent.




                                                      3
                                                                                    Federal Communications Commission
                                                                                Fiscal Year 2003 Annual Financial Report



Strategic Goals and Objectives
Consistent with the objectives of the Act as amended by the Telecommunications Act of 1996 (the 1996
Act), the FCC is challenged to continue to find ways to foster competitive entry into established markets,
while encouraging the development of open, competitive markets for new and innovative technological
services. Through enforcement of policies aimed at encouraging competition, the FCC strives to ensure that
rules are adhered to fully and the impacts of business practices on consumers are monitored. The FCC must
also keep focused on the global communications marketplace, and the challenges that globalization poses to
the sharing of spectrum and the maintenance of open international markets. In order to achieve these goals in
this time of great innovation in the communications industry, the FCC must strive to remain on the cutting
edge of technology, economics, and the law.
To ensure the FCC is making strides in fulfilling its mission and, in accordance with the Government
Performance and Results Act of 1993 (GPRA), the Commission developed strategic goals and objectives and
related performance measures.      The FCC’s Strategic Plan for FYs 2003-2008 is available at:
http://www.fcc.gov/omd/strategicplan/strategicplan2003-2008.pdf. The Commission’s revised Strategic Plan
marks a departure from the FCC’s five core activities – 1) licensing; 2) competition; 3) enforcement;
4) consumer information services; and 5) spectrum management4 – to FCC’s six new long-term strategic
goals – 1) broadband; 2) competition; 3) spectrum; 4) media; 5) homeland security; and 6) modernizing the
FCC.5
With the implementation of the revised FY 2003-2008 Strategic Plan, the performance measures in the FY
2003 Annual Performance Plan were closed against the five activities described above. As a result, FY 2003
is a transition year for the FCC. To be consistent with the new Strategic Plan, the FCC will base the Annual
Program Performance Report on the FY 2003 outcome indicators included in the FY 2004 Annual
Performance Plan. However, the five activities listed on the Statement of Net Cost will be the same as those
used for the FY 2003 budget and cost accounting system.
The crosswalk in Figure 1 on the following page tracks the relationship of the outcome indicators discussed
in this Annual Financial Report from the five activities in the Statement of Net Cost and budget to the six
long-term goals used for FY 2003 performance reporting purposes. These outcome indicators reflect the
Commission’s mission and goals; the FCC’s most significant programs; and are consistent with the
Commission’s implementation of the GPRA. A complete list of the FY 2003 performance measures that will
be included in the FY 2003 Annual Program Performance Report (to be submitted independent of this report
in February 2004) are included in the Other Accompanying Information section of this report.




4
    FCC’s FY 2003 Budget Estimates to Congress, Annual Performance Plan, page 18.
5
    FCC’s FY 2004 Budget Estimates to Congress, Annual Performance Plan, pages 20-22.

                                                               4
                                                                                                  Federal Communications Commission
                                                                                              Fiscal Year 2003 Annual Financial Report

                                            Figure 1
                Crosswalk of MD&A Outcome Indicators From Five Activities to Six Goals
6 Goals                   Broadband             Competition            Spectrum              Media              Homeland         Modernize the
5 Activities                                                                                                     Security           FCC

Licensing                                                                                                                        7. Reducing the
                                                                                                                                    average time
                                                                                                                                    required to
                                                                                                                                    complete
                                                                                                                                    rulemakings
Competition            1. Increasing          2. Decreasing
                          access to              price for
                          broadband              residential &
                          services on            business
                          multiple               domestic (local /
                          platforms:             interstate)
                          DSL,6 cable,           wireless and
                          modem,                 wireline
                          satellite, et al.      services
Enforcement                                   3. Increasing
                                                 number of
                                                 consumers and
                                                 businesses that
                                                 have reliable
                                                 wireless and
                                                 wireline phone
                                                 service
                                                 (continuity of
                                                 service)
Consumer                                                                                5. Significant
Information                                                                                progress in the
and                                                                                        transition to
                                                                                           digital
Enforcement
                                                                                           television and
                                                                                           radio
Spectrum                                                             4. Increasing                           6. Increasing
Management                                                              deployment of                           amounts of
                                                                        new services                            spectrum
                                                                        making use of                           available for
                                                                        underutilized                           public safety
                                                                        or unlicensed                           communications
                                                                        spectrum



Resources to Achieve Performance Goals
The FCC is continuing its efforts to integrate the Annual Performance Plan with budget development and
execution. The FCC has identified strategies and resources to achieve the performance goals for each of the
five activities. In future years, the budget and cost accounting system will track resources according to the
six long-term strategic goals. In FYs 2001 and 2002, the FCC increased the number of its program activities
from the four included in the FY 2000 Budget to five in order to account for spectrum management program
activities. Initially there was no corresponding change in the FCC accounting processes to separately track
certain costs associated with spectrum management. To address this reallocation of cost issue in FY 2002,
the FCC initiated a project aimed at enhancing its ability to more accurately capture and report costs
associated with all five activities and the USF using its cost accounting system. This included
implementation of additional project codes within the FCC’s accounting system to better capture costs
associated with the five activities, as well as for those activities related to the USF. These project codes
allowed FCC employees to more easily and accurately report time associated with spectrum management and

6
    Digital subscriber lines.

                                                                          5
                                                                          Federal Communications Commission
                                                                      Fiscal Year 2003 Annual Financial Report

the other program activities. In addition, the FCC developed supplementary time reporting policies and
procedures for its cost accounting system to aid FCC employees in more accurately reporting time and
expenses for each pay period. These project codes were used through FY 2003 to reflect the costs associated
with the five activities and the USF.
At the end of FY 2002, the FCC entered into a cross-servicing agreement with the Department of Interior
(DOI) to implement cost allocation software in FY 2004. In prior Annual Financial Reports, the FCC
referred to this system as the Managerial Cost Accounting System, however the FCC has now branded the
system the Budget Execution and Management System (BEAMS) to more accurately reflect the design of the
program. BEAMS will provide a robust and integrated addition to the Commission’s financial management
systems that will support the partnership between program and financial managers, assuring the integrity of
information for decision making, and measuring the full cost of the FCC’s programs and their various
elements, activities, and outputs. BEAMS will fully support tracking FCC outputs, programs and activities
at the 2003-2008 Strategic Plan objectives, performance goals and output levels. The system will support the
Statement of Net Cost for the financial statements, as well as detailed budget execution and full time
equivalent (FTE) reporting in support of improved management of Commission resources.


Strategies by Major Program Activity
A summary of the strategies to achieve each of the five activities follows.
A. Licensing – The FCC has sought to improve its licensing activities through a multi-year plan to
   reengineer and integrate its licensing databases, and through implementation of interactive electronic
   filing systems. Initiatives have included universal licensing, streamlined application processes, revised
   and simplified licensing forms, blanket authorizations, authorizations for unlicensed services, and
   electronic filing of license applications and certifications. The benefits derived from these efforts are
   manifold and include a more economical use of FCC personnel resources, improvement in processing
   times, the ability of customers to file via the Internet or through other electronic filing mechanisms, and
   the ability to provide customers with immediate status reports on their applications.
B. Competition – As the FCC’s role changed from market regulator to market facilitator, the Commission
   has relied more on interagency task forces, advisory committees, and state, local, and regional consortia
   to advise it on how best to establish rules that foster competition and the rapid expansion of innovative
   new technologies. In addition, the Commission has continued to promote the development of
   competition in the local exchange market through expeditious review of applications to increase the
   range of choices in local telephone service providers, multichannel video programming market services,
   and mobile wireless providers. At the same time, the Commission has vigorously reviewed rules and
   spectrum allocation policies to ensure that FCC rules, regulations, and activities have not deterred
   development of emerging technologies.
C. Enforcement – An important element for competitive markets is the full and fair enforcement of FCC’s
   rules and regulations. Effective use of the FCC’s resources is critical to ensuring full implementation of
   the Act, as amended, the 1996 Act, and the Commission’s rules specifically designed to open
   communications markets to competition and enhance choices for consumers. The Enforcement Bureau
   (EB), created in November 1999, consolidated functions formerly dispersed throughout the FCC. EB
   was created to respond quickly and efficiently to the demands of a competitive environment. It allows
   for a streamlined, centralized enforcement program, capable of identifying problems as they emerge, thus
   better equipping the Commission to provide a wide range of enforcement initiatives. The EB and the
   Consumer and Governmental Affairs Bureau (CGB) work together to track trends and share information.
   The end result is improved performance through an expanded outreach program, a better-educated
   telecommunications consumer, and a more law-abiding industry.



                                                      6
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2003 Annual Financial Report

D. Consumer Information Services – In FY 2000, the FCC consolidated its consumer information activities
   within one organization, now the CGB, to provide “one-stop shopping” to the telecommunications consumer.
   Consolidation of consumer information services under a single structure yields significant benefits to
   consumers and stakeholders – providing timely, accurate, and consistent information; tracking trends and
   mapping “hot” consumer issues nationwide, by region or by state; and achieving economies of scale.
   Progress in the FCC’s consumer information services included: a thorough evaluation of web site services;
   development of a redesigned homepage with a wealth of information on all telecommunications topics; an
   electronic comment filing system that allows stakeholders throughout the country to file their rulemaking
   comments electronically; and consumer information centers that provide consumers with detailed information
   on all telecommunications-related topics.

E. Spectrum Management – The successful deployment of many new communications technologies
   depends on the availability of electromagnetic spectrum. To ensure that the FCC does not hinder the
   growth of new services, the Commission issued guidelines for future spectrum management policies
   designed to maximize the efficient use of spectrum and make more spectrum available while ensuring the
   public interest. In June 2002, the Commission established the Spectrum Policy Task Force to conduct a
   systematic evaluation of existing spectrum policies and to provide recommendations on improving
   spectrum management.7
    On November 7, 2002, the Task Force presented its findings and recommendations. The final report was
    issued on November 15, 2002. According to the Task Force, “increasing demand for spectrum-based
    services and devices are straining longstanding, and outmoded, spectrum policies.” Additional and new
    uses of electromagnetic spectrum hold great promise to the telecommunications industry and the
    American consumer. Task Force recommendations include efforts to:
      • Migrate toward more flexible, consumer-oriented policies;
      • Adopt quantitative standards to provide interference protection;
      • Improve access through the time dimension; and
      • Shift from a “command and control” model to models that increase flexibility.8
Figure 11 in the Other Accompanying Information section provides greater detail on the processes,
strategies, resources, and skills that support each budget activity.


Highlights of FY 2003 Performance
As described in the FY 2004 Annual Performance Plan, the FCC developed output activities and outcome
indicators to measure progress toward the Commission’s long-term general goals. The FCC, through its
regulatory activities, influences numerous economic and social outcomes. However, since consumer choice,
technological innovation, economic conditions, and international negotiations can all have greater effect on
outcomes than FCC’s regulatory activities, the FCC’s approach to connecting its goals to outcomes measures
those factors within the FCC’s control – noted as output indicators.
The FCC has made significant accomplishments towards achieving the FY 2003-2008 general goals and
outcome indicators. The introductory table for each of the seven selected outcome indicators identifies both
the new long-term performance goal that will be used in the FY 2003 Annual Program Performance Report
and the activity under which the FCC’s efforts are tracked in the budget and Statement of Net Cost.9



7
  Public Notice DA 02-1311, “Spectrum Policy Task Force Seeks Public Comments on Issues Related to Commission’s Spectrum
Policies,” ET Docket No. 02-135, July 8, 2002.
8
  ET Docket 02-135, “Spectrum Policy Task Force Recommendations for Spectrum Policy Reform,” November 15, 2002.
9
  Note: The first three performance outcome indicators discussed below are based on data used to develop competition reports on the
communications industry. These data describe the competitive situations at two points during a year: June 30 and December 31.

                                                                7
                                                                                     Federal Communications Commission
                                                                                 Fiscal Year 2003 Annual Financial Report

Depending on the goal, FY 2003 performance information may not yet be available. Additionally, because
the FCC only recently began tracking results for new outcome indicators, trend information may not be
available. In each case, the most recent information available is provided for the outcome indicators.




 Old Activity:         New Goal: Broadband
 Competition
                       Performance Goal:
                       Broaden the deployment of broadband technologies across the United States and globally.

                       1. Outcome Indicator:
                       • Increasing access to broadband services across multiple platforms: digital subscriber
                           lines (DSL), cable modem, satellite, et al.


Accomplishments – Success in Achieving Outcome Indicator Results:
Broadband technologies, which encompass all evolving high-speed digital technologies that provide
consumers integrated access to voice, high-speed data, video-on-demand, and interactive delivery services,
are a fundamental component of the communications revolution.
Access to high-speed asymmetric digital subscriber lines (ADSL) in service increased by 27% during the
second half of 2002, from approximately 5.1 million to 6.5 million lines, compared to a 29% increase, from
over 3.9 million to approximately 5.1 million lines, during the preceding six months. For the full year,
access to high-speed ADSL increased 64%.
Access to high-speed services over coaxial cable systems (cable modems) increased 24% during the last six
months of 2002, from approximately 9.2 million to 11.4 million lines, compared to a 30% increase, from
approximately 7.1 million to 9.2 million lines, during the first half of 2002. For the full year, access to high-
speed cable modem connections increased 61%.
During the second half of calendar year 2002, reported access to high-speed connections to end-user
customers by means of satellite or fixed wireless technologies increased 25%, reported access to fiber optic
connections to end-user customer premises increased 5%, and reported access to other wireline connections
to end-user customers increased by 2%. Together, these accounted for about 2.0 million high-speed
connections at the end of calendar year 2002. (Note: percentages calculated on total not rounded amounts.)10
Advanced services support two-way (provider-to-customer/downstream and customer-to-provider/upstream)
communications with a broadband width in excess of 200 kilobits per second (kbps). Among advanced
services lines, access to ADSL lines increased 52% during the last six months of 2002, compared to a 22%
increase for cable modem service. During the preceding six-month period, the rate of growth of cable
modem (55%) exceeded that of ADSL (35%). For the entire year, access to advanced services lines for
ADSL increased 105% and cable modem connections increased 90%.
During the second half of calendar year 2002, reported access to advanced services to end-user customers by
means of satellite or fixed wireless technologies did not change significantly, reported access to fiber optic
connections to end-user customers increased 6%, and reported access to other wireline connections to end-
user customers increased by 2%. (Note: percentages calculated on total not rounded amounts.)11


10
   Industry Analysis and Technology Division, FCC Wireline Competition Bureau, “High-Speed Services for Internet Access: Status
as of December 31, 2002,” released June 10, 2003. Calculations of the percentages are based on total amounts included in Table 1.
11
   Ibid. Calculations of the percentages are based on the total amounts as included in Table 2.

                                                               8
                                                                                                                                                                                   Federal Communications Commission
                                                                                                                                                                               Fiscal Year 2003 Annual Financial Report

            Figure 2 below presents statistics on the deployment of broadband (high-speed and advanced) service lines
            across multiple platforms (ADSL, cable modem, satellite, et al.) in the U.S.
            With many of the new technologies in their infancies, uncertainty remains as to the final capability of some
            services. In addition, the degree of consumer demand for these new communications services remains
            unknown, and prices may constrain demand. The FCC continues to take steps to remove barriers to
            deployment, encourage investment in technologies that deliver advanced services, and vigorously promote
            competition in the marketplace. For additional information on this outcome indicator, see the report at:
            http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/hspd0603.pdf.

                                                                                       Figure 2:
                                                                Deployment of Broadband Services Across Multiple Platforms


                                                  High-Speed Lines                                                                                                   Adva nc e d S ervic e s L ine s
                                                                                                                                                                14
                              20

                              18                                                                                                                                12
                                                                                                                                                                                                                                                       Advanced S ervices
                              16                                                                        High-Speed Total                                                                                                                               Total
                                                                                                                                                                                                                                                       ADS L
                                                                                                                                                                10
                              14                                                                                                  L i n e s (m i l l i o n s)
L i n e s (m i l l i o n s)




                                                                                                        ADSL
                                                                                                                                                                                                                                                       Cable Modem S ervice
                              12                                                                        Cable Modem Service                                      8                                                                                     S atellite or Fixed
                                                                                                        Satellite or Fixed                                                                                                                             W ireles s
                              10                                                                                                                                                                                                                       Fiber
                                                                                                        Wireless                                                 6
                                                                                                        Fiber
                               8                                                                                                                                                                                                                       O ther W ireline
                                                                                                        Other Wireline
                               6                                                                                                                                 4

                               4
                                                                                                                                                                 2
                               2
                                                                                                                                                                 0
                               0
                                         2 00                  2 00            2 00                                                                                  20                             20                  20
                                                                                                                                                                          01                             02                  02
                                                1D                    2J              2D                                                                                       De                             Ju                  De
                                                  ece                   un                 ece                                                                                      ce m                           ne                  ce m
                                                        mb                 e                     mb                                                                                        be                                                 be
                                                          er                                       er                                                                                           r                                                  r


                                   Data Source: “High-Speed Services for Internet Access: Status as of December 31, 2002,” released June 10, 2003. The data is obtained from
                                   facilities-based service providers that file data with the FCC twice a year. June 2003 statistics will not be available until December 2003.

                                   Definitions
                                    High-Speed Services: Services with the capability of supporting a bandwidth in excess of 200 kilobits per second (kbps) in at least one direction.
                                    Advanced Services: Services that have the capability of supporting, in both the provider-to-customer (downstream) and the customer-to-provider
                                       (upstream) directions, a bandwidth in excess of 200 kbps in the last mile.




                                                                                                                              9
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2003 Annual Financial Report



 Old Activity:        New Goal: Competition
 Competition
                      Performance Goal:
                      Ensure American consumers can choose among multiple reliable and affordable
                      communications services.

                      2. Outcome Indicator:
                      • Decreasing price for residential & business domestic (local/interstate) wireless and
                          wireline services.


Accomplishments – Success in Achieving Outcome Indicator Results:

Wireless Services
As in the last few years, equity analysts and other industry observers continue to describe wireless price
competition in the U.S. as intense, fierce, and ultra-competitive. While it is difficult to identify sources of
information that track mobile telephone prices in a comprehensive manner, these claims are supported by a
number of reports and other available data indicating that the cost of mobile telephony service continues to
fall. One journalist opined in October 2002 that “there has never been a cheaper time to sign up for cell
phone service.”12 According to one economic research and consulting firm, Econ One, mobile telephone
prices in the 25 largest U.S. cities declined roughly 2.9% in 2002.
One source of price information is the cellular telephone services component of the Consumer Price Index
(Cellular CPI) produced by the U.S. Department of Labor’s Bureau of Labor Statistics (BLS). Cellular CPI
data is published on a national basis only. From 2001 to 2002, the annual Cellular CPI decreased by 2.0%,
when adjusted for inflation.13
Another pricing indicator is average revenue per minute (ARPM). This is calculated by dividing a carrier’s
estimate of the average rate per unit (ARPU) by its estimate of minutes of use (MOU), yielding a measure of
average price per minute that the carrier is receiving. Using the Cellular Telephone and Internet
Association’s (CTIA) estimates of industry-wide ARPU and MOU, CTIA’s survey indicates that ARPM fell
9% between December 2001 and December 2002. Since 1994, ARPM has fallen from $0.47 in December
1994 to $0.11 in December 2002, a decline of 76.6%.14 Figure 3 below shows the trends for this outcome
indicator from December 2000 to December 2002.
For additional information on this outcome indicator, the reports are posted on the FCC website at:
http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/ref03.pdf (Reference Book) as
well as http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-150A1.pdf (Competition Report).




12
   Jane Spencer, “Price Cuts by Cellphone Firms Add up to Consumer Savings,” Wall Street Journal, October 1, 2002.
13
   “Reference Book of Rates, Price Indices, and Household Expenditures for Telephone Service,” Industry Analysis & Technology
Division, Wireline Competition Bureau, Table 3.1, July 15, 2003.
14
    FCC 03-150, “Eighth Annual Report: Annual Report and Analysis of Competitive Market Conditions with Respect to
Commercial Mobile Services,” see Table 9. Adopted June 26, 2003, released July 14, 2003. (WT Docket No. 02-379)

                                                            10
                                                                                            Federal Communications Commission
                                                                                        Fiscal Year 2003 Annual Financial Report


                                             Figure 3:
                       Average Revenue Per Minute for Mobile Telephone Services

            $0.30


            $0.25


            $0.20             $0.18
                                                                                                       Average Revenue Per Minute for
                                                                                                       Mobile Telephone Services
            $0.15
                                                       $0.12
                                                                               $0.11
            $0.10


            $0.05


            $0.00
                     2000 December            2001 December             2002 December

              Data Source: “Eighth Annual Report: Annual Report and Analysis of Competitive Market Conditions
              with Respect to Commercial Mobile Services,” July 14, 2003. December 2003 statistical data will not be
              available until July 2004.



Wireline Services
The Consumer Price Index (CPI) for telephone service rose slightly (0.2%) during 2002, measured from
December 2001 to December 2002. The additional telephone-related year-to-year CPI changes for 2002
included: an increase in local services of 5.3%; a decrease in interstate toll services of 5.9%; and a decrease
in intrastate toll services of 6.1%. Adjusting for inflation during 2002, telephone services decreased 2.1%;
local services increased 2.9%; interstate toll services decreased 8.2%; and intrastate toll services decreased
3.2%.15
The average monthly rate16 paid by residential wireline customers in urban areas for local touch-tone calling
rose from $22.62 in calendar year 2001 to $23.38 in calendar year 2002, an increase of 3.4%. Similarly, the
average monthly rate paid by business wireline customers in urban areas for a single local phone line rose
from $42.43 in 2001 to $43.59 in 2002, an increase of roughly 2.7%.17
Figure 4 presents the average residential and single-line business rates for domestic local wireline services in
urban areas. The survey from which the figure is developed only includes the basic rates charged by
incumbent local exchange carriers, including USF charges. The rate averages do not include special bundled
package prices that may lower the cost of phone service for various categories of customers, discounted rates
offered by competitive local exchange carriers, or the rates charged by local exchange carriers for qualifying
low-income subscribers.




15
   “Reference Book of Rates, Price Indices, and Household Expenditures for Telephone Service,” Table 3.1.
16
   Note that the average monthly rates for wireline services include USF charges.
17
   “Reference Book of Rates, Price Indices, and Household Expenditures for Telephone Service,” page iii, Tables 1.2 and 1.9.

                                                                   11
                                                                                               Federal Communications Commission
                                                                                           Fiscal Year 2003 Annual Financial Report


                                             Figure 4:
     Average Residential and Single-line Business Rates for Domestic (Local) Wireline Services

          $50.00
                                                                                 43.59
          $45.00                        $42.43

          $40.00
          $35.00                                                                                         Average Monthly Rate for Residential
                                                                                                         Wireline Domestic Services
          $30.00
                                                                     23.38
          $25.00              $22.62                                                                     Average Monthly Rate for Single-line
                                                                                                         Business Wireline Domestic Services
          $20.00
          $15.00
          $10.00
           $5.00
           $0.00
                            2001 October                          2002 October
            Data Source: “Reference Book of Rates, Price Indices, and Household Expenditures for Telephone Service,” Industry
            Analysis & Technology Division, Wireline Competition Bureau, July 15, 2003. October 2003 data will not be available
            until May 2004. The data was collected from operators and providers of these services.


Where we did not Achieve our Outcome Indicator Results
While local rates have increased, the CPI for telephone service overall (including local, interstate, intrastate,
and cellular services) decreased 2.1% in 2002, when adjusted for inflation. There are several reasons for the
increase in average local rates. In addition to monthly charges for basic service and calling charges,
customers pay a number of other charges for telephone service, including the federal subscriber line charge.
Some states authorize local carriers to charge state subscriber line charges as well. Additional charges fund
local number portability, TRS, and emergency 911 services. Also, total monthly expenditures are increasing
because consumers are purchasing more services, such as bundled packages, caller-ID, call forwarding, and
call waiting.
Universal service is a collection of programs designed to ensure, among other things, that
telecommunications services are available throughout the Nation at affordable rates. The USF low-income
program includes the Lifeline and LinkUp services. Lifeline service helps subsidize the recurring monthly
phone charges of qualifying low-income households and LinkUp subsidizes charges for the connection of a
phone line. In 2002, there were nearly 6.6 million subscribers receiving Lifeline benefits and more than 1.6
million subscribers who received LinkUp benefits.18 Based on a 95-city sample, the Lifeline program
conferred an average monthly benefit of $13.21, and the LinkUp program conferred an average benefit of
$29.73.19 Additionally, eligible subscribers living on tribal lands qualify to receive a supplemental tier of
support. This supplemental support provides up to an additional $25 per month towards reducing basic local
service rates. In 2002, more than 100,000 eligible subscribers received these supplemental benefits.
Providers are permitted to pass-through charges to customers to recover the costs of these and other USF

18
   “Trends in Telephone Service,” Industry Analysis & Technology Division, Wireline Competition Bureau, Tables 20.2 and 20.4,
August 2003.
19
   “Reference Book of Rates, Price Indices, and Household Expenditures for Telephone Service,” Table 1.6, July 15, 2003.

                                                                     12
                                                                                      Federal Communications Commission
                                                                                  Fiscal Year 2003 Annual Financial Report

contributions.20 For additional information, these reports can be found on the FCC website at:
http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/ref03.pdf (Reference Book) as
well as http://www.fcc.gov/Bureaus/Common_Carrier/Reports/FCC-State_Link/IAD/trend803.pdf (Trends).




 Old Activity:         New Goal: Competition
 Enforcement
                       Performance Goal:
                       Ensure that all American consumers retain reliable wireless and wireline phone service, and
                       multichannel video service.

                       3. Outcome Indicator:
                       • Increasing number of consumers and businesses that have reliable wireless and wireline
                           phone service (continuity of service).


This outcome indicator tracks and monitors the continuity of wireless and wireline phone services;
multichannel video service is not tracked under this outcome indicator.21 A decrease in the discontinuance or
disruption of phone services identifies that FCC is achieving this measurement. FCC’s major objective is to
ensure that in cases of disruption or discontinuance of wireless and wireline services, the customer has an
alternative means of having reliable phone service.

Accomplishments – Success in Achieving Outcome Indicator Results:

Wireless Services
This measure was added specifically for wireless phone services as a result of the events of September 11,
2001 to ensure continuity of service for users. The reliability of mobile wireless phone service can be
estimated by looking at the percentage of the population that has a choice of facilities-based service
providers (i.e., three or more). First, competitive pressures arising from the presence of multiple providers
will tend to ensure that each operator must provide reliable service. If one did not, its customers would have
the incentive and ability to switch to another provider. Second, in areas with two or more operators, if an
operator should decide to discontinue service customers will have alternatives readily available.
Specifically, Figure 5 below shows the percentage of the U.S. population living in counties where three or
more facilities-based mobile phone service providers have launched service. As of June 2003, 94.7% of the
U.S. population lived in counties with access to 3 or more mobile telephone competitors.22




20
   “Trends in Telephone Service,” page 20-2 and Table 20.3, August 2003.
21
   The most recent results for the availability of multichannel video services were reported in the FCC’s FY 2002 Annual Financial
Report. Updated data for FY 2003 will not be released until January 2004.
22
    FCC 03-150, “Eighth Annual Report: Annual Report and Analysis of Competitive Market Conditions with Respect to
Commercial Mobile Services,” see Table 5. Adopted June 26, 2003, released July 14, 2003. (WT Docket No. 02-379)

                                                               13
                                                                                                              Federal Communications Commission
                                                                                                          Fiscal Year 2003 Annual Financial Report


                                                                           Figure 5:
                                                                       Wireless Reliability


                                     96%
                                                                                                                         94.7%
                                                                                                  94.1%
        Percent of U.S. Population



                                     94%


                                     92%                                  90.8%


                                     90%

                                                 87.80%
                                     88%


                                     86%


                                     84%
                                             Mid-2000                Mid-2001                Mid-2002                Mid-2003
                                                                 3 or More Competitors in a County

                             Data source: Reliability is measured by percent of population living in counties with a choice of mobile
                             competitors. As of mid-2003, 99.9% of the U.S. population lived in counties with 2 or more competitors.



Wireline Services
In FY 2003, 49 applications were filed with the FCC under Section 214 of the 1996 Act for discontinuance
of wireline service, a 40.2% reduction from FY 2002 with a total of 82 Section 214 applications filed.
Section 214 requirements ensure that wireline service to communities may not be discontinued without
advanced notice to the public and Commission authorization. The rules include procedures and filing
requirements in a number of special situations, including impairment of telephone and telegraph service,
emergency discontinuance, closure of public toll stations, closure at military establishments, and notification
of service outages.
The FCC’s goal is to ensure rapid restoration of wireline communications infrastructure in the event of
disruption, and ensure that essential public health and safety personnel have effective communications
services available to them in emergency situations. In the aftermath of the September 11, 2001, all
Americans were reminded of the importance of reliable, easily available, and interoperable communications
systems. Much of what the FCC does either directly or indirectly affects the national security or emergency
preparedness telecommunications activities of the public and private sectors.
Figure 6 below depicts the number of telecommunications businesses that have filed Section 214 applications
for disruption of wireline services. Additional information on Section 214 requirements can be found on the
FCC website at: http://www.fcc.gov/wcb/cpd/other_adjud/Archive/welcome.html.




                                                                                    14
                                                                                            Federal Communications Commission
                                                                                        Fiscal Year 2003 Annual Financial Report


                                              Figure 6:
                         Number of Telecommunications Businesses Filing for
                     Disruption of Wireline Phone Services (Continuity of Service)


        100
                                    82
         90
         80
         70
         60                                                                  49                                  Wireline Receipts

         50
         40
         30
         20
         10
          0
                            FY 2002                                     FY 2003

              Data Source: Data is based on applications filed with the FCC under Section 214 by carriers that
              are discontinuing service.




 Old Activity:        New Goal: Spectrum
 Spectrum
                      Performance Goal:
 Management
                      Ensure that the Nation’s spectrum is used efficiently and effectively.

                      4. Outcome Indicator:
                      • Increasing deployment of new services making use of underutilized or unlicensed
                          spectrum.


Accomplishments – Success in Achieving Outcome Indicator Results:
The Commission’s strategic goal for spectrum is to encourage the highest and best use of spectrum
domestically and internationally in order to encourage the growth and rapid deployment of innovative and
efficient communications technologies and services.             Spectrum encompasses the entire range of
electromagnetic radio frequencies used in the transmission of sound, data, and video. The FCC and the
National Telecommunications and Information Administration (NTIA) share responsibility for managing the
spectrum. NTIA manages spectrum used by the Federal government (e.g., air traffic control and national
defense) and the FCC is responsible for spectrum used by others, including individuals (e.g., garage door
openers, wireless telephones, and computer modems), private organizations (e.g., radio and television
broadcasters), and public safety and health officials (e.g., police and emergency medical technicians).



                                                                   15
                                                                       Federal Communications Commission
                                                                   Fiscal Year 2003 Annual Financial Report

In FY 2003, the Commission adopted six rulemakings to increase the deployment and allocation of
underutilized spectrum, whereby promoting the use of unlicensed spectrum.
3 On October 30, 2002, the Commission adopted a Report and Order amending Part 74 of the rules
   pertaining to the broadcast auxiliary service (BAS) to permit BAS stations to introduce new technologies
   and create a more efficient BAS that can more readily adapt as the broadcast industry converts to the use
   of digital technology, such as digital television (DTV). The Report and Order can be found at:
   http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-02-298A1.pdf.
3 On November 7, 2002, the Commission adopted a 2nd Report and Order allocating a total of 90
   megahertz to fixed and mobile services. This allocation consists of two contiguous 45-megahertz blocks
   suitable for the provision of advanced wireless services (AWS). The Report and Order can be found at:
   http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-02-304A1.pdf.
3 On January 29, 2003, the Commission adopted a 3rd Report and Order, 3rd Notice of Proposed
   Rulemaking, and 2nd Memorandum Opinion and Order. The Commission reallocated 30 megahertz of
   spectrum from the 2 GHz Mobile Satellite Service (MSS) to fixed and mobile services; allocated for
   fixed and mobile wireless services the 1990-2000 MHz, 2020-2025 MHz, and 2165-2180 MHz bands;
   and sought comment on use of the 1910-1920 MHz band, which is currently available for unlicensed
   personal communications service (UPCS) asynchronous (generally data) applications, but at present is
   unused. The Report and Order can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-
   03-16A1.pdf.
3 On February 12, 2003, the Commission adopted a 2nd Report and Order and 2nd Further Notice of
   Proposed Rulemaking, which addressed the promotion of spectrum-efficient technologies on certain Part
   90 frequencies in the private land mobile radio services (PLMRS). The Report and Order can be found
   at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-34A1.pdf.
3 On February 14, 2003, the Commission adopted a Report and Order that addressed the diversity of low
   power operations in the private land mobile radio (PLMR) 450-470 MHz band. The Report and Order
   can be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-35A1.pdf.
3 On February 25, 2003, the Commission adopted a Report and Order to implement domestically, various
   allocation decisions from International Telecommunication Union (ITU) World Radiocommunication
   Conferences concerning the frequency bands below 28 MHz. The Report and Order can be found at:
   http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-39A1.pdf.
3 On June 25, 2003, the Commission adopted the Third Report and Order, which revised the service area
   definition as well as the build out requirement for the Multichannel Video Distribution and Data Service
   in the 12.2-12.7 GHz band (12 GHz band). The Report and Order can be found on the FCC website at:
   http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-152A1.pdf.
3 On August 7, 2003, the Commission adopted a Memorandum Opinion and Order, adopting service rules
   to govern the licensing of 27 MHz of electromagnetic spectrum in the 216-220 MHz, 1390-1395 MHz,
   1427-1429 MHz, 1429-1432 MHz, 1670-1675 MHz, and 2385-2390 MHz bands, which were reallocated
   for non-Government use. The full text of the decisions can be found at: FCC-03-204A1.doc, FCC-03-
   204A1.txt, and FCC-03-204A1.pdf.




                                                   16
                                                                                    Federal Communications Commission
                                                                                Fiscal Year 2003 Annual Financial Report



 Old Activity:        New Goal: Media
 Consumer
                      Performance Goal:
 Information
                      Facilitate the Congressionally mandated transition to digital television and further the
 Services /
                      transition to digital radio.
 Enforcement
                      5. Outcome Indicator:
                      • Significant progress in the transition to digital television and radio.


Accomplishments – Success in Achieving Outcome Indicator Results:
Digital Television
A total of 1,698 stations are allocated for digital television. Of the 1,698 stations allocated, 1,314 are
allocated for commercial DTV stations, and 384 are allocated for non-commercial education DTV stations.
By the end of FY 2003, a total of 559, or 32.9%, of the stations were licensed for digital transmission. This
represents an increase from FY 2002, when a total of 278 or 16.4% of the stations were licensed. Of these
559 stations, the FCC licensed 438 (33.3%) of the commercial DTV stations and 121 (31.5%) of the non-
commercial education DTV stations for digital transmission. This represents an increase from FY 2002,
when a total of 233 (17.7%) of the commercial DTV stations and 45 (11.7%) of the non-commercial
education DTB stations were licensed for digital transmission. An increase in the number of television
stations broadcasting digitally led to an increased consumer demand for improved television service and for
the development of new DTV technology and competition.
Figure 7 below shows the total number of stations allocated for digital television, and compares that total to
the total number of stations that were licensed for digital transmission in FY 2002 and FY 2003. The graph
denotes commercial DTV stations as well as non-commercial education DTV stations.

                                                               Figure 7:
                                                    Transition to Digital Television

                                          1400

                                          1200
                     Number of Stations




                                          1000
                                                                                            Commerical DTV
                                           800

                                           600                                              Non-Commercial
                                                                                            Education DTV
                                           400
                                           200

                                             0
                                                   Total     FY 2002     FY 2003
                                                 Stations    Stations    Stations
                                                 Allocated   Licensed    Licensed

              Data Source: The Media Bureau collects data from licensees through Form DTV-302. A total of 1,314
              commercial and 384 non-commercial education television channels are allocated for DTV.




                                                                  17
                                                                                          Federal Communications Commission
                                                                                      Fiscal Year 2003 Annual Financial Report

Digital Radio
In October 2002, the Commission adopted a Report and Order selecting a digital transmission technology.
Following its review of extensive tests, the Commission authorized digital FM and digital daytime AM
operations. This action permits, but does not require, broadcasters to begin providing terrestrial digital radio
service immediately. The pace and extent of implementation will be determined by broadcasters, consumers,
and consumer electronics manufacturers. The Report and Order can be found on the FCC website at:
http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-02-286A1.pdf. The FCC expects to adopt a Further
Notice of Proposed Rulemaking in FY 2004. A Second Report and Order to adopt transmission standards,
technical standards, and service and licensing rules is also expected in FY 2004.
During FY 2003, a total of 72 radio stations were granted Special Temporary Authority (STA) to operate
digitally. Data on digital terrestrial radio is collected when applicants file for or request a STA.23




 Old Activity:            New Goal: Homeland Security
 Spectrum
                          Performance Goal:
 Management
                          Promote the reliability, security, and survivability of the communications infrastructure.

                          6. Outcome Indicator:
                          • Increasing amounts of spectrum available for public safety communications.


Accomplishments – Success in Achieving Outcome Indicator Results:
In FY 2003, the Commission granted 9,701 applications for new or modified stations in the public safety
bands (e.g., microwave, 4.9 GHz, 800 MHz, 220 MHz).
In the aftermath of the September 11, 2001 terrorist attacks, all Americans were reminded of the importance
of reliable, easily available, and interoperable communications systems – both for emergency personnel
responding to a tragedy and individuals checking on friends and family. Much of what the FCC does either
directly or indirectly affects homeland security or emergency preparedness telecommunications activities of
the public and private sectors.
To fully and effectively carry out its role in promoting homeland security, network protection,
interoperability, redundancy, and reliability, the FCC has established the following objectives:
       •    Evaluate and strengthen measures for protecting the Nation’s communications infrastructure.
       •    Facilitate rapid restoration of the U.S. communications infrastructure and facilities after disruption
            by a threat or attack.
       •    Develop policies that promote access to effective communications services by public safety, public
            health, and other emergency and defense personnel in emergency situations.
On February 13, 2003, the Commission adopted a Memorandum Opinion and Order that largely reaffirmed
the procedures adopted in 2002 to authorize the unlicensed operations of ultra-wideband devices. Minor
changes were implemented to further facilitate the operation of imaging devices (i.e., through-wall imaging
systems by law enforcement, emergency rescue and firefighter personnel in emergency situations, etc.). See:
http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-33A1.pdf.



23
     The FCC did not begin issuing digital radio authorizations (Special Temporary Authority/notification) until FY 2003.

                                                                  18
                                                                                        Federal Communications Commission
                                                                                    Fiscal Year 2003 Annual Financial Report

On May 2, 2003, the Commission released a Memorandum Opinion and Order and Third Report & Order
that established licensing and service rules for the 4940 – 4990 MHz (4.96 MHz) band to promote effective
public safety communications and innovation in wireless broadband services in support of public safety.
See: http://hraunfoss.fcc.gov/edocs_public/attachmatch/FCC-03-99A1.pdf.
On July 10, 2003, the Commission announced its Homeland Security Action Plan. The plan defines the
Commission’s homeland security goals as well as the approach it will take to achieve these goals. The plan
relies heavily on partnerships with other government entities, industry, and citizen groups and consists of two
objectives: (1) strengthen measures for protecting the nation’s communications infrastructure and facilitate
rapid service restoration after disruption; and (2) promote access to effective communications services by
public safety, public health, and other emergency personnel. To further the efforts to promote homeland
security, the Commission also announced the creation of an Office of Homeland Security in the Enforcement
Bureau that will provide consolidated support for the Commission in meeting its homeland security and
emergency preparedness responsibilities. In addition, the office will be responsible for rulemaking
proceedings relating to the Emergency Alert System and will oversee the operation of the FCC’s 24-hour
Communications and Crisis Management Center and its Emergency Operations Center. The action plan can
be found at: http://hraunfoss.fcc.gov/edocs_public/attachmatch/DOC-236428A2.pdf.




 Old Activity:           New Goal: Modernize the FCC
 Licensing
                         Performance Goal:
                         Become a more responsive, efficient, and effective agency capable of facing the
                         technological and economic opportunities of the new millennium.

                         7. Outcome Indicator:
                         • Reducing the average time required to complete rulemakings (knowledge management).


Accomplishments – Success in Achieving Outcome Indicator Results:
In FY 2003, the FCC initiated a pilot project to improve productivity, decision-making, and collaboration in
the policy and rulemaking process. The main goals for the technology investment for the policy and
rulemaking process are to:
    ¾ Increase the quality of FCC decision-making by allowing employees to focus less on the
        administrative aspects of the process and more on the value-added aspects such as analysis and
        collaboration, and by improving the accuracy in retrieving research material.
    ¾ Increase the timeliness of FCC decision-making by reducing the administrative burden on staff, and
        by introducing improved search tools to reduce time spent tracking FCC’s knowledge assets.
    ¾ Increase employee satisfaction by streamlining the less substantive parts of the process.
Figure 8 below identifies the average time required to complete rulemakings during FY 2003 as compared to
previous years.24 During FY 2003, the FCC released several major, high profile rulemakings, such as the
Triennial Unbundled Network Element (UNE) Review (372 days), Advanced Wireless Services (3-G) (379
days), Third Biennial Review Report of Broadcast Ownership Rules (475 days), that averaged 408.6 days
from initiation to circulation causing a substantial increase in processing time as compared to FY 2002.




24
     The source of data for these statistics is FCC’s Expanded Management Tracking System database as well as the ClasPlus system.

                                                                 19
                                                                                             Federal Communications Commission
                                                                                         Fiscal Year 2003 Annual Financial Report

Where we did not Achieve our Outcome Indicator Results:
In addition to these three high profile rulemakings, the data for “Initiation to Circulation” is skewed in FY
2003 as a result of recent efforts to expedite the rulemaking process by completing action on backlogged
items. Nine of the rulemakings included in the data for “Initiation to Circulation” were initiated between the
start of 1995 and the end of 1999. These nine rulemakings were put into circulation as part of a
Commission-wide effort to dispose of backlogged items. These rulemakings account for 17,297 days of the
total number of days from “Initiation to Circulation” and significantly impact the results.
Expediting the rulemaking process is also part of the FCC’s current Improving the Management of Policy
Activities through Collaborative Technologies” (IMPACT) Project. IMPACT will implement document
management, workflow, knowledge management and collaboration tools, and new document editing
capabilities to increase the timeliness of policy and rulemaking activities.

                                            Figure 8:
                            Average Time Required to Complete Rulemakings

                 400                                                            360
                                                                                        166 items
                                                                                         released
                 350

                 300

                 250                                                                                  Initiation to Circulation
          Days




                                                                                                      Circulation to Adoption
                 200
                                                    156     180 items                                 Adoption to Release
                                                             released
                 150

                                     144 items
                 100                  released
                                41                         42
                 50                                                                    28
                                                                 12                             10
                                      9

                  0
                         FY 2001                     FY 2002                    FY 2003
                        “Initiation to Circulation” statistics for FY 2001 are not available.


Verification, Validation, and Program Evaluation

The FCC is dedicated to ensuring that both the mission and resources entrusted to it are properly and
effectively managed. The FCC uses numerous methods and techniques to verify and validate the
completeness and reliability of data underlying its outcome indicators. Methods include: certifications of
reliability from data providers, a general program of review and evaluation carried out by the Performance
Evaluation and Records Management (PERM) staff in the Office of the Managing Director (OMD), and
audits, reports, and reviews performed by other groups such as the Office of Inspector General (OIG) and
General Accounting Office (GAO). The performance of the FCC is also evaluated through the Annual
Program Performance Report.
Because the performance measures in this report are based on the revised Strategic Plan, and in some cases
are new, baseline and trend data are provided as far back as it is available. In general, the expected data



                                                                  20
                                                                                  Federal Communications Commission
                                                                              Fiscal Year 2003 Annual Financial Report

sources are internal reports generated by various FCC bureaus and offices,25 which are often combinations of
internally-generated data and externally provided data from government surveys such as the Current
Population Survey and industry data. In other cases it is provided by outside sources, as noted.


Financial Management – Legal Compliance, Systems, and Controls
Legal Compliance
The FCC, like other Federal agencies, is required to comply with statutes and regulations related to
appropriations, safety and health, and employment. Compliance with such requirements is the responsibility
of FCC management. The OMD has responsibility for implementing accounting and financial policies,
systems, and reports; improving the reliability of financial information; implementing debt collection; and
implementing financial management legislation, regulation, and guidance.
In the FCC’s efforts to achieve compliance with applicable legislation, regulation, and guidance, it is
necessary to have effective management and system controls in place. The FCC has established or updated
formal policies and procedures regarding the processing, maintaining, and reporting of financial information.
Most recently, the FCC established formal policies and procedures for the estimation, assessment, and
collection of regulatory fees. Although the FCC has made significant improvement with regards to its
management controls, additional improvement is needed as indicated by the results of the FY 2002 financial
statement audit. FCC’s efforts to address improvements are described below.
Systems
The Financial Systems Operations Group, within the OMD, oversees maintenance support for the system
controls of the financial systems. The following summarizes several significant financial systems:
     •    Federal Financial System
     •    Revenue & Accounting Management Information System
     •    Collections System
     •    Budget Execution and Management System
The Federal Financial System (FFS) is a commercial off-the-shelf (COTS) software package, which serves as
the FCC’s central accounting system. FFS runs on a mainframe located at the DOI’s National Business
Center (NBC) in Denver, Colorado. The DOI NBC provides system maintenance support through a cross-
servicing agreement. FCC staff within the office of the Associate Managing Director – Financial Operations
(AMD-FO) perform system operations, maintenance of system tables, and security administration for the
FFS application. The system is supplemented by a data warehouse, which provides ad hoc reporting
capabilities.
The Revenue Accounting and Management Information System (RAMIS) is a COTS software package
modified to handle collections, accounts receivables, and loan management specific to the FCC. It is
designed to interface with the FCC’s central accounting system, FFS, and licensing systems throughout the
Commission. Once all reporting modules are complete, all collection activity of the FCC, with the exception
of loans, will be recorded and tracked in RAMIS. RAMIS will also record the collection of receipts, produce
dunning letters for past due accounts, and track account forfeitures submitted to the U.S. Department of the
Treasury (Treasury), if under $100,000, or to the Office of General Counsel (OGC) for referral to the
Department of Justice (DOJ), if over $100,000, for collection. Implementation of RAMIS is intended to
assist the FCC in achieving better system integration, as well as to meet system requirements established by
the Joint Financial Management Improvement Program (JFMIP). As of the date of the FY 2003 audit, the
RAMIS system is serving as the system of record for all fines and forfeitures activities as well as the


25
  Data from FCC programmatic reports and application processing systems, inquiry and complaint tracking systems, enforcement
reporting systems, and hiring and training systems.

                                                            21
                                                                                        Federal Communications Commission
                                                                                    Fiscal Year 2003 Annual Financial Report

processing of application and regulatory fees, and miscellaneous accounts receivables. It also records
collections received from the lockbox bank in parallel with the Collections System.
The Collections System is a custom-built database application designed to store and display all collections
accounting information for the FCC. It is designed to interface with licensing and other systems throughout
the Commission.26
At the end of FY 2002, the FCC entered into a cross-servicing agreement with DOI to implement cost
allocation software, BEAMS, in FY 2004. BEAMS will provide a robust and integrated addition to the
Commission’s financial management systems that will support the partnership between program and
financial managers, assuring the integrity of information for decision making, and measuring the full cost of
the FCC’s programs and their various elements, activities, and outputs. BEAMS will fully support tracking
FCC outputs, programs and activities at the 2003-2008 Strategic Plan goals, performance goals and output
levels. The system will support the Statement of Net Cost for the financial statements, as well as detailed
budget execution and FTE reporting in support of improved management of Commission resources. As
such, BEAMS will better enable the FCC to meet the President’s Management Agenda requirement to link
budget and performance.
Not included as part of its financial systems, but still an important financial management tool for FCC
management in FY 2003 are the Loan Model Spreadsheets used to calculate loan balances on the FCC’s
credit reform loans. On a monthly basis, the spreadsheets are updated with the monthly collections from
RAMIS. The Loan Model Spreadsheets have been maintained by an outside contractor throughout the
course of the year and have served as the basis for calculation of FCC’s subsidy reestimate and loan
subsidiary records. Ultimately, these spreadsheets will be replaced by an outside loan servicing system.
The FCC has contracted with a major financial services firm to provide loan servicing for the portfolio,
document management, and Uniform Commercial Code (UCC) review and filing services. The FCC
completed the transfer of loan data to its new loan service provider by September 30, 2003, with the full loan
servicing implementation as of October 1, 2003. The system further allows users to electronically store,
retrieve, copy and correlate data and images directly from their desktop. The FCC currently has the ability to
search and retrieve loan documents from desktops, thereby eliminating the need to manually store and
research files.
Internal Controls
The FCC has in place numerous internal controls over financial reporting that provide reasonable assurance
the financial statements do not contain material misstatement, and fairly present information related to assets,
liabilities and net position. As noted in the preceding section, transactions are executed in accordance with
budgetary and financial laws, consistent with the FCC statutory requirements, and are recorded in accordance
with Federal accounting standards. Additionally, assets are properly acquired and used, and safeguarded to
deter theft, accidental loss or unauthorized disposition, and fraud. Further, the FCC internal controls exist to
assure the existence and completeness of the performance measures, as required by the Office of
Management and Budget (OMB) Bulletin 01-09, Form and Content of Agency Financial Statements.
The FCC received an unqualified opinion in FY 2002. However, the auditors found material weaknesses and
reportable conditions. The Independent Auditor’s Report on Internal Control included at the end of this
report details the FCC’s efforts to address these issues in FY 2003.
In accordance with the Federal Managers’ Financial Integrity Act (FMFIA), the FCC identified corrective
actions taken during FY 2003 for the purpose of addressing material weaknesses and reportable conditions
related to internal controls. The FCC created a team to address all findings in the internal control report.
The team identified items that can be resolved in the short- (this fiscal year), medium- (next fiscal year), and
long-term. While steps are being taken to address all of the above-mentioned issues, the FCC has placed
significant emphasis on the following issues related to FY 2003 financial reporting:

26
     The Collections System is running in parallel with RAMIS as a back-up system until RAMIS is fully operational.

                                                                 22
                                                                          Federal Communications Commission
                                                                      Fiscal Year 2003 Annual Financial Report

    •   Financial Reporting: implemented RAMIS for fines and forfeitures activities as well as the
        processing of application and regulatory fees, and miscellaneous accounts receivables, in December
        2002, tested the processing and integration of loan servicer transactions, and increased oversight of
        USF reporting through input and review of key USF policy changes;
    •   Cost Accounting: continued improvements in the cost accounting system, including reminders to
        employees on the importance of properly coding time and referral to location for explanations of the
        activities; as noted earlier, the implementation of BEAMS is expected in FY 2004;
    •   USF and TRS Financial Reporting: approved order requiring USF compliance with all Federal
        financial regulations, and increased controls over the financial reporting of USAC, including policies
        and procedures requiring more stringent review of payments to entities on watch list;
    •   Auction Related Subsidiary System: continued efforts to address certain FCC fund specific issues to
        improve the financial reporting process, including expansion of monthly reconciliation procedures to
        include a cumulative roll-forward for all phases of the Auctions process;
    •   FCC Loan Subsidiary Ledgers: initiated reconciliation of the loan servicer, RAMIS, and loan
        spreadsheet data each month until all differences are cleared; and
    •   Information Technology: developed an IT strategic plan to satisfy the OMB A-130 requirement as
        well as a system security plan for all major applications.
The FCC also identified corrective action plans for non-conformances including: identifying system
requirements for RAMIS to generate reports related to regulatory fee payments; developing a process flow to
identify regulatory fee “red light” candidates and a system for individuals to obtain information on the status
of outstanding receivables; developing an interface between RAMIS and FFS to handle posting of deferred
revenue and Auctions revenue through RAMIS; updating financial statements for multi-year regulatory fees;
changing the accrued liability procedures to record an estimate of unrecorded services based on past history;
securing an outside contractor to perform audits of all employees with leave discrepancies and sending
periodic notices reminding employees of time coding policies; developing DCIA procedures for USF, TRS,
and NANP and evaluating new Treasury proposals on forwarding delinquent debt; committing adequate
resources for the management of the RAMIS project; submitting a Capital Asset Plan and Business Case for
RAMIS; and conducting reviews of security controls for major applications. In addition, the FCC is
addressing other concerns, including incorporating a comparison of the fund balance against unexpended
appropriations into its financial statement crosswalk and comparing these balances quarterly; resolving
several property, plant and equipment items such as distinguishing capitalized versus non-capitalized costs,
consistent with policies and procedures; and establishing a new reconciliation process for RAMIS, among
other changes.


Looking Ahead – Possible External Factors Impacting FCC Performance
The Commission has identified certain demands, risks, uncertainties, events, conditions, and trends that may
impact the FCC’s ability to achieve its goals and objectives in the future. These external factors may affect
the continued development of competition in telecommunications markets.
An overview of these factors follows:
    •   Convergence-driven competition depends heavily on market and economic uncertainties. The
        slowdown in the U.S. economy has significantly limited the availability of capital for investment in
        improved products and services. The telecommunications industry has been particularly impacted by
        the economic downturn. Over the past year, capital expenditures in telecommunications declined
        almost by half. Telecommunications companies and their equipment suppliers have lost more than
        $2 trillion in value over the past year. During this time of economic and financial upheaval, the
        industry continues to face mergers, which may impact the pace of investment in these networks, and
        competition may be slower to develop. In addition, bankruptcies and recent legal proceedings have
        led to a reexamination of enforcement activities, including auditing and accounting reviews of

                                                     23
                                                                                         Federal Communications Commission
                                                                                     Fiscal Year 2003 Annual Financial Report

            common carriers. While the FCC has taken measures to ensure that the American public continues
            to have uninterrupted access to essential communications services, the current state of the
            telecommunications industry will continue to affect the economic viability of both conventional and
            technologically innovative new communications services.
       •    Across all of the varied technology platforms used to deliver communications – traditional wireline,
            cable, wireless, satellite, etc. – massive investment has been made to improve and expand network
            capacity. The ability to achieve return on this investment hinges on consumer demand for this new
            capacity and the services that it can deliver. Concurrently, technology improvements have increased
            the efficiency of capacity utilization – making it easier to use less. These strategies appear to have
            begun to pay off with consumer adoption increasing as prices fall. The business models of many
            new competitors hinge on combining multiple existing and new services on a single service delivery
            platform. The profitability of companies that are “overbuilding” new hybrid fiber-coax networks to
            compete with cable and telephone incumbents depends on selling customers bundles of service
            including multichannel digital video, high-speed Internet access, and telephony. Only by combining
            revenue streams can new entrants, saddled with heavy network construction costs, compete with
            incumbents operating existing networks.
       •    The prospects for competitive communications markets are significantly affected not only by
            national developments, but also by developments in world markets. The opportunities for increased
            competition in the United States can be more fully realized if other countries join us in fostering
            competition in their communications marketplaces. Market access restrictions in foreign countries
            significantly impede U.S. companies’ ability to compete on a global scale. Specifically, the FCC’s
            vision of fully competitive communications markets in the U.S. is contingent, to some degree, on
            whether other nations also establish the necessary conditions for deregulation, competition, and
            increased private investment in their communications infrastructure. The FCC’s success will depend
            on vigorous enforcement of the market access commitments set forth in the 1997 World Trade
            Organization (WTO) Agreement on Basic Telecommunications Services.


                  “With the events of September 11th [2001], it has become imperative that the
                  communications community come together to determine our role in ensuring
                  homeland security. We must be aggressive in ensuring that our policies maximize the
                  many efforts being made to make our nation safe. We will work with industry to ensure
                  the reliability and security of our nation’s communications infrastructure.”
                                                                                        Chairman Michael K. Powell
                                                                                 Press Conference, October 23, 200127

       •    The Commission’s ability to achieve its goals and objectives in the future could also be affected by
            the unpredictable. As September 11, 2001 demonstrated, factors beyond the FCC’s control could
            add significant new responsibilities and demands on the FCC. Events such as “9/11” emphasized an
            increased need to ensure the reliability and interoperability of the nation’s communications
            networks. In addition, the FCC cannot predict possible future actions by Congress, which may
            change Federal laws and potentially affect FCC’s responsibilities and workload. Nor can the FCC
            anticipate the outcome of litigation.
       •    Finally, the Commission’s ability to carry out its vision also is largely dependent on adequate
            resources to carry out critical activities. In many cases, the FCC will need to redeploy existing
            budget and staff resources to address changing priorities. The FCC is upgrading systems to improve
            cost accounting, budget formulation, and FTE tracking. The transition will begin in FY 2004. This

27
     Press conference on “Digital Broadband Migration, Part II,” October 23, 2001.

                                                                  24
                                                                                 Federal Communications Commission
                                                                             Fiscal Year 2003 Annual Financial Report

         system will improve the Commission’s ability to appropriately allocate resources and to more
         accurately link budget to performance. The FCC’s success is tied directly to its ability to maintain
         critical staffing levels and adequate funding. Moreover, for the FCC to fulfill its congressional
         charge, it will continue to execute its Strategic Plan (FY 2003-2008) built along the six strategic
         goals: broadband, competition, spectrum, media, homeland security, and modernize the FCC.


Highlights of the FY 2003 Financial Results
Future Effects of Current Demands
Since 1994, the FCC has conducted auctions of licenses for spectrum. These auctions are open to any
eligible company or individual that submits an application and upfront payment, and is found to be a
qualified bidder by the Commission. Qualified bidders are those applicants whose FCC Form 175
applications have been accepted for filing and have submitted timely upfront payments sufficient to make
them eligible to bid on at least one of the licenses for which they applied.
NextWave
In FY 2001, Auction No. 35 offered a total of 422 licenses covering 195 markets for C and F Block
Broadband Personal Communications Service (PCS) (January 2001). In Auction No. 35, the FCC
reauctioned spectrum associated with the licenses won by NextWave (“Auction No. 35 Spectrum Licenses”)
and for which the company defaulted on its payments.28 Due to the Supreme Court’s decision in Federal
Communications Commission v. NextWave Personal Communications, et al., 537 U.S. 293, the FCC has
clarified that its automatic cancellation rule was ineffective. In a series of actions by the FCC, the deposits of
all 22 winning bidders for the Auction No. 35 Spectrum Licenses have been refunded in the aggregate
amount of $3.3 billion.
On September 26, 2003, NextWave and subsidiaries of Cingular Wireless LLC (“Cingular”) filed
applications pursuant to Section 310(d) of the Act, as amended. In these applications, the parties seek
Commission consent to either fully or partially assign C and F Block broadband PCS licenses in thirty-four
markets from NextWave to Cingular. If approved by the Commission, Cingular will obtain nearly 20% of
NextWave’s licensed spectrum for $1.4 billion. On October 6, 2003, the FCC issued a public notice
regarding the assignment to Cingular.29 The licenses at issue are subject to installment payment financing
and Cingular is not a qualified designated entity. As part of its approval of the applications, the parties
request that the Commission grant waivers of sections 1.2111 and 24.714 of its rules, or explicitly state that
delivery of such payment constitutes full payment, and satisfies all conditions, required under such sections.
The recovery and timing of recovery on loans in default are key factors in the FCC’s calculation of its annual
credit reform subsidy. For the FCC’s FY 2003 and FY 2004 credit subsidy re-estimates, which are reflected
in the FY 2002 and FY 2003 financial statements respectively, the FCC calculated, in accordance with OMB
guidance, a 100% recovery rate for the NextWave licenses with receipt in the first quarter of FY 2005. The
Supreme Court decision does not address the amount of the debt obligation of NextWave as a result of its
winning bids for the licenses. Any dispute regarding the amounts owed by NextWave for the licenses, and
the timing of future recoveries was not affected by and has not changed as a result of the Supreme Court
ruling. Any dispute regarding these issues are likely to be resolved as part of NextWave’s bankruptcy
proceedings. As a result, the FCC has not made additional changes to these financial statements for this
event.




28
  NextWave filed for bankruptcy protection in June 1998.
29
  DA 03-3031, “Cingular Wireless and NextWave seek FCC consent for the Full and Partial Assignment of Thirty-four Broadband
Personal Communications Licenses, WT Docket No. 03-217, released October 6, 2003.

                                                           25
                                                                          Federal Communications Commission
                                                                      Fiscal Year 2003 Annual Financial Report

Results of Financial Position and Operations
In anticipation of the accelerated FY 2004 financial statement issuance date of November 15, 2004, the FCC
performed an assessment in FY 2003 of areas where the timeliness of the statements could be improved
through the use of accrued estimates versus actual data. Two areas identified and converted to the accrual
process for FY 2003 are the accrual of year-end accounts payable and the accrual of unpaid regulatory fees.
In the past, the FCC has waited for information to come in after year-end in order to determine these figures.
In FY 2003, the FCC accrued these balances based on a combination of past history and available current
year data. The FCC will continue to gather actual data after year-end for comparison and adjustment
purposes however the bases for these figures will be estimated going forward. As noted below, a similar
change was made for the credit subsidy calculation.
A significant aspect of the FCC’s operations is managing its Spectrum Auction Direct Loan portfolio
(Spectrum Auction). In FY 2003, the net loans receivable balance, which represents installments due from
loans under the Spectrum Auction program, was approximately $4.4 billion, representing more than half of
the Commission’s total assets of $8.2 billion.
Subsidy Reestimate
The FCC is required to annually adjust its allowance for losses on the credit portfolio based on the most
current portfolio performance information. In accordance with OMB guidance, the FCC calculates its
subsidy reestimate based on the most recent economic and technical assumptions.
The FCC’s FY 2004 subsidy reestimate was completed to reflect the actual loan performance through June
30, 2003 and projected performance through September 30, 2003. The result of this reestimate was a net
upward adjustment (increase in the subsidy cost) totaling $380.0 million in the Spectrum Auction program.
An additional $216.9 million increase due to interest on the reestimate, which represents the amount of
interest that would have been paid if the reestimate had been included as part of the original subsidy estimate,
is also recognized. This reestimate is reported in the FCC’s FY 2003 financial statements, but will not be
reported in the budget until FY 2004. The average subsidy rate increased from 48.4% in the FY 2002
financial statements to 52.2% in the FY 2003 financial statements.
The FY 1997 C and F Block installment loans account for 97% of all of the Spectrum Auction loans. As a
result, they represent the most significant components of the subsidy cost.
The FY 2004 subsidy cost reestimate of the C Block FY 1997-cohort as included in the FY 2003 financial
statements was 56.5%, an increase from 54.3% in the FY 2002 financial statements, which equated to a
subsidy cost of $5.1 billion, an increase from $4.9 billion the prior year. The F Block FY 1997 cohort
subsidy rate as included in the FY 2003 financial statements was -13.6%, an increase from -44.7% in the FY
2002 financial statements, which equated to a subsidy cost of -$67.4 million, an increase from -$222 million
the prior year.
The subsidy reestimates for the C and F Block 1997-cohorts changed primarily because of a reduction in
estimated recoveries on Urban Comm licenses in Auction No. 35. In the FY 2003 reestimate, the recoveries
from the resale of defaulted licenses (except NextWave related licenses) through Auction No. 35 were
projected at the winning bid amount for these licenses including Urban Comm. In the FY 2004 reestimate,
the recoveries from the Urban Comm licenses were treated in the same manner as NextWave licenses, which
was at the full value of defaulted principal amount (an amount less than what was previous projected). In
addition, the timing of recovery collections was extended from the third quarter FY 2003 to the first quarter
of FY 2005.
The Narrowband FY 2004 subsidy rate included in the FY 2003 financial statements was 76.7%, an increase
from 55.0% in the FY 2002 financial statements, which equated to a subsidy cost of $93.3 million, an
increase from $66.9 million the prior year. The subsidy cost increased for Narrowband in the FY 2004
reestimate primarily due to the revised recovery assumption. In the FY 2004 reestimate, recovery
expectations declined to $1 million (a net decrease of $51.7 million in the recovery amount from FY 2003

                                                      26
                                                                           Federal Communications Commission
                                                                       Fiscal Year 2003 Annual Financial Report

reestimate). The previous reestimate assumed recoveries of 50% of outstanding principal balance of the
defaulted licenses.
The Interactive Video and Data Service (IVDS) FY 2004 subsidy rate included in the FY 2003 financial
statements was 85.7%, an increase from 81.1% in the FY 2002 financial statements, which equated to a
subsidy cost of $75.9 million, an increase from $71.8 million the prior year. The subsidy cost increased for
IVDS in the FY 2004 reestimate as a result of an increase in the number of actual defaults.
Regulatory Fee Collections
Section 6003(a) of the Omnibus Budget Reconciliation Act of 1993 (Public Law 103-66) added a new
Section 9 to the Act. Section 9(a) of the Act authorizes the Commission to assess and collect annual
regulatory fees to recover its regulatory costs, including enforcement, policy and rulemaking, user
information, and international activities. The amount the FCC is required to recover is included in the FCC’s
appropriations made annually by Congress. Regulatory fees are collected and deposited directly into the
U.S. Treasury to offset the FCC’s appropriations for the current fiscal year. In FY 2003, FCC was expected
to collect $269.0 million; the Commission collected $265.7 million.
Other Key Financial Statement Highlights
Borrowers are required to repay loans on a quarterly basis and are allowed to prepay their loans without
penalties. In FY 2003, 93 loans were paid off. Collections resulting from 51 loan payoffs, which include
principal, interest, suspension interest, and late fees, totaled $44.2 million. When compared with the FCC’s
total collections of $108.5 million in principal, interest, suspension interest, and late fees, these 51 loan
payoffs represent approximately 41% of all collections. In addition, in FY 2003, there were $50.5 million in
non-cash auction discount voucher transactions related to 42 payoffs. When compared with the FCC’s total
non-cash transactions of $58.6 million in principal, interest, suspension interest, and late fees, these 42 loan
payoffs represent approximately 86% of all non-cash transactions.
The Debt Collection Improvement Act of 1996 requires Federal agencies to transfer to the Treasury for debt
collection any non-tax debt that is over 180 days delinquent. In cases where delinquency occurs, the full
amount of outstanding debt including, but not limited to, outstanding principal, past-due interest, and late
fees, will be accelerated and must be paid in full. Failure to pay in full upon demand results in the transfer of
the debt to Treasury for debt collection and the assessment of additional interest, penalties, and other
administrative charges. In FY 2003, the FCC transferred to Treasury 76 loans totaling $33.7 million for
collection, and accounts receivable totaling nearly $1.6 million.
FCC’s assets include its Fund Balance with Treasury and Cash and Other Monetary Assets. The $875
million decrease over FY 2002 in Fund Balance with Treasury is explained by the release of the remaining
refunds in Auction No. 35 totaling $489 million and the repayment of Treasury debt using $468 million in
auction recoveries collected in FY 2002. Larger carryover balances in several other funds offset these
decreases.
The FCC’s most significant liability account is Debt of $5.1 billion. Debt includes $5.0 billion owed to
Treasury for borrowing related to credit reform installment loans, and $56 million in debt with the public for
one voucher issued as a result of litigation. Deferred Revenue decreased by $475 million over FY 2002,
again, primarily as a result of the Auction No. 35 refunds of $489 million. Funds received as the result of
continued auctions and deferred revenue added for the USF and NANP entities offset the Auction No. 35
decrease.
The net cost of FCC operations for FY 2003 was $6.0 billion, which was allocated to the five activities of the
FCC: Consumer Information Services, Enforcement, Competition, Licensing, and Spectrum Management, as
well as to Credit Reform, the USF and NANP. The $291.6 million represents a 5% increase over FY 2002.
The FCC’s budget authority in FY 2003 was $562 million, and an additional $5,743 million for USF, which
in total represents a $589 million increase over FY 2002. The difference is contributed primarily to the


                                                      27
                                                                        Federal Communications Commission
                                                                    Fiscal Year 2003 Annual Financial Report

increase in upward reestimate authority of $398 million from $133 million in FY 2002 to $531 million in FY
2003.
Another significant dimension of the financial statements is the USF. The Fund met all obligations during
the year. Management expects the Fund to continue to meet all obligations presented.
The USF had total expenses of $5.6 billion in FY 2003. Net revenue of $5.8 billion exceeded total expenses
by $234 million. The total net assets of the Fund were $3.4 billion. Those assets are sufficient to meet the
total liabilities of the Fund and consideration of the best way to reduce the growing fund balance in this
program is underway at the FCC.


Limitations of the Financial Statements
The principal financial statements have been prepared to report the financial position and results of
operations of the FCC, pursuant to the requirements of 31 U.S.C. 3515(b). While the statements have been
prepared from the books and records of the FCC in accordance with generally accepted accounting principles
(GAAP) for Federal entities and the formats prescribed by OMB, the statements are in addition to the
financial reports used to monitor and control budgetary resources which are prepared from the same books
and records.
The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity. One implication of this is that liabilities cannot be liquidated without legislation that
provides resources to do so.




                                                    28
               Federal Communications Commission
           Fiscal Year 2003 Annual Financial Report




II. FINANCIAL
STATEMENTS




      29
                                         Federal Communications Commission
                                             Consolidated Balance Sheet
                                          As of September 30, 2003 and 2002
                                                        (dollars in thousands)


                                                                            2003                   2002
ASSETS (Note 2)
 Intragovernmental
   Fund Balance with Treasury (Note 3)                                 $          409,998     $      1,285,165
   Accounts Receivable (Note 6)                                                    10,451                3,041
 Total Intragovernmental                                                          420,449            1,288,206

 Cash and Other Monetary Assets (Note 4)                                         2,412,912           2,347,998
 Investments (Note 5)                                                              326,389             328,194
 Accounts Receivable, net (Note 6)                                                 648,690             515,359
 Loans Receivable, net (Note 7)                                                  4,428,805           5,259,258
 General Property, Plant, and Equipment, net (Note 9)                               44,066              41,813
 Other                                                                                 -                     2

Total Assets                                                           $         8,281,311    $      9,780,830

LIABILITIES (Note 10)
 Intragovernmental
   Accounts Payable                                                    $                10    $            -
   Debt (Note 11)                                                                5,065,438           5,770,915
   Other (Note 12)
     Custodial                                                                    230,052             691,662
     Other                                                                          1,304               1,074
   Total Other                                                                    231,356             692,736

 Total Intragovernmental                                                         5,296,804           6,463,651

 Accounts Payable                                                                 405,187             410,171
 Debt Held by the Public (Note 11)                                                 55,848             114,425
 Other (Note 12)
  Deferred Revenue                                                                 76,823             551,450
  Other                                                                            95,354             113,990
 Total Other                                                                      172,177             665,440

Total Liabilities                                                      $         5,930,016    $      7,653,687

 Commitments and Contingencies (Note 14)

NET POSITION
 Unexpended Appropriations                                             $            43,055    $         22,158
 Cumulative Results of Operations                                                2,308,240           2,104,985


Total Net Position                                                               2,351,295           2,127,143

Total Liabilities and Net Position                                     $         8,281,311    $      9,780,830




                                 The accompanying notes are an integral part of these statements

                                                                  30
                               Federal Communications Commission
                                Consolidated Statement of Net Cost
                  For the Years Ended September 30, 2003 and September 30, 2002
                                                (dollars in thousands)


                                                                         2003                  2002
PROGRAM COSTS:
Licensing:
  Intragovernmental gross costs                                   $          19,891        $      18,805
  Less: Intragovernmental earned revenue                                       (293)                (274)
  Intragovernmental net costs                                                19,598               18,531

 Gross costs with the public                                                 53,282                55,448
 Less: Earned revenues from the public                                      (83,607)              (76,853)
 Net costs with the public                                                  (30,325)              (21,405)
   Total net cost                                                           (10,727)               (2,874)

Competition:
 Intragovernmental gross costs                                    $          30,151        $      27,368
 Less: Intragovernmental earned revenue                                        (426)                (386)
 Intragovernmental net costs                                                 29,725               26,982

 Gross costs with the public                                                 80,772                80,624
 Less: Earned revenues from the public                                     (122,055)             (108,113)
 Net costs with the public                                                  (41,283)              (27,489)
   Total net cost                                                           (11,558)                 (507)

Enforcement:
 Intragovernmental gross costs                                    $          19,629        $      17,899
 Less: Intragovernmental earned revenue                                        (271)                (247)
 Intragovernmental net costs                                                 19,358               17,652

 Gross costs with the public                                                 52,587                52,728
 Less: Earned revenues from the public                                      (77,608)              (69,073)
 Net costs with the public                                                  (25,021)              (16,345)
   Total net cost                                                            (5,663)                1,307

Consumer Information Services:
 Intragovernmental gross costs                                    $          10,297        $          8,994
 Less: Intragovernmental earned revenue                                        (142)                   (125)
 Intragovernmental net costs                                                 10,155                   8,869

 Gross costs with the public                                                 27,586                26,495
 Less: Earned revenues from the public                                      (40,590)              (34,859)
 Net costs with the public                                                  (13,004)               (8,364)
   Total net cost                                                            (2,849)                  505

Spectrum Management:
 Intragovernmental gross costs                                    $          14,621        $      10,382
 Less: Intragovernmental earned revenue                                        (210)                (147)
 Intragovernmental net costs                                                 14,411               10,235

 Gross costs with the public                                                 39,166                30,584
 Less: Earned revenues from the public                                      (60,178)              (41,139)
 Net costs with the public                                                  (21,012)              (10,555)
   Total net cost                                                            (6,601)                 (320)

                                                   Page 1 of 2



                         The accompanying notes are an integral part of these statements

                                                       31
                                Federal Communications Commission
                                 Consolidated Statement of Net Cost
                   For the Years Ended September 30, 2003 and September 30, 2002
                                                 (dollars in thousands)


                                                                          2003                  2002
Universal Service:
 Intragovernmental gross costs                                     $               653      $          463
 Less: Intragovernmental earned revenue                                             (9)                 (7)
 Intragovernmental net costs                                                       644                 456

 Gross costs with the public                                               5,562,217             5,282,968
 Less: Earned revenues from the public                                        (2,559)               (1,807)
 Net costs with the public                                                 5,559,658             5,281,161
   Total net cost                                                          5,560,302             5,281,617

Numbering:
 Gross costs with the public                                                      9,871              9,685
 Less: Earned revenues from the public                                           (4,997)           (11,010)
 Net costs with the public                                                        4,874             (1,325)
   Total net cost                                                                 4,874             (1,325)

Credit Reform:
 Intragovernmental gross costs                                     $         392,486        $     416,251
 Less: Intragovernmental earned revenue                                      (39,718)             (26,000)
 Intragovernmental net costs                                                 352,768              390,251

 Gross costs with the public                                                 612,704               521,095
 Less: Earned revenues from the public                                      (412,601)             (399,705)
 Net costs with the public                                                   200,103               121,390
   Total net cost                                                            552,871               511,641

Total Net Program Costs                                            $       6,080,649        $    5,790,044

Cost not Assigned to Programs:
 Depreciation                                                      $          13,007        $      10,716
 Telecommunications Development Fund                                              22                  262
 Other Expenses                                                                  549                1,313

Less: Earned Revenues not Attributed to Programs:
 Telecommunications Development Fund                               $                (22)    $          (262)

Net Cost of Operations (Note 15)                                   $       6,094,205        $    5,802,073




                                                    Page 2 of 2




                          The accompanying notes are an integral part of these statements

                                                        32
                                                   Federal Communications Commision
                                            Consolidated Statement of Changes in Net Position
                                     For the Years Ended September 30, 2003 and September 30, 2002
                                                                  (dollars in thousands)


                                                                      2003                  2003                        2002               2002
                                                                   Cumulative                                        Cumulative
                                                                     Results            Unexpended                     Results          Unexpended
                                                                  of Operations        Appropriations               of Operations      Appropriations

Beginning Balances                                            $           2,104,985    $         22,158         $        2,241,358 $              24,012
Prior period adjustments (Note 16)                                              -                   -                      (22,073)                  -
New Reporting Entity                                                            -                   -                       10,781                   -
Beginning balances, as adjusted                                           2,104,985              22,158                  2,230,066                24,012

Budgetary Financing Sources:
 Appropriations received                                                        -               802,038                        -                387,428
 Appropriations transferred in/out (+/-)                                        -                   -                          -                    -
 Other adjustments (recission, etc) (+/-)                                       -              (266,737)                       -               (220,338)
 Appropriations used                                                        514,404            (514,404)                   168,944             (168,944)
 Transfers-in/out without reimbursement (+/-)                                (5,700)                -                          -                    -
 Universal Service Fund Nonexchange Revenue                               5,795,335                 -                    5,518,572                  -

Other Financing Sources:
 Transfers-in/out without reimbursement (+/-)                               (19,952)                -                      (21,284)                  -
 Imputed financing from costs absorbed by others                             13,404                 -                       11,069                   -
 Other (+/-)                                                                    (31)                -                         (309)                  -

Total Financing Sources                                                   6,297,460              20,897                  5,676,992                (1,854)

Less: Net Cost of Operations                                              6,094,205                                      5,802,073

Ending Balances                                               $           2,308,240    $         43,055         $        2,104,985 $              22,158




                                              The accompanying notes are an integral part of these statements

                                                                            33
                                                    Federal Communications Commission
                                                Combined Statement of Budgetary Resources
                                       For the Years Ended September 30, 2003 and September 30, 2002
                                                                   (dollars in thousands)


                                                                               2003                                                 2002
                                                                                   Non Budgetary                                        Non Budgetary
                                                                                   Credit Program                                       Credit Program
                                                             Budgetary           Financing Account                  Budgetary         Financing Account
Budgetary Resources:

Budget Authority
 Appropriations Received                                 $       6,279,518      $                 -             $      5,711,907     $               -
 Borrowing Authority                                                   -                       25,346                        -                     4,456

Unobligated Balance:
 Beginning of Period                                             2,245,581                     21,569                  1,917,318                  18,175
Spending Authority from Offsetting Collections:
 Earned
   Collected                                                       447,725                  1,147,715                    312,914                 762,860
   Receivable from Federal Sources                                     -                          -                            7                     -
 Changed Unfilled Customer Orders
   Without Advance from Federal Sources                               (472)                       -                            1                     -
 Anticipated for rest of year, without advances                        -                          -                          -                       -
Subtotal                                                         8,972,352                  1,194,630                  7,942,147                 785,491

Recoveries of Prior Year Obligations                                  7,765                       -                        6,958                     -
Permanently not available                                           (66,860)                 (730,823)                   (15,524)               (343,145)

Total Budgetary Resources                                $       8,913,257      $             463,807           $      7,933,581     $           442,346


Status of Budgetary Resources:

Obligations Incurred (Note 17):
 Direct                                                  $       6,895,344      $             417,776           $      5,686,628     $           420,777
 Reimbursable                                                        1,684                        -                        1,372                     -
 Subtotal                                                        6,897,028                    417,776                  5,688,000                 420,777
Unobligated Balance:
 Apportioned                                                           -                          -                          -                       -
 Exempt from Apportionment                                       2,001,673                        -                    2,228,067                     -
Unobligated Balance not Available                                   14,556                     46,031                     17,514                  21,569

Total Status of Budgetary Resources                      $       8,913,257      $             463,807           $      7,933,581     $           442,346


Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period              $         452,831      $                  -            $        407,397     $               -
Obligated Balance, net, End of Period:
 Accounts Receivable                                                   405                         -                         405                     -
 Unfilled Customer Orders from Federal Sources                         (60)                        -                        (532)                    -
 Undelivered Orders                                                 70,646                         -                      43,592                     -
 Accounts Payable                                                  409,886                         -                     409,366                     -

Outlays:
  Disbursements                                                  6,861,689                     417,776                 5,635,599                 420,777
  Collections                                                     (447,725)                 (1,147,715)                 (312,914)               (762,860)
  Subtotal                                                       6,413,964                    (729,939)                5,322,685                (342,083)
Less: Offsetting Receipts                                           19,952                         -                      21,284                     -
Net Outlays                                              $       6,394,012 $                  (729,939)         $      5,301,401 $              (342,083)




                                              The accompanying notes are an integral part of these statements

                                                                               34
                                                  Federal Communications Commission
                                                   Consolidated Statement of Financing
                                     For the Years Ended September 30, 2003 and September 30, 2002
                                                                    (dollars in thousands)



Resources Used to Finance Activities:                                                                           2003              2002
 Budgetary Resources Obligated
   Obligations incurred                                                                                  $       7,314,804    $    6,108,777
   Less: Spending authority from offsetting collections and recoveries                                           1,602,733         1,082,739
   Obligations net of offsetting collections and recoveries                                                      5,712,071         5,026,038
   Less: Offsetting receipts                                                                                        19,952            21,284
   Net obligations                                                                                               5,692,119         5,004,754
 Other Resources
   Transfers in/out without reimbursement (Note 23)                                                                19,952            21,284
   Imputed financing from costs absorbed by others                                                                 13,404            11,069
   Other (+/-)                                                                                                         31               309
   Net other resources used to finance activities                                                                  33,387            32,662

Total resources used to finance activities                                                                       5,725,506         5,037,416

Resources Used to Finance Items not Part of the Net Cost of Operations:
 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                                27,524             (8,264)
 Resources that fund expenses recognized in prior periods                                                          28,550            (23,975)
 Budgetary offsetting collections and receipts that do not affect net cost of operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                    (1,172,627)         (739,915)
   Other                                                                                                           452,052           399,705
 Resources that finance the acquisition of assets                                                                  339,325            15,773
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                      10,028                (5,623)

Total resources used to finance items not part of the net cost of operations                                      (315,148)         (362,299)

Total resources used to finance the net cost of operations                                                       6,040,654         5,399,715

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:
 Components Requiring or Generating Resources in Future Periods:
   Increase in annual leave liability                                                                               1,411             1,255
   Upward/Downward reestimates of credit subsidy (+/-)                                                             71,949           366,685
   Increase in exchange revenue receivable from the public                                                         (5,065)           (1,893)
   Other (+/-)                                                                                                      1,555           (22,996)

 Total components of Net Cost of Operations that will require or generate resources in future periods              69,850           343,051

 Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                                                     13,007           10,716
  Other (+/-)                                                                                                      (29,306)          48,591

 Total components of Net Cost of Operations that will not require or generate resources                            (16,299)          59,307

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                    53,551           402,358

Net Cost of Operations                                                                                   $       6,094,205    $    5,802,073




                                              The accompanying notes are an integral part of these statements

                                                                               35
                                       Federal Communications Commission
                                    Consolidated Statement of Custodial Activity
                          For the Years Ended September 30, 2003 and September 30, 2002
                                                        (dollars in thousands)


                                                                                          2003                 2002
Revenue Activity:
 Sources of Cash Collections:
   Spectrum Auctions                                                               $         106,427       $     405,321
   Fines and Penalties                                                                        51,682              38,957
   Credit Reform Interest                                                                    392,486             416,251
   Telecommunications Development Fund Interest                                                   28                 258
 Total Cash Collections                                                                      550,623             860,787

 Accrual Adjustments
  Spectrum Auctions                                                                              (1,420)         (192,756)
  Fines and Penalties                                                                               291            (4,865)
  TDA Interest                                                                                       (6)                4
 Total Accrual Adjustments                                                                       (1,135)         (197,617)

Total Custodial Revenue                                                                      549,488             663,170

Disposition of Collections:
 Transferred to Others:
   Recipient A: U.S. Treasury                                                               (444,168)            (456,366)
   Recipient B: FCC Financing Account - Credit Reform (Recoveries)                          (468,419)            (258,163)

 (Increase)/Decrease in Amounts Yet to be Transferred                                        461,610             156,957
 Refunds and Other Payments                                                                   (1,683)            (16,552)
 Retained by the Reporting Entity                                                            (96,828)            (89,046)

Net Custodial Activity                                                             $                -      $          -




                                 The accompanying notes are an integral part of these statements

                                                                 36
                    Federal Communications Commission
                Fiscal Year 2003 Annual Financial Report




    Notes to the
Consolidated Financial
     Statements




           37
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies

Reporting Entity

The Federal Communications Commission (FCC or Commission) is an independent United States
government agency, directly reporting to Congress. The FCC was established by the Communications
Act of 1934, as amended, and is charged with regulating interstate and international communications by
radio, television, wire, satellite, and cable. The FCC's jurisdiction covers the 50 States, the District of
Columbia, and the U.S. possessions. The FCC is directed by five Commissioners appointed by the
President of the United States and confirmed by the Senate for five-year terms, except when filling an
unexpired term.

The FCC is composed of three reporting components. The primary component consists of FCC
headquarters and field offices. The two additional components are the Universal Service Fund (USF)
and the North American Numbering Plan (NANP). The USF component reports the results of the four
Universal Service support mechanisms (established pursuant to Section 254 of the Communications Act
of 1934, as amended) and the results of the Telecommunications Relay Service Fund (TRS) (established
by the Americans with Disabilities Act of 1990, Title IV). The NANP component reports the results of
billing and collection activities that are conducted to support the NANP (47 C.F.R. §52.16, 52.17, 52.32,
52.33).

The inclusion of the NANP program in FY 2002 represented a change in the reporting entity from FY
2001. To establish opening entity balances the beginning FY 2002 Net Position was adjusted by $10,781.

Basis of Accounting and Presentation

The consolidated financial statements (financial statements) have been prepared from the accounting
records of the FCC in conformity with generally accepted accounting principles (GAAP) of the United
States of America and the form and content for entity financial statements specified by the Office of
Management and Budget (OMB) in OMB Bulletin No. 01-09, as applicable.

The preparation of financial statements, in conformity with GAAP, requires management to make
estimates and assumptions that affect the reported amounts of assets and liabilities, the disclosure of
contingent assets and liabilities at the date of the financial statements, and the reported amounts of
revenues and expenses during the reporting period. Actual results may differ from those estimates.

Fund Balance with Treasury

Funds with the Department of the Treasury (Treasury) primarily represent appropriated, revolving, and
deposit funds. The appropriated and revolving funds may be used by the FCC to finance expenditures
depending on budgetary availability. The deposit accounts are used to hold funds temporarily until they
can be disbursed or distributed properly.




                                                    38
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued)

Cash and Other Monetary Assets

Cash and Other Monetary Assets represents cash on deposit at several commercial banks and highly
liquid securities with an original maturity of three months or less. The commercial accounts are in the
form of mutual funds and money market funds that can easily be drawn against. In the case of USF and
NANP, interest proceeds are reinvested and remain available for use. In the case of the FCC, these funds
represent third party deposits made pursuant to the FCC spectrum auction activities. Upon conclusion of
individual auctions, funds on deposit are offset against amounts due from successful bidders or returned
to unsuccessful bidders. The funds are held in the Telecommunications Development Account (TDA), an
interest bearing account, for subsequent transfer to the Telecommunications Development Fund (TDF)
during and for a 45 day period after the close of a given auction. These funds represent a liability to the
FCC until such time as they are applied toward a valid spectrum license, returned to the depositor, or
transferred to the TDF.

Cash on deposit typically exceeds federally insured limits.

Investments

Investments are reported net of any unamortized premium or discount. All of USF’s investments are in
marketable debt securities.

Accounts Receivable, Net

Accounts Receivable consists of claims by the FCC for payment from other entities. Gross receivables
are reduced to net realizable value by an allowance for doubtful accounts.

Loans

Reporting requirements for direct loan obligations made after fiscal year 1991 are governed by the
Federal Credit Reform Act (FCRA) of 1990, as amended. The FCRA requires that the present value of
the subsidy costs (present value of the estimated cash outflows over the life of the loans minus the present
value of the estimated cash inflows, discounted at the interest rate of marketable Treasury securities with
a similar maturity term) associated with direct loans be recognized as a cost in the year that the loan is
obligated. Direct loans are reported net of an allowance for subsidy at the present value.

Property, Plant and Equipment

The basis for recording purchased general Property, Plant, and Equipment (PP&E) is full cost, including
all costs incurred to bring the PP&E to and from a location suitable for its intended use. The cost of PP&E
acquired through donation is the estimated fair value when acquired. The cost of PP&E transferred from
other Federal entities is the net book value recorded by the transferring entity.

All PP&E with an initial acquisition cost of $25,000 or more, and an estimated useful life of two years or
greater, are capitalized. Bulk purchases of similar items, which individually are worth less than $25,000,



                                                    39
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued)

Property, Plant and Equipment (continued)

but collectively are worth more than $250,000, are also capitalized using the same equipment categories
and useful lives as capital acquisitions. PP&E are depreciated on a straight-line basis over the estimated
useful life of the item. The useful lives used are: forty years for buildings, seventeen years for patents,
seven years for equipment, five years for computers and vehicles, and three years for software. Land and
land rights, including permanent improvements, are not depreciated. Also, software in process is not
depreciated. Normal maintenance and repair costs are expensed as incurred.

The FCC’s authority relative to seized and forfeited property is cited in 47 U.S.C., Section 510. Seized
property consists of personal property and equipment seized from illegal telecommunication operations.
The property is considered prohibited and held pending an outcome of court proceedings. Forfeited
property consists of seized property turned over to the FCC to be destroyed or disposed of through a
surplus process. The values assigned to the seized and forfeited property are determined by FCC
engineers and are based on current market values for comparable property.

Accounts Payable and Accrued Liabilities

Accounts payable and accrued liabilities represent a probable future outflow or other sacrifice of
resources as a result of past transactions or events. Liabilities are recognized when they are incurred
regardless of whether they are covered by available budgetary resources. FCC liabilities cannot be
liquidated without legislation that provides resources to do so. Since the FCC is a component of the U.S.
Government, a sovereign entity, payments of all liabilities other than contracts can be abrogated by the
sovereign entity.

Deferred Revenue

The FCC collects proceeds from the sale of communications spectrum on behalf of the U.S. Government.
Spectrum sales transactions typically consist of an initial down payment equal to 20% of the net winning
bid and a final down payment at the time the license is granted. All first down payment money is
recognized by the FCC as deferred revenue until a final payment date is established by “prepared to
grant” public notice. In addition the FCC collects multi-year regulatory fees for 5 and 10 year periods
that are recorded as deferred revenue and amortized over the period of the fee.

Debt to the U.S. Treasury

This account represents amounts due to the Bureau of Public Debt, Treasury, to support the spectrum
auction loans program. Borrowings are determined based on the FCC’s subsidy estimate and re-estimate
in accordance with the FCRA of 1990, as amended, and guidance issued by OMB. Interest on debt is
calculated and remitted to the Treasury annually at the end of the fiscal year. Interest payments made by
the FCC on borrowings from the Bureau of Public Debt are recorded in a receipt account maintained by
the FCC.




                                                    40
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued)

Retirement Plans and Other Benefits

Federal Employee benefits consist of the actuarial portions of future benefits earned by Federal
employees. These costs include pensions, other retirement benefits, and other post-employment benefits.
These benefits are administered by Office of Personnel Management (OPM) and not by the FCC. Since
the FCC does not administer the benefit plans, it does not recognize any liability on the Consolidated
Balance Sheet for pensions, other retirement benefits, and other post-employment benefits. The FCC
does, however, recognize and allocate the imputed costs on the Statement of Net Costs and recognizes
imputed financing related to these costs on the Statement of Changes in Net Position.

Pensions provide benefits upon retirement and may also provide benefits for death, disability, or other
termination of employment before retirement. Pension plans may also include benefits to survivors and
dependents, and they may contain early retirement or other special features. Most FCC employees
participate in the Civil Service Retirement System (CSRS) or the Federal Employee Retirement System
(FERS). Under CSRS, FCC makes matching contributions equal to seven percent of basic pay. For
FERS employees, FCC contributes the employer’s matching share for Social Security and contributes an
amount equal to one percent of employee pay to a savings plan and matches up to an additional four
percent of pay. Most employees hired after December 31, 1983, are covered by FERS.

The OPM reports on CSRS and FERS assets, accumulated plan benefits, and unfunded liabilities, if any,
applicable to Federal employees.

The actuarial liability for future workers’ compensation benefits includes the expected liability for death,
disability, medical and miscellaneous costs for approval compensation cases. The liability is determined
using a method that utilizes historical benefit payment patterns related to a specific incurred period to
predict the ultimate payment related to that period.          No actuarial liability is determined by the
Department of Labor (DOL) for the FCC, due to the immateriality to the Federal government as a whole.

Leave

Annual leave is accrued as earned, and the accrual is reduced as leave is taken. Each year, the balance in
the accrued annual leave account is adjusted to reflect leave balances and current pay rates. Annual leave
is reflected as a liability that is not covered by current budgetary resources. Sick leave and other types of
non-vested leave are expensed as taken.

Revenue and Other Financing Sources

Regulatory Fee Collections (Exchange) - The Omnibus Budget Reconciliation Act of 1993 directed the
FCC to assess and collect regulatory fees to recover the costs incurred in carrying out certain provisions
of its mission. Section 9(a) of the Communications Act of 1934, as amended, authorizes the Commission
to assess and collect annual regulatory fees to recover the costs, as determined annually by Congress, that
it incurs in carrying out competition, enforcement, consumer information, and spectrum management
activities. These fees were established by Congressional authority, and, consistent with OMB Circular




                                                     41
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

No. A-25 revised, User Charges, the FCC did not determine the full costs associated with its regulatory
activity in the establishment of regulatory fees. Since 1993, Congress has annually reviewed the
regulatory fee collection requirements of the Commission and established the total fee levels to be
collected. Fees collected up to the level established by Congress are applied against the FCC’s annual
appropriation at the close of each fiscal year. The regulatory fee level for FY 2003 was $269,000 of
which $265,746 was collected. The regulatory fee level of $218,757 established for FY 2002 was
achieved.

Radio Spectrum Auction Proceeds (Exchange) – In accordance with the provisions of SFFAS 7,
Accounting for Revenue and Other Financing Sources, the FCC accounts for this exchange revenue as a
custodial activity. Revenue from spectrum auctions is recognized when the final payment date is
established by a “prepared to grant” public notice. The value of available spectrum is determined by the
market place at the time of auction. The FCC recognized revenue of $105,007 in FY 2003 and $212,565
in FY 2002.

Offsetting Collections (Exchange) – One of the FCC’s primary functions is the management of the
spectrum auction program on behalf of the U.S. Government. Proceeds from the auctions are initially
remitted to the FCC and later transferred to the U.S. Treasury, net of anticipated auction related costs.
Under 47 U.S.C. Section 309, a portion of the spectrum auction proceeds may be retained by the FCC to
offset the cost of performing the auction function. Collections used to offset the cost of performing
auctions related activity totaled $96,806 in FY 2003 and $77,918 in FY 2002.

Application Fees (Exchange) - Congress authorized the FCC (Section 8, 47 U.S.C.) to impose and collect
application processing fees and directed the FCC to prescribe charges for certain types of application
processing or authorization services it provides to communications entities over which the FCC has
jurisdiction. The FCC amends its Schedule of Application Fees, 47 C.F.R. Section 1.1102 et seq., to
adjust the fees for processing applications and other filings. Section 8(b) of the Communications Act, as
amended, requires that the Commission review and adjust its application fees every two years after
October 1, 1991. The adjusted or increased fees reflect the net change in the Consumer Price Index for all
Urban Consumers (CPI-U), calculated over a specific period of time. Application fees are deposited in
the U.S. Treasury and are not available for the FCC to use. Application fees totaled $19,952 in       FY
2003 and $21,284 in FY 2002.

Reimbursable Work Agreements (Exchange) – The FCC recognizes reimbursable work agreement
revenue when earned, i.e., goods that have been delivered or services rendered. Each reimbursable work
agreement specifies the dollar value of the agreement and is based on estimated resources needed to
perform the specified services, whether it is personnel services to include base pay, overtime and benefits,
or travel and per diem. The FCC executed agreements totaling $1,412 in FY 2003 and $1,233 in FY
2002.




                                                    42
                         FEDERAL COMMUNICATIONS COMMISSION
                          NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2003 and 2002
                            (dollars in thousands unless otherwise stated)

Note 1 - Summary of Significant Accounting Policies (continued)

Revenues and Other Financing Sources (continued)

Annual Appropriations (Financing Source) - The FCC receives an annual salaries and expense
appropriation from Congress. These funds are used to fund operations during the course of the fiscal year
and are repaid to the U.S. Treasury once regulatory fees have been collected. The annual appropriation
for FY 2003 was $270,987 less regulatory fee collections of $265,746, resulting in a net appropriation of
$5,241. The appropriation for FY 2002 was $245,042 less regulatory fee collections of $218,757,
resulting in a net appropriation of $26,285.

Subsidy Estimates and Reestimates (Financing Source) – The FCC receives permanent-indefinite
authority for its credit reform program account in accordance with the FCRA of 1990, as amended, to
fund its subsidy estimates and reestimates, unless otherwise prescribed by OMB. This account records
the subsidy costs associated with the direct loans obligated in 1992 and beyond (including modifications
of direct loans or loan guarantees that resulted from obligations or commitments in any year), as well as
administrative expenses of the loan program. The FCC received an appropriation of $531,052 in FY
2003 and $142,386 in FY 2002 for these purposes. These appropriations are available until used.

USF (Nonexchange) – Carriers conducting interstate telecommunications are required to contribute a
portion of their revenues to fund the cost of providing universal service. These contributions represent
appropriated dedicated and earmarked receipts and are accounted for as a budgetary financing source.
Contributions and related interest totaled $5,795,335 in FY 2003 and $5,518,572 in FY 2002.

Transactions with Related Parties

In the course of its operations, the FCC has relationships and conducts financial transactions with
numerous Federal agencies. The most prominent of these relationships is with the U.S. Treasury. In
addition to its Federal relationships, the FCC has a direct relationship with the administrators of those
funds which are included as components under the overall FCC entity.

Net Position

Net Position is the residual difference between assets and liabilities and is composed of Unexpended
Appropriations and Cumulative Results of Operations. Unexpended Appropriations represent the amount
of unobligated and unexpended budget authority. Unobligated Balance is the amount of appropriations or
other authority remaining after deducting the cumulative obligations from the amount available for
obligation. Cumulative Results of Operations is the net result of FCC’s operations since inception.

Reclassifications

Certain FY 2002 balances have been reclassified, retitled, or combined with other financial statement line
items for consistency with current year presentation.




                                                   43
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 2 - Non-entity Assets

                                                                       2003                       2002
      Intragovernmental:
          Fund Balance with Treasury                             $    265,540             $ 1,190,419
          Accounts Receivable, Net                                     10,451                   3,041
       Total Intragovernmental                                        275,991               1,193,460

      Cash and Other Monetary Assets                                     743                     35,402
      Accounts Receivable, Net                                        21,970                     20,330
      Total Non-entity Assets                                        298,704                  1,249,192
      Total Entity Assets                                          7,982,607                  8,531,638
      Total Assets                                               $ 8,281,311                $ 9,780,830

Non-entity Fund Balance with Treasury primarily represents deposits made towards spectrum auction
winning bids. These deposits accounted for $262,862 in FY 2003 and $1,185,363 in FY 2002. Non-
entity Cash and Other Monetary Assets consist of upfront deposits made by potential spectrum auction
bidders. Receivables that are considered non-entity are those for regulatory fees, application fees, fines
and forfeitures, spectrum auction receivables, and International Telecommunications Settlement (ITS)
fees.

Note 3 - Fund Balance with Treasury

Fund Balances:                                       Status of Fund Balances:
                             2003          2002                                   2003             2002
                                                         Unobligated Balance
  Appropriated Funds $ 98,428              73,177        Available           $     50,807     $      30,620
  Revolving Funds       46,030             21,569        Unavailable              275,322         1,198,764
  Deposit Funds        265,540          1,190,419        Obligated Balance
                                                         not yet disbursed         83,869      55,781
Total Fund Balance     $   409,998    $ 1,285,165        Total               $    409,998 $ 1,285,165

Appropriated Funds – Include the salaries and expense appropriation used to fund agency operations, the
auction and reimbursable accounts, the no-year accounts used to carry over spectrum auction and
regulatory fee funds not obligated in the year received, and the credit reform program account.

Revolving Funds – Include the credit reform financing account used to record cash flows associated with
the FCC’s spectrum auction loan program.

Deposit Funds – Include monies being held for spectrum auctions, international telecommunications
settlements, and regulatory fees. Deposit funds are not available for use by the FCC unless they are
properly identified or reclassified as FCC funds. Otherwise, these funds will be returned to the depositor
or transferred to the Treasury.




                                                    44
                            FEDERAL COMMUNICATIONS COMMISSION
                             NOTES TO THE FINANCIAL STATEMENTS
                                      September 30, 2003 and 2002
                               (dollars in thousands unless otherwise stated)

Note 4 – Cash and Other Monetary Assets

                                             2003                       2002

Cash                                     $ 2,411,121                 $ 2,344,941
Accrued Interest                               1,791                       3,057
Total                                    $ 2,412,912                 $ 2,347,998

In FY 2003, Cash and Other Monetary Assets includes $85 in deposits in transit and $743 in upfront
deposits and related accrued interest being held for various spectrum auctions. There is $2,400,128 in
USF contributions and related accrued interest being held for distribution and $11,956 in NANP deposits
and related accrued interest.

In FY 2002, Cash and Other Monetary Assets includes $35,402 in upfront deposits and related accrued
interest being held for various spectrum auctions. There was also $2,300,949 in USF contributions and
related accrued interest held for distribution and $11,647 in NANP deposits and related accrued interest.

Accrued interest is composed of interest income earned by the FCC, USF, and NANP, but not received on
demand deposits as of the end of the period.

Note 5 - Investments

                                                    Unamortized             Market
                                        Amortization (Premium) Investments, Value
FY 2003                             Cost Method       Discount    Net      Disclosure

    Marketable Securities        $ 324,313   EI             $ (2,110)    $ 322,203   $ 324,520
    Accrued Interest                 2,076   NA                    -            -        2,076

    Total                        $ 326,389                                           $ 326,596

FY 2002

    Marketable Securities        $ 326,701   EI              $ 812      $ 327,513    $ 327,111
    Accrued Interest                 1,493   NA                  -             -         1,493

    Total                        $ 328,194                                           $ 328,604

EI – Effective Interest Method
NA – Not Applicable

Investment balances represent USF funds that have been invested in low risk marketable securities. All
investments are held to maturity. Therefore, no adjustments have been made to present market values.




                                                       45
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 6 - Accounts Receivable, Net

                                         Intragovernmental           Public               Total

FY 2003
 Gross Accounts Receivable                     $   10,451        $ 1,261,981          $ 1,272,432
 Allowance for Doubtful Accounts               (        -)       ( 613,291)           ( 613,291)
Net Accounts Receivable                        $   10,451        $ 648,690            $ 659,141

Interest on Delinquent AR                      $          -      $    32,076          $     32,076

FY2002
 Gross Accounts Receivable                     $    3,041        $ 1,120,322          $ 1,123,363
 Allowance for Doubtful Accounts               (        -)       ( 604,963)           ( 604,963)
Net Accounts Receivable                        $    3,041        $ 515,359            $ 518,400

Interest on Delinquent AR                      $          -      $    18,335          $    18,335

Accounts receivable are recorded net of any related allowance for doubtful accounts. The FCC’s portion
is determined by applying predetermined percentages against the respective date the receivable was
established. The current formula for the FCC’s allowance is 25% for receivables 91 -180 days
outstanding, 75% for those 181-365 days outstanding, and 100% for anything greater than 365 days
outstanding. An additional analysis of higher dollar value receivables is also performed on individual
account balances. The USF portion is determined by calculating an estimated general allowance for
doubtful accounts receivable, and reserving 100% for known bankruptcy and inactive accounts. The
general allowance is calculated by multiplying the aged billing amounts by the percentage of the monthly
delinquent accounts receivable over the monthly billing amounts.

A 100% allowance is also made for all Notice of Apparent Liabilities (NAL) receivables which represent
preliminary notifications of a fine that are subject to final determination. These receivables are included
on the Treasury Report on Receivables at the request of Treasury, however the collectibility of these
receivables is not determined until a final judgment is issued.

                                     FY 2003                                     FY 2002                   .

                         Accounts                                Accounts
                        Receivable      Allowance      Net      Receivable       Allowance           Net

USF                     $ 809,491 $ (183,319) $ 626,172           $ 693,447     $ (199,258) $ 494,189
Regulatory Fees             25,241   ( 9,331)     15,910              19,987       ( 9,134)    10,853
Spectrum Auction           377,707   (377,597)       110             349,882       (348,352)     1,530
Fines and Forfeitures       42,294   ( 40,417)     1,877              47,342        ( 46,723)      619
Other                       17,699   ( 2,627)     15,072              12,705       ( 1,496)     11,209
Total                   $1,272,432 $ (613,291) $ 659,141          $1,123,363    $ (604,963) $ 518,400




                                                     46
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 7 – Loans Receivable, Net

Under Section 309(j)(3) of the Communications Act of 1934, as amended, Congress directed the FCC to
implement a competitive bidding (auctions) system for licensing spectrum, in order to expand economic
opportunity, promote competition, and facilitate the development and delivery of new and improved
telecommunications services to the public. Section 309(j)(4) gave the Commission certain instructions
for implementing regulations for this system, including a directive to ensure that small businesses, rural
telephone companies, and women and minority-owned businesses were provided with an opportunity to
participate in the provision of spectrum-based services. By statute, the FCC can use various means to
facilitate expanded participation, including alternative payment schedules, tax certificates, bidding
preferences, and other procedures.

To address the mandate, the FCC provided installment financing in connection with its spectrum auction events,
including the C Block Broadband Personal Communications Services' (PCS), F Block PCS, Narrowband PCS,
Interactive Video and Data Service (IVDS), Multichannel Distribution Service (MDS), and 900MHz
Specialized Mobile Radio (SMR). Under the installment financing program, winning bidders were generally
given five or ten-year periods to repay their net winning bid amount (less the down payment amount), with up
to five-year, interest-only, initial payment periods. Interest rates varied by the type of borrower. Retention of
licenses granted at auction was strictly conditioned on making full and timely payment of amounts as they
become due. The return or repossession of auctioned licenses, which may have previously been associated with
installment payment plans, does not directly or immediately affect the amount of the outstanding debt recorded
in the agency’s financial records. Outstanding debt adjustments are subject to the completion of a separate
process.

The FCC’s first auction was conducted in 1994, and starting in 1995, installment payment mechanisms
were used to finance portions of some of the winning bid amounts. The FCC’s installment loan portfolio
is tracked under ten cohorts.

The most recent subsidy reestimate was completed in September 2003 for actual performance data
through June 30, 2003 and estimated data from July through September, 2003. The result of this
reestimate was a net upward adjustment of $380,055 that is reported in the FY 2003 financial statements.

In the most recent reestimate the FCC continued to project a 100% recovery rate on all loans made to
NextWave. These loans stem from approximately $4.7 billion in original winning bids and represent a
majority of the current portfolio. The actual recovery against these loans is likely to have a significant
impact on the susbsidy when it can be determined.

As required under the FCRA of 1990, as amended, the FCC coordinates with the OMB in developing
estimation guidelines, regulations, and the criteria to be used in calculating the subsidy estimates and re-
estimates. This joint effort is undertaken to facilitate the development and improvement of cost and
recovery rate estimates. Therefore, the subsidy cost allowance has been prepared under specific guidance
provided by the OMB in an effort to ensure that the objectives of the Federal government, taken as a
whole, are being achieved and may not represent the FCC’s current policy position on the auction of
spectrum held previously by other parties.




                                                      47
                            FEDERAL COMMUNICATIONS COMMISSION
                             NOTES TO THE FINANCIAL STATEMENTS
                                      September 30, 2003 and 2002
                               (dollars in thousands unless otherwise stated)

Note 7 – Loans Receivable, Net (continued)

Loans Receivable - Loans receivable are recorded at the principal outstanding, net of allowance for
subsidy. Allowance for subsidy costs represents the difference between the present values of estimated
net cash inflows and outflows of the spectrum auction loans. The allowance for subsidy cost is amortized
using the effective interest method based on the U.S. Treasury’s interest rate for the year that the loans
were disbursed. The allowance for subsidy also provides for write-offs on defaults and other costs that
may affect cash flows.

Accrued Interest – FCC accrues interest on loans as it is earned. Current FCC policy automatically grants
spectrum auction loans two sequential three-month grace periods for which borrowers are charged late
fees. In accordance with the FCC rules, at the end of the six-month total grace period, loans are
considered to be in default and the license is automatically cancelled. For financial reporting purposes, it
is the FCC’s policy to discontinue accruing interest on loans that are beyond the six-month grace period,
since these loans are considered non-performing. Therefore, it is the FCC’s policy to accrue and record
interest only on the performing loans for financial reporting purposes.

Direct Loans

                        Loans                                                       Allowance for    Value of
                        Receivable,        Interest           Other                 Subsidy Cost      Assets Related
Loan Program            Gross              Receivable         Receivables          (Present Value) to Direct Loans
Spectrum Auctions:
   FY 2003 Bal.         $ 5,112,431        $ 280,681          $      3,716          $ (968,023)         $ 4,428,805

    FY 2002 Bal.        $ 5,293,072        $ 292,747          $          2,506      $ (329,067)         $ 5,259,258

Interest accrued on bankrupt and defaulted loans totaled $278,081 in FY03 and $272,580 in FY02.

Total Amount of Direct Loans Disbursed

Loan Program                   FY 2003                   FY 2002

Spectrum Auctions       $              -            $        1,369

No new loans have been issued for FY 2003.

Subsidy Expense for Direct Loans by Program and Component

1. Subsidy Expense for New Direct Loans Disbursed:

                        Interest
    Loan Program        Differential       Defaults           Fees         Other            Total
    FY 2003             $        -          $       -         $ -                   $   -           $      -

    FY 2002             $      (129)       $     339          $      -              $   -           $    210



                                                        48
                            FEDERAL COMMUNICATIONS COMMISSION
                             NOTES TO THE FINANCIAL STATEMENTS
                                      September 30, 2003 and 2002
                               (dollars in thousands unless otherwise stated)

Note 7 – Loans Receivable, Net (continued)

Subsidy Expense for Direct Loans by Program and Component

2. Direct Loan Modifications and Reestimates:
                                         Interest Rate              Technical          Total
   Loan Program       Modifications      Reestimates                Reestimates        Reestimates
   Spectrum Auctions

    FY 2003 (Net)       $          -          $         -            $   380,055       $     380,055

    FY 2002 (Net)       $          -          $         -            $   346,421        $     346,421

3. Total Direct Loan Subsidy Expense:

    FY 2003             $     380,055

    FY 2002             $     346,631

Subsidy Rates for Direct Loans by Program and Component

                          Interest
  Loan Program          Differential    Defaults            Fees           Other             Total
  FY 2003                      0%           0%                 0%             0%                  0%
  FY 2002                  (9.40)%       24.77%                0%             0%             15.37%

Schedule for Reconciling Subsidy Cost Allowance Balances

                                                                  2003                  2002
Beginning Balance of the Subsidy Cost Allowance                $ 329,067           $ ( 84,773)

Subsidy expense for direct loans disbursed:
During the reporting years by component:
        Interest rate differential costs                                   -               (129)
        Default costs (net of recoveries)                                  -                339

Adjustments:
       Recoveries                                                    468,419          258,163
       Loans written off                                             (50,134)               -
       Subsidy allowance amortization                               (160,520)        (191,170)
       Other                                                           1,136              216
Ending balance before reestimates                                     587,968       ( 17,354)

Subsidy reestimates:
       Technical/default reestimate                                  380,055          346,421

Ending balance of the subsidy cost allowance                    $ 968,023          $ 329,067


                                                   49
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 7 – Loans Receivable, Net (continued)

Administrative Expense                                             2003               2002

    Spectrum Auctions                                          $    8,624         $    9,770

Note 8 – Seized and Forfeited Property

FCC seizes property from illegally operated radio and other communication operations. The property is
comprised of radio frequency, audio, and other communications equipment. Forfeited property consists
of seized property legally turned over to the FCC. Seized and forfeited property cannot be sold due to
legal restrictions and is not recognized for financial purposes however, the number and value of seized
and forfeited property is reported below. The property is tracked using the lot number assigned to it at the
time of seizure.

                                                   FY 2003                         FY 2002
                                          No. of         Dollar              No. of       Dollar
Seized Property                            Lots          Value                Lots        Value
Beginning Balance                           24           $ 53                  18         $ 37
Seized                                      18              36                 11           33
Forfeited                                   (5)            (16)                (5)         (17)
Ending Balance                              37           $ 73                 24          $ 53

                                                   FY 2003                          FY 2002
                                          No. of         Dollar              No. of        Dollar
Forfeited Property                         Lots          Value                Lots         Value
Beginning Balance                            7           $ 6                    18         $ 19
Forfeited                                    5              16                   5            17
Disposed                                    (4)            (16)               ( 16)         ( 30)
Ending Balance                               8           $ 6                     7         $ 6




                                                    50
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 9 - General Property, Plant and Equipment, Net

                                     FY 2003                             FY 2002               .
                                     Accum. Net Book                   Accum Net Book              Estimated
Major Classes        Cost            Deprec    Value           Cost    Deprec    Value             Useful Life
Land                $ 1,443         $       - $ 1,443         $ 1,304 $       - $ 1,304                N/A
Buildings              4,537            3,876      661           4,091   3,867       224               40
Non-Comp. Equip       10,821            7,080   3,741            9,795   6,375     3,420               7
Computer Equip.       19,820          11,317    8,503           18,019   9,484     8,535               5
Bulk Purchases        23,567          17,317     6,250          23,567 14,039      9,528               5-7
Vehicle Systems        3,196            2,701      495           2,913   2,287       626               5
Broadcast Station      3,348           3,348         0           4,096   4,077        19               7
Patent                   800             302       498             800     255       545               17
ADP Software          31,901           20,305   11,596          18,557 15,293      3,264               3
Software In Process   10,879                -   10,879          14,348        -   14,348               N/A

Total                  $110,312 $ 66,246        $ 44,066      $ 97,490 $ 55,677 $ 41,813


All asset classes are depreciated on a straight-line basis.

Note 10 - Liabilities Not Covered by Budgetary Resources

                                                                           2003                    2002
        Intragovernmental:
             Other:
                FECA Liability                                       $      426            $           438

        Other:
             Unfunded Leave                                               16,023           14,612
        Total liabilities not covered by budgetary resources              16,449           15,050
        Total liabilities covered by budgetary resources               5,913,567        7,638,637
        Total Liabilities                                            $ 5,930,016      $ 7,653,687

The Federal Employees Compensation Act (FECA) liability represents the amount of bills received by the
Department of Labor for worker’s compensation. These bills are received one year in advance of when
they are due and are not funded until the subsequent fiscal year.

Unfunded Leave is funded at the time the leave is taken, and is therefore not funded with current year
budgetary resources.




                                                      51
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 11 - Debt

                                  2002                            2002                         2003
                                Beginning       Net              Ending          Net          Ending
                                 Balance      Borrowing          Balance       Borrowing      Balance

Agency Debt:
    Intragovernmental          $          -   $          -       $        -    $         -    $        -
    Held by the Public             125,274         (10,849)       114,425          (58,577)       55,848
    Total Agency Debt              125,274         (10,849)        114,425         (58,577)       55,848

Other Debt:
    Debt to the Treasury        6,109,604         (338,689)      5,770,915      (705,477)     5,065,438
    Held by the Public                  -                -               -             -              -
    Total Agency Debt           6,109,604         (338,689)      5,770,915      (705,477)     5,065,438

Total Debt                      6,234,878     (349,538)          5,885,340      (764,054)     5,121,286


Classification of Debt:
                                                       2003                       2002
     Debt to the Treasury                          $ 5,065,438                $ 5,770,915
     Debt held by the Public                            55,848                    114,425
                 Total Debt                        $ 5,121,286                $ 5,885,340

Agency debt represents the remaining liability on an initial voucher of $125,274 that was issued in
settlement of a successful litigation against the FCC. The voucher can be used to satisfy existing
spectrum auction loans and as credit for payment against spectrum auction winning bid amounts in future
auctions. The voucher expires in June of FY 2004.

The FCC also borrows from the U.S. Treasury for costs associated with its spectrum auction loan
program. Borrowings are determined upon calculation of the subsidy estimates and reestimates in
accordance with the FCRA of 1990, as amended. The borrowings pertain to all loan cohorts.




                                                     52
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 12 - Other Liabilities

FY 2003                                 Non-Current           Current           Total
Intra-governmental
    Custodial Liability                    $          -   $ 230,052         $ 230,052
    Other:
        Accrued Payroll                               -            878            878
        FECA Liability                                -             426           426
        Other                                         -                -            -
        Total Other                                   -           1,304         1,304
Total Intragovernmental                    $          -   $     231,356     $ 231,356

Deferred Revenue                           $   15,911     $       60,912    $   76,823
Other:
        Accrued Payroll                              -             4,813        4,813
        Unfunded Leave                               -            16,023       16,023
        Deposit/Unapplied Liability                  -             9,867        9,867
        Prepaid Contributions                        -            46,187       46,187
        Other                                       -             18,464       18,464
Total Other                                          -            95,354       95,354
Total Other Public                         $    15,911    $      156,266    $ 172,177

FY 2002                                 Non-Current           Current           Total
Intra-governmental
    Custodial Liability                    $          -   $ 691,662         $ 691,662
    Other:
        Accrued Payroll                               -             656           656
        FECA Liability                                -             438           438
        Other                                         -              (20)         (20)
        Total Other                                   -           1,074         1,074
Total Intragovernmental                    $          -   $     692,736     $ 692,736

Deferred Revenue                           $   16,806     $      534,644    $ 551,450
Other:
        Accrued Payroll                             -             4,223         4,223
        Unfunded Leave                              -            14,612        14,612
        Deposit/Unapplied Liability                 -            19,987        19,987
        Prepaid Contributions                       -            64,870        64,870
        Other                                       -            10,298        10,298
Total Other                                         -           113,990       113,990
Total Other Public                         $   16,806     $     648,634     $ 665,440




                                                 53
                         FEDERAL COMMUNICATIONS COMMISSION
                          NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2003 and 2002
                            (dollars in thousands unless otherwise stated)

Note 12 - Other Liabilities (continued)

The Custodial Liability includes both cash collected and receivables being held for transfer to the U.S.
Treasury General Fund. The FCC collects the following types of custodial revenue: spectrum auction
revenue, fines and forfeitures revenue, penalty revenue on regulatory fees, ITS processing fees, and
interest revenue on auction deposits (held for TDF).

Deposit/Unapplied Liability represents upfront deposits made by auction bidders as well as funds
received that are being held until proper application is determined.

Prepaid Contributions includes USF contributions paid in advance that will be drawn down during the
course of the year and contribution overpayments that may be refunded.

Note 13 - Leases

Operating Leases

The FCC has operating leases for rental of office space and office equipment. The copier lease
arrangements are renewable annually with five possible annual renewal periods. As a Federal Agency,
the FCC is not liable for any lease terms beyond one year. The FCC anticipates that space levels
consistent with FY 2003 will be required for the next five years and has estimated space and copier
payments consistent with that need in the schedule below. No estimates beyond five years have been
provided because of the cancelable nature of the agreements.

Anticipated lease requirements are as follows:

    Fiscal Year                       Building             Copier                Total

        2004                        $ 38,195               $ 1,419            $ 39,614
        2005                           38,493                1,419              39,912
        2006                           38,795                1,419              40,214
        2007                           39,104                1,419              40,523
        2008                           39,423                1,419              40,842
Total Future Lease Payments         $ 194,010              $ 7,095            $201,105

Note 14 - Commitments and Contingencies

The FCC, USAC, and the Department of Justice are investigating a number of cases related to
disbursements of funds from the schools and libraries program, which might result in future proceedings
or actions. The complexity of these actions precludes management from estimating the total amount of
recovery that may result from these actions.




                                                  54
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 14 - Commitments and Contingencies (continued)

The FCC is a party in various administrative proceedings, legal actions, and claims brought by or against
the agency. In addition, several bankruptcy proceedings are ongoing related to the loan portfolio. In the
opinion of FCC management, the ultimate resolution of proceedings, actions and claims, outside of the
loans, will not materially affect the financial position or results of operations of the FCC.

The FCC has examined its obligations related to canceled FY 1998 authority and believes that it has no
outstanding commitments that will require future resources.

Note 15 - Gross Costs and Earned Revenue by Budget Functional Classification

All costs and revenues of the FCC are being reported under budget functional classification 376, Other
Advancement of Commerce.

Note 16 - Prior Period Adjustments

During FY 2002, prior period adjustments were made to the accounting records. These adjustments were
identified as part of a continuing effort to establish stronger review and control procedures

                                                                FY 2003                  FY 2002

Entries to recognize property and related                       $        -               $      859
Depreciation for items purchased in prior
years, but not identified until the current year

FY 1997 Cancelled Authority Adjustments                                  -                    (2,591)

PY Revenue Adjustments                                                   -                      605

Conversion of Multi –Year Regulatory fees
to a deferred revenue basis vs. year of receipt basis                    -                   (20,884)

Other                                                                    -                       (62)

Total Prior Period Adjustments                                  $       -                $ (22,073)




                                                        55
                         FEDERAL COMMUNICATIONS COMMISSION
                          NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2003 and 2002
                            (dollars in thousands unless otherwise stated)

Note 17 - Apportionment Categories of Obligations Incurred

                                            FY 2003                              FY 2002
                                    Budgetary     Non-Budgetary           Budgetary   Non-Budgetary
Direct
     Category A                $          370,522          $         -    $   326,907   $          -
     Category B                           555,202              417,776        149,285        420,777
     Exempt from Apportionment          5,969,620                    -      5,210,436               -
Total Direct                   $        6,895,344          $   417,776    $ 5,686,628   $    420,777

Reimbursable
     Category A                $             1,684         $         -    $     1,372   $           -
     Category B                                   -                  -              -               -
     Exempt from Apportionment                   -                   -              -               -
Total Reimbursable             $             1,684         $         -    $     1,372   $           -


Category A – Apportioned by Quarter
Category B – Apportioned by Purpose

Note 18 - Available Borrowing/Contract Authority, End of Period

The FCC receives borrowing authority consistent with the Federal Credit Reform Act of 1990, as
amended. The borrowing is authorized through an indefinite permanent authority at interest rates set each
year by the Treasury. In addition, the FCC has permanent indefinite authority for subsidizing the
spectrum auction direct loan program.

With the exception of a monetary credit that resulted as a judgment against the FCC, all borrowings are
from the Bureau of Public Debt. In accordance with applicable standards, all funds are borrowed at the
beginning of the period. Therefore, the FCC does not carry over any unused borrowing authority.
Repayments of borrowings are made in accordance with the terms of the Federal Credit Reform Act of
1990, as amended. Financing sources for repayment are collections from borrowers or subsidy. The FCC
had no available borrowing authority at September 30, 2003.

Note 19 - Terms of Borrowing Authority Used

The FCC has three types of Financing Sources. These are loan payments made by the Public, interest
from U.S. Treasury, and subsidy expense received from Treasury. The Federal Credit Reform Act of
1990 stipulates that the rate used for subsidy calculations, borrowings, and interest on uninvested funds
must be for a maturity comparable to the maturity of the direct loans being made to the Public. The
majority of FCC’s direct loans have a maturity of ten years.




                                                      56
                           FEDERAL COMMUNICATIONS COMMISSION
                            NOTES TO THE FINANCIAL STATEMENTS
                                     September 30, 2003 and 2002
                              (dollars in thousands unless otherwise stated)

Note 20 – Legal Arrangements Affecting Use of Unobligated Balances

Regulatory Fees received in excess of the legislative level contained in the FCC’s annual appropriation
language may be carried forward by the FCC for use in the next fiscal year, subject to the notification of
the Congressional appropriations subcommittees. All other no year unobligated balances are available
without restriction at the start of the next fiscal year following apportionment by the OMB.

Note 21 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government

The schedule below presents differences for FY 2002. The Budget of the United States Government with
actual numbers for FY 2003 has not been published. Pursuant to 31USC 1105, the Budget of the United
States Government will be released the first Monday in February, and will be available at the following
website: http:/www.whitehouse.gov/omb.

                                                         Financial       President’s
Budgetary Resources ($ in millions):                     Statements        Budget        Difference

    Budget Authority                                     $ 5,716          $ 5,644        $ (72)       A
    Unobligated Balances – Beginning of Period             1,936            2,328          392        B
    Spending Authority from Offsetting Collections         1,076            1,075           (1)       C
    Adjustments                                             (352)            (354)          (2)       D
    Total Budgetary Resources                              8,376            8,693          317

Status of Budgetary Resources ($ in millions):

    Obligations Incurred                                 $ 6,109         $ 6,403         $    294     E
    Unobligated Balances – Available                       2,228           2,292               64     F
    Unobligated Balances – Not Available                      39               -              (39)    G
    Total, Status of Budgetary Resources                   8,376           8,695              319

Outlays ($ in millions):

    Obligations Incurred                                 $ 6,109         $ 6,403         $    294     E
    Less: Spending Authority from Offsetting
          Collections and Adjustments                    ( 1,083)         ( 1,081)              2     C
    Obligated Balance, net – Beginning of Period             407               64            (343)    H
    Less: Obligated Balance, net – End of Period            (453)          ( 453)
    Total Outlays                                          4,980            4,933             (47)    I
    Less: Offsetting Receipts                                 21               23               2     C
    Net Outlays                                            4,959            4,910             (49)

A – Represents an adjustment made to the financial statements to reflect the netting of receipts due from
and expenses due to USF contributors who also provide services.




                                                   57
                          FEDERAL COMMUNICATIONS COMMISSION
                           NOTES TO THE FINANCIAL STATEMENTS
                                    September 30, 2003 and 2002
                             (dollars in thousands unless otherwise stated)

Note 21 - Explanation of Differences Between the Statement of Budgetary Resources and the
Budget of the U.S. Government (continued)

B – Financial statement adjustments resulting in a net $400 million decrease to USF available authority
were made after the submission of the budget. This difference is offset by the exclusion of $ 8 million in
expired unobligated balances at the beginning of the fiscal year from the budget.

C - Rounding

D - The Budget is not required to include prior year recoveries, $(7) million, or cancelled authority, $5
million, both of which are included in the financial statements.

E – Financial statement adjustments resulting in a net $296 million decrease to USF obligations incurred
were made after the submission of the budget. The remaining $ (2) million represents upward
adjustments of prior year unexpended obligations that were included in the financial statements, but are
not included in the budget.

F – Represents an adjustment made to the financial statements to increase expenditures in FY 2002 by the
amount of outstanding checks of $35 which were not previously included as budgetary expenditures and a
reclassification for comparability in FY 2003 of $29. The correction for the $35 difference took place on
SF-133 in FY 2003 and will result in a similar difference for FY 2003 in the opposite direction.

G – The Budget is not required to include the expired unobligated balance.

H – The FCC calculated ending USF obligations for financial reporting purposes based on Accounts
Payable. This represents an adjustment that was not included in the budget submission.

I – Represents the net difference of adjustments A, F, and G.

Note 22 - Explanation of the Relationship Between Liabilities Not Covered by Budgetary Resources
on the Balance Sheet and the Change in Components Requiring or Generating Resources in Future
Periods

There are two amounts shown in Note 10 as not covered by budgetary resources: FECA Liability and
Unfunded Leave. The changes in both of these balances between FY 2002 and FY 2003 are reflected as
part of Components Requiring or Generating Resources in Future Periods on the Statement of Financing.
The increase in unfunded leave of $1,411 is included in the Resources that Fund Expenses Recognized in
Prior Periods line on the Statement of Financing, and the decrease in FECA Liability of $12 is included as
part of the Other line of Components Requiring Resources in Future Periods line item.




                                                    58
                             FEDERAL COMMUNICATIONS COMMISSION
                              NOTES TO THE FINANCIAL STATEMENTS
                                       September 30, 2003 and 2002
                                (dollars in thousands unless otherwise stated)

Note 23 - Description of Transfers that Appear as a Reconciling Item on the Statement of Financing

The FCC collects applications fees to cover the cost of processing license applications. The FCC reports
the revenue associated with these fees as a revenue source on its Statement of Net Cost. However, the
fees are not retained by the FCC. To reflect the transfer of these fees back to the Treasury, the FCC
recognizes a transfer out on the Statement of Changes in Net Position. The amount of $19,952 included
in the Offsetting Receipts line on the Statement of Financing is the total transferred for application fees.

Note 24 - Dedicated Collections

U.S. telecommunication companies are obligated to pay assessments for Universal Service support and
for Telecommunications Relay Service, which are established by the FCC. These assessments are
accounted for in the Budget of the U.S. Government as the “Universal Service Fund.” The FCC currently
recognizes the assessments collected under the USF Program as nonexchange revenue on its Statement of
Changes in Net Position, and the related disbursements as program expenses on the Statement of Net
Cost.

The following summarizes the significant assets, liabilities, and related costs incurred with managing the
USF Program. See Required Supplementary Information for complete disclosure of all activity related to
the USF Program.

                                                     FY 2003                           FY 2002
Assets

Cash and Other
Monetary Asset (Note 4)                          $ 2,400,128                       $ 2,300,949
Investments (Note 5)                                 326,389                           328,194
Accounts Receivable, Net (Note 6)                    626,172                           494,189

Liabilities & Net Position

Accounts Payable                                 $     396,664                     $    397,180
Unearned Revenue                                        13,400                                 -
Other Liabilities                                       46,168                            64,561
Net Position                                         2,896,457                         2,661,591

Revenues & Expenses

Contributions                                    $ 5,765,603                       $ 5,466,034
Interest Revenue                                      29,732                            52,538
Provider Related Expenses                        $ 5,501,751                       $ 5,238,739
Fund Administration Expenses                          58,718                            42,865




                                                     59
                         FEDERAL COMMUNICATIONS COMMISSION
                          NOTES TO THE FINANCIAL STATEMENTS
                                   September 30, 2003 and 2002
                            (dollars in thousands unless otherwise stated)

Note 24 - Dedicated Collections (continued)

The administrative costs are expenses related to managing and overseeing the USF Program. The USF
Program is charged administrative expenses by the USAC and the NECA for expenses such as salaries
and benefits of the employees dedicated to managing the universal service support mechanisms and the
telecommunications relay services mechanism, rent and utilities for office space used, providing
accounting and other financial reporting related services, and other miscellaneous activities.

Note 25 – Change in Accounting Guidance

The FCC is a pilot agency in the implementation of the amended Treasury Financial Manual (TFM)
Volume I, Part 2, Chapter 3400, Accounting for and Reporting on Cash and Investments Held Outside of
the U.S. Treasury.       Under the new guidance, purchases of investments are recorded as
disbursements/obligations incurred and receipts are recorded as an offset to disbursements/obligations
incurred.

The change impacts the comparability of the following line items on the combined statement of budgetary
resources:

    •   Obligations Incurred- Direct
    •   Unobligated Balance – Exempt from Apportionment, and
    •   Disbursements

The change also impacts the comparability of the line Resources that Finance the Acquisition of Assets on
the consolidated statement of financing. None of the other principal statements are affected by this
change.

In order to implement the new guidance, effective October 1, 2002 for pilot agencies, a one time entry
was made to record the FY 2002 Investments balance of $328,194 as FY 2003 disbursements/obligations
incurred. In FY 2002, the activity related to investment purchases was reported as part of the Unobligated
Balance – Exempt from Apportionment.




                                                   60
                Federal Communications Commission
            Fiscal Year 2003 Annual Financial Report




 III. REQUIRED
SUPPLEMENTARY
 INFORMATION




       61
                                                           FEDERAL COMMUNICATIONS COMMISSION
                                                           REQUIRED SUPPLEMENTARY INFORMATION
                                                                  As of September 30, 2003
                                                                     (dollars in thousands)




                                                            Intra-Governmental Assets




Partner                                                       Fund                  Accounts                Loans
Code    Trading Partner                                      Balance                Receivable            Receivable        Investments         Other           Total

20      Department of Treasury                         $         409,998        $                 -   $                 -   $           -   $           -   $   409,998

17      Department of Navy                                                                    367                                                                   367
19      Department of State                                                                     3                                                                     3
21      Department of Army                                                                  2,684                                                                 2,684
47      General Services Administration                                                         2                                                                     2
57      Department of Air Force                                                               889                                                                   889
68      Environment Protection Agency                                                           -                                                                     -
69      Department of Transportation                                                            -                                                                     -
70      Department of Homeland Security                                                       408                                                                   408
80      National Aeronautics & Space Administration                                             1                                                                     1
89      Department of Energy                                                                    -                                                                     -
95      Architectural & Transportation Barriers                                                 5                                                                     5
        Compliance Board                                                                                                                                              -
97      Department of Defense                                                               6,092                                                                 6,092

99      General Fund/Other                                             -                          -                     -           -                   -           -

        Total                                          $         409,998        $         10,451      $                 -   $           -   $           -   $   420,449




                                                           Intra-Governmental Liabilities




                                                                                  Borrowings
Partner                                                     Accounts                 From                   Other
Code    Trading Partner                                     Payable             Treasury (BPD)            Liabilities           Total

        Funded

20      Department of Treasury                         $                    -   $      5,065,438      $                 -   $ 5,065,438

16      Department of Labor
            Workman's Compensation                                     -                      -                   426               426
            Unemployment                                                10                    -                   -                  10
                                                                         10                   -                   426               436

24      Office of Personnel Management
               Health                                                  -                      -                   225               225
               Life                                                    -                      -                   436               436
               Retirement                                              -                      -                     7                 7
        Total Office of Personnel Management                           -                      -                   668               668

        Accrued Liabilities
4       Government Printing Office                                     -                      -                         -           -
13      Department of Commerce                                         -                      -                         -           -
14      Department of Interior                                         -                      -                         -           -
19      Department of State & ICASS                                    -                      -                         -           -
21      Department of Army                                             -                      -                         -           -
24      Office of Personal Management                                  -                      -                         -           -
47      General Services Administration                                -                      -                         -           -
        Total Accrued Liabilities                                           -                     -                     -           -

20      Department of Treasury                                              -                     -                 -                 -
99      General Fund/Other                                                  -                     -           230,262           230,262

        Total                                          $                   10   $      5,065,438      $       231,356       $ 5,296,804

        ICASS - International Cooperative Administrative Support Services




                                                                                         62
                                      FEDERAL COMMUNICATIONS COMMISSION
                                      REQUIRED SUPPLEMENTARY INFORMATION
                                        For the Year Ended September 30, 2003
                                                  (dollars in thousands)


                                    Intragovernmental Earned Revenues and Related Costs

Partner
Code Trading Partner                                       Earned Revenue                 Expenses

03     Library of Congress                                 $             -                $              8

04     Government Printing Office                                        -                            1,374

10     Judiciary System                                                                                  1

12     Department of Agriculture & NFC                                   2                             232

13     Department of Commerce                                            -                              82

14     Department of Interior                                            -                            2,687

15     Department Of Justice                                           154                             185

16     Department of Labor
       Workman's Compensation                                                                          151
       Unemployment                                                                                     27
       Other                                                                                            90

17     Department of Navy                                                                                (1)

18     United States Postal Service                                      -                             846

19     U. S. Department of State                                                                        27

20     Department of Treasury
       Bureau of Public Debt                                             -                       392,486
       Financial Management Service                                 39,718                             -
       Other                                                           197                            27

24     Office of Personnel Management
       Health                                                            -                            8,116
       Life                                                              -                              273
       Retirement                                                        -                           15,969
       Other                                                             -                            1,822
       Financing Source/Imputed Costs                                    -                           13,404

36     Department of Veteran Affairs                                     -                                -

45     Equal Employment Opportunity                                      -                               4

47     General Services Administration                                   -                           41,245

57     Department of Air Force                                           5                                -

69     Dept. of Transportation - USCG                                    -                               7

70     Homeland Security Admin.                                        165                              52

75     Health and Human Services -FOH                                    -                              52

95     Board for International Broadcasting                            221                                -

97     Department of Defense                                           607                              30

99     U S Treasury General Fund/Payroll Taxes                           -                         8,532
       Total                                                        41,069                       487,728

Collections on Behalf of the US Treasury (SGL 5990-5991)
99      General Fund                                              (549,466)

NFC - National Finance Center
USCG - United States Coast Guard
FOH - Federal Occupational Health




                                                        63
                        Federal Communications Commission
                        Required Supplementary Information
                              As of September 30, 2003
                                (dollars in thousands)


DEFERRED MAINTENANCE

To determine the original estimated cost of deferred maintenance in FY 2000 the FCC
contracted with professional building inspectors to inspect its real property holdings
including buildings and structures. The inspection reports were, in most cases,
comprehensive reviews of the buildings and ground conditions and included all items that
required attention, whether critical to the functionality of the building or more of a
cosmetic nature. Each year the FCC updates the previous year report for items completed
and newly identified projects. The estimated deferred maintenance for FY 2003 is
$1,520.




                                         64
                                                                    Federal Communications Commission
                                                                        Consolidating Balance Sheet
                                                                          As of September 30, 2003
                                                                                    (dollars in thousands)




ASSETS                                                              FCC                             USF                        NANP               ELIMINATIONS          Consolidated
  Intragovernmental
    Fund Balance with Treasury (Note 3)                  $                409,998          $                     -     $                -     $              -      $         409,998
    Accounts Receivable (Note 6)                                           10,451                                -                      -                    -                 10,451
  Total Intragovernmental                                                 420,449                                -                      -                    -                420,449

  Cash and Other Monetary Assets (Note 4)                                    828                        2,400,128                 11,956                     -               2,412,912
  Investments (Note 5)                                                       -                            326,389                    -                       -                 326,389
  Accounts Receivable, net (Note 6)                                       52,404                          626,172                    504                 (30,390)              648,690
  Loans Receivable, net (Note 7)                                       4,428,805                              -                      -                       -               4,428,805
  General Property, Plant, and Equipment, net (Note 9)                    44,066                              -                      -                       -                  44,066
   Other                                                                     -                                -                      -                       -                     -

Total Assets                                                           4,946,552                        3,352,689                 12,460                 (30,390)            8,281,311

LIABILITIES
  Intragovernmental
    Accounts Payable                                     $                    10           $                     -     $                -     $              -      $               10
    Debt (Note 11)                                                     5,065,438                                 -                      -                    -               5,065,438
    Other (Note 12)
      Custodial                                                           230,052                                -                      -                    -                230,052
      Other                                                                 1,304                                -                      -                    -                  1,304
    Total Other                                                           231,356                                -                      -                    -                231,356

  Total Intragovernmental                                              5,296,804                                 -                      -                    -               5,296,804

  Accounts Payable                                                          7,547                            396,664                   976                   -                405,187
  Debt Held by the Public (Note 11)                                        55,848                                                      -                     -                 55,848
  Other (Note 12)
   Deferred Revenue                                                        59,190                             13,400                  4,233                  -                 76,823
   Other                                                                   79,557                             46,168                     19              (30,390)              95,354
  Total Other                                                             138,747                             59,568                  4,252              (30,390)             172,177

Total Liabilities                                        $             5,498,946           $                 456,232   $              5,228   $          (30,390)   $        5,930,016

  Commitments and Contingencies (Note 14)

NET POSITION
  Unexpended Appropriations                              $                43,055           $                  -        $                -     $              -      $           43,055
  Cumulative Results of Operations                                      (595,449)                       2,896,457                     7,232                  -               2,308,240


Total Net Position                                                      (552,394)                       2,896,457                     7,232                  -               2,351,295

Total Liabilities and Net Position                       $             4,946,552           $            3,352,689      $          12,460      $          (30,390)   $        8,281,311




                                                             The accompanying notes are an integral part of these statements

                                                                                               65
                                                Federal Communications Commission
                                                 Consolidating Statement of Net Cost
                                                For the Year Ended September 30, 2003
                                                              (dollars in thousands)




                                                              FCC                         USF                   NANP           Consolidated
PROGRAM COSTS:
Licensing:
 Intragovernmental gross costs                         $          19,891            $             -         $          -   $          19,891
 Less: Intragovernmental earned revenue                             (293)                         -                    -                (293)
 Intragovernmental net costs                                      19,598                          -                    -              19,598

 Gross costs with the public                                      53,282                          -                    -               53,282
 Less: Earned revenues from the public                           (83,607)                         -                    -              (83,607)
 Net costs with the public                                       (30,325)                         -                    -              (30,325)
  Total net cost                                                 (10,727)                         -                    -              (10,727)


Competition:
 Intragovernmental gross costs                         $          30,151            $             -         $          -   $          30,151
 Less: Intragovernmental earned revenue                             (426)                         -                    -                (426)
 Intragovernmental net costs                                      29,725                          -                    -              29,725

 Gross costs with the public                                      80,772                          -                    -               80,772
 Less: Earned revenues from the public                          (122,055)                         -                    -             (122,055)
 Net costs with the public                                       (41,283)                         -                    -              (41,283)
  Total net cost                                                 (11,558)                         -                    -              (11,558)


Enforcement:
 Intragovernmental gross costs                         $          19,629            $             -         $          -   $          19,629
 Less: Intragovernmental earned revenue                             (271)                         -                    -                (271)
 Intragovernmental net costs                                      19,358                          -                    -              19,358

 Gross costs with the public                                      52,587                          -                    -               52,587
 Less: Earned revenues from the public                           (77,608)                         -                    -              (77,608)
 Net costs with the public                                       (25,021)                         -                    -              (25,021)
  Total net cost                                                  (5,663)                         -                    -               (5,663)


Consumer Information Services:
 Intragovernmental gross costs                         $          10,297            $             -         $          -   $          10,297
 Less: Intragovernmental earned revenue                             (142)                         -                    -                (142)
 Intragovernmental net costs                                      10,155                          -                    -              10,155

 Gross costs with the public                                      27,586                          -                    -               27,586
 Less: Earned revenues from the public                           (40,590)                         -                    -              (40,590)
 Net costs with the public                                       (13,004)                         -                    -              (13,004)
  Total net cost                                                  (2,849)                         -                    -               (2,849)


Spectrum Management:
 Intragovernmental gross costs                         $          14,621            $             -         $          -   $          14,621
 Less: Intragovernmental earned revenue                             (210)                         -                    -                (210)
 Intragovernmental net costs                                      14,411                          -                    -              14,411

 Gross costs with the public                                      39,166                          -                    -               39,166
 Less: Earned revenues from the public                           (60,178)                         -                    -              (60,178)
 Net costs with the public                                       (21,012)                         -                    -              (21,012)
  Total net cost                                                  (6,601)                         -                    -               (6,601)




                                                                      Page 1 of 2




                                          The accompanying notes are an integral part of these statements

                                                                        66
                                                 Federal Communications Commission
                                                  Consolidating Statement of Net Cost
                                                 For the Year Ended September 30, 2003
                                                               (dollars in thousands)




                                                               FCC                         USF                   NANP               Consolidated




Universal Service:

 Intragovernmental gross costs                          $              653          $              -         $            -     $             653
 Less: Intragovernmental earned revenue                                 (9)                        -                      -                    (9)
 Intragovernmental net costs                                           644                         -                      -                   644

 Gross costs with the public                                          1,748                 5,560,469                     -              5,562,217
 Less: Earned revenues from the public                               (2,559)                      -                       -                 (2,559)
 Net costs with the public                                             (811)                5,560,469                     -              5,559,658
  Total net cost                                                       (167)                5,560,469                     -              5,560,302


Numbering:
 Gross costs with the public                                           -                          -                  9,871                   9,871
 Less: Earned revenues from the public                                 -                          -                 (4,997)                 (4,997)
 Net costs with the public                                             -                          -                  4,874                   4,874
  Total net cost                                                       -                          -                  4,874                   4,874


Credit Reform:
 Intragovernmental gross costs                          $         392,486           $              -         $            -     $         392,486
 Less: Intragovernmental earned revenue                           (39,718)                         -                      -               (39,718)
 Intragovernmental net costs                                      352,768                          -                      -               352,768

 Gross costs with the public                                      612,704                          -                      -                612,704
 Less: Earned revenues from the public                           (412,601)                         -                      -               (412,601)
 Net costs with the public                                        200,103                          -                      -                200,103
  Total net cost                                                  552,871                          -                      -                552,871


Total Net Program Costs                                 $         515,306           $       5,560,469        $          4,874   $        6,080,649


Cost not Assigned to Programs:
 Depreciation                                           $          13,007           $              -         $            -     $          13,007
 Telecommunications Development Fund                                   22                          -                      -                     22
 Other Expenses                                                       549                          -                      -                   549
                                                                                                                                              -
Less: Earned Revenues not Attributed to Programs:
 Telecommunications Development Fund                    $               (22)        $              -         $            -     $              (22)



Net Cost of Operations (Note 15)                        $         528,862           $       5,560,469        $          4,874   $        6,094,205




                                                                      Page 2 of 2




                                           The accompanying notes are an integral part of these statements

                                                                           67
                                                                                           Federal Communications Commission
                                                                                     Consolidating Statement of Changes in Net Position
                                                                                          For the Year Ended September 30, 2003
                                                                                                             (dollars in thousands)


                                                                              FCC                                             USF                                           NANP                               Consolidated
                                                               Cumulative                                     Cumulative                                        Cumulative                           Cumulative
                                                                 Results         Unexpended                     Results              Unexpended                   Results        Unexpended            Results          Unexpended
                                                              of Operations     Appropriations               of Operations          Appropriations             of Operations   Appropriations       of Operations      Appropriations

Beginning Balances                                        $         (568,712) $         22,158           $         2,661,591 $                  -          $          12,106 $             -    $        2,104,985 $             22,158
Prior period adjustments (Note 16)                                       -                 -                             -                      -                        -                 -                   -                    -
New Reporting Entity                                                                                                                                                     -                                     -                    -
Cancelled Appropriations                                                 -                 -                             -                      -                        -                 -                   -                    -
Beginning balances, as adjusted                                     (568,712)           22,158                     2,661,591                    -                     12,106               -             2,104,985               22,158

Budgetary Financing Sources:
 Appropriations received                                                 -             802,038                           -                      -                         -                -                   -                802,038
 Appropriations transferred in/out (+/-)                                 -                 -                             -                      -                         -                -                   -                    -
 Other adjustments (recission, etc) (+/-)                                -            (266,737)                          -                      -                         -                -                   -               (266,737)
 Appropriations used                                                 514,404          (514,404)                          -                      -                         -                -               514,404             (514,404)
 Nonexchange revenue                                                     -                 -                             -                      -                         -                -                   -                    -
 Donations and forfeitures of cash and cash equivalents                  -                 -                             -                      -                         -                -                   -                    -
 Transfers-in/out without reimbursement (+/-)                         (5,700)              -                             -                      -                         -                -                (5,700)                 -
 Universal Service Fund Nonexchange Revenue                              -                 -                       5,795,335                    -                         -                -             5,795,335                  -

Other Financing Sources:
 Donations and forfeitures of property                                   -                 -                              -                     -                         -                -                   -                    -
 Transfers-in/out without reimbursement (+/-)                        (19,952)              -                              -                     -                         -                -               (19,952)                 -
 Imputed financing from costs absorbed by others                      13,404               -                              -                     -                         -                -                13,404                  -
 Other (+/-)                                                             (31)              -                              -                     -                         -                -                   (31)                 -

Total Financing Sources                                              502,125            20,897                     5,795,335                    -                         -                -             6,297,460               20,897

Less: Net Cost of Operations                                         528,862                                       5,560,469                                            4,874                            6,094,205

Ending Balances                                           $         (595,449) $         43,055           $         2,896,457 $                  -          $            7,232   $          -    $        2,308,240 $             43,055




                                                                                         The accompanying notes are an integral part of these statements

                                                                                                                         68
                                                                       Federal Communications Commission
                                                                    Combining Statement of Budgetary Resources
                                                                      For the Year Ended September 30, 2003
                                                                                       (dollars in thousands)


                                                                     FCC                                                        USF                                   Combined
                                                                           Non Budgetary                                            Non Budgetary                            Non Budgetary
                                                                           Credit Program                                           Credit Program                           Credit Program
                                                      Budgetary          Financing Account                      Budgetary         Financing Account         Budgetary      Financing Account
Budgetary Resources:

Budget Authority
 Appropriations Received                          $         536,292     $                -              $           5,743,226     $             -       $       6,279,518    $           -
 Borrowing Authority                                            -                     25,346                               -                    -                      -              25,346

Unobligated Balance:
 Beginning of Period                                         17,514                   21,569                        2,228,067                   -               2,245,581             21,569
Spending Authority from Offsetting Collections:
 Earned
   Collected                                                447,725                1,147,715                                -                   -                 447,725           1,147,715
   Receivable from Federal Sources                              -                         -                                 -                   -                     -                    -
 Changed Unfilled Customer Orders
   Advance Received                                              -                        -                                -                    -                      -                   -
   Without Advance from Federal Sources                        (472)                      -                                -                    -                    (472)                 -
 Anticipated for rest of year, without advances                  -                        -                                -                    -                      -                   -
Subtotal                                                  1,001,059                1,194,630                        7,971,293                       -           8,972,352           1,194,630

Recoveries of Prior Year Obligations                          7,765                      -                                  -                   -                   7,765                 -
Permanently not available                                   (66,860)                (730,823)                               -                   -                 (66,860)           (730,823)

Total Budgetary Resources                         $         941,964     $            463,807            $           7,971,293     $             -       $       8,913,257    $       463,807


Status of Budgetary Resources:

Obligations Incurred (Note 17):
 Direct                                           $         925,724     $            417,776            $           5,969,620     $             -       $       6,895,344    $       417,776
 Reimbursable                                                 1,684                      -                                 -                    -                   1,684                -
 Subtotal                                                   927,408                  417,776                        5,969,620                   -               6,897,028            417,776
Unobligated Balance:
 Apportioned                                                    -                        -                                 -                    -                      -                 -
 Other Available                                                -                        -                          2,001,673                   -               2,001,673                -
Unobligated Balance not Available                            14,556                   46,031                               -                    -                  14,556             46,031

Total Status of Budgetary Resources               $         941,964     $            463,807            $           7,971,293     $             -       $       8,913,257    $       463,807


Relationship of Obligations to Outlays:

Obligated Balance, net, Beginning of Period       $          55,651     $                 -             $             397,180     $             -       $         452,831    $            -
Obligated Balance, net, End of Period:
 Accounts Receivable                                            405                       -                               -                     -                     405                 -
 Unfilled Customer Orders from Federal Sources                  (60)                      -                               -                     -                     (60)                -
 Undelivered Orders                                          70,646                       -                               -                     -                  70,646                 -
 Accounts Payable                                            13,222                           -                       396,664                   -                 409,886                 -

Outlays:
  Disbursements                                             891,553                  417,776                        5,970,136                   -               6,861,689             417,776
  Collections                                              (447,725)              (1,147,715)                              -                    -                (447,725)         (1,147,715)
  Subtotal                                                  443,828                 (729,939)                       5,970,136                   -               6,413,964            (729,939)
Less: Offsetting Receipts                                    19,952                         -                              -                    -                  19,952                  -
Net Outlays                                                 423,876                 (729,939)                       5,970,136                   -               6,394,012            (729,939)




                                                                  The accompanying notes are an integral part of these statements

                                                                                                  69
                                                                                        Federal Communications Commission
                                                                                        Consolidating Statement of Financing
                                                                                       For the Year Ended September 30, 2003
                                                                                                     (dollars in thousands)


                                                                                                           FCC                          USF                NANP               Consolidated
Resources Used to Finance Activities:

Budgetary Resources Obligated
 Obligations incurred                                                                               $        1,345,184           $        5,969,620    $            -     $        7,314,804
 Less: Spending authority from offsetting collections and recoveries                                         1,602,733                           -                  -              1,602,733
 Obligations net of offsetting collections and recoveries                                                     (257,549)                   5,969,620                 -              5,712,071
 Less: Offsetting receipts                                                                                      19,952                           -                  -                 19,952
 Net obligations                                                                                              (277,501)                   5,969,620                 -              5,692,119
Other Resources
 Transfers in/out without reimbursement (Note 23)                                                                19,952                           -                 -                19,952
 Imputed financing from costs absorbed by others                                                                 13,404                           -                 -                13,404
 Other (+/-)                                                                                                         31                           -                 -                    31
 Net other resources used to finance activities                                                                  33,387                           -                 -                33,387

Total resources used to finance activities                                                                    (244,114)                   5,969,620                 -              5,725,506

Resources Used to Finance Items not Part of the Net Cost of Operations

 Change in budgetary resources obligated for goods, services and benefits
 ordered but not yet provided (+/-)                                                                              27,524                           -                 -                27,524
 Resources that fund expenses recognized in prior periods                                                        28,550                           -                 -                28,550
 Budgetary offsetting collections and receipts that do not affect net cost of
 operations
   Credit program collections which increase liabilities for loan guarantees
   or allowances for subsidy                                                                                (1,172,627)                        -                    -             (1,172,627)
   Other                                                                                                       452,052                         -                    -                452,052
 Resources that finance the acquisition of assets                                                               15,012                     324,313                  -                339,325
 Other resources or adjustments to net obligated resources that do not affect
 net cost of operations (+/-)                                                                                  (58,577)                       68,605                -                10,028

 Total resources used to finance items not part of the net cost of operations                                 (708,066)                    392,918                  -               (315,148)

Total resources used to finance the net cost of operations                                                     463,952                    5,576,702                 -              6,040,654

Components of the Net Cost of Operations that will not Require or Generate
Resources in the Current Period:

Components Requiring or Generating Resources in Future Periods:
 Increase in annual leave liability                                                                               1,411                           -                 -                 1,411
 Upward/Downward reestimates of credit subsidy (+/-)                                                             71,949                           -                 -                71,949
 Increase in exchange revenue receivable from the public                                                         (5,065)                          -                 -                (5,065)
 Other (+/-)                                                                                                      1,555                           -                 -                 1,555
 Total components of Net Cost of Operations that will require or generate
 resources in future periods                                                                                     69,850                           -                 -                69,850

Components not Requiring or Generating Resources:
 Depreciation and Amortization                                                                                  13,007                          -                   -                 13,007
 Other (+/-)                                                                                                   (17,947)                     (16,233)              4,874              (29,306)
 Total components of Net Cost of Operations that will not require or generate
 resources                                                                                                       (4,940)                    (16,233)              4,874              (16,299)

Total components of Net Cost of Operations that will not require or generate
resources in the current period                                                                                  64,910                     (16,233)              4,874              53,551

Net Cost of Operations                                                                              $          528,862           $        5,560,469    $          4,874   $        6,094,205




                                                                                The accompanying notes are an integral part of these statements

                                                                                                               70
                                                Federal Communications Commission
                                                Required Supplementary Information
                                   For the Years Ended September 30, 2003 and September 30, 2002
                                                        (dollars in thousands)


STATEMENT OF BUDGETARY RESOURCES

The Office of Management and Budget (OMB) Bulletin No. 01-09, Form and Content of Federal Agency Financial Statements requires
additional disclosure of an entity's budgetary information by major budgetary account if the information was aggregated for presentation
purposes on the Statement of Budgetary Resources. The major budget accounts include the FCC and the Universal Service Fund. Reflected
in the chart below are the major accounts of the FCC that are aggregated and presented in the September 30, 2003 and September 30, 2002
Combined Statement of Budgetary Resources.




FY2003                                                       S&E         Credit Reform   Auctions           USF             Total
Budgetary Resources:

Budget authority                                         $     5,241      $   556,397    $     -        $   5,743,226 $      6,304,864
Unobligated balances - beginning of period                     8,350           24,462        6,271          2,228,067        2,267,150
Spending authority from offsetting collections               325,266        1,172,895       96,807                  -        1,594,968
Adjustments                                                  (59,257)        (730,789)         128                  -         (789,918)
Total budgetary resources                                $   279,600      $ 1,022,965    $ 103,206      $   7,971,293 $      9,377,064


Status of Budgetary Resources:

Obligations incurred                                     $   275,149      $   972,977    $  97,058      $   5,969,620 $      7,314,804
Unobligated balances - available                                   -                -            -          2,001,673        2,001,673
Unobligated balances - not available                           4,451           49,988        6,148                  -           60,587
Total, status of budgetary resources                     $   279,600      $ 1,022,965    $ 103,206      $   7,971,293 $      9,377,064


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period              $    31,487      $      2,919   $   21,245     $    397,180 $         452,831
Obligated balance transferred, net                                 -                 -            -                -                 -
Obligated balance, net, end of period                         35,579            17,888       30,746          396,664           480,877

Outlays:
 Disbursements                                              265,723           957,974       85,632          5,970,136        7,279,465
 Collections                                               (325,738)       (1,172,895)     (96,807)                 -       (1,595,440)
 Subtotal                                                   (60,015)         (214,921)     (11,175)         5,970,136        5,684,025
Less: Offsetting Receipts                                    19,952                 -            -                  -           19,952
Net Outlays                                              $ (79,967)       $ (214,921)    $ (11,175)     $   5,970,136     $ 5,664,073




                                                                    71
                                                Federal Communications Commission
                                                Required Supplementary Information
                                   For the Years Ended September 30, 2003 and September 30, 2002
                                                   (dollars in thousands)


FY 2002                                                    S&E        Credit Reform    Auctions         USF             Total
Budgetary Resources:

Budget authority                                       $    26,285     $    146,842    $      -     $   5,543,236 $      5,716,363
Unobligated balances - beginning of period                  12,452           18,413         9,361       1,895,267        1,935,493
Spending authority from offsetting collections             231,948          765,916        77,918               -        1,075,782
Adjustments                                                (12,616)        (343,131)        4,036                         (351,711)
Total budgetary resources                              $   258,069     $    588,040    $   91,315   $   7,438,503 $      8,375,927


Status of Budgetary Resources:

Obligations incurred                                   $   249,720     $   563,578     $   85,043   $   5,210,436 $      6,108,777
Unobligated balances - available                                 -               -              -       2,228,067        2,228,067
Unobligated balances - not available                         8,349          24,462          6,272               -           39,083
Total, status of budgetary resources                   $   258,069     $   588,040     $   91,315   $   7,438,503 $      8,375,927


Relationship of Obligations to Outlays:

Obligated balance, net, beginning of period            $    41,719     $      2,700    $   19,351   $    343,627 $         407,397
Obligated balance transferred, net                               -                -             -              -                 -
Obligated balance, net, end of period                       31,487            2,919        21,245        397,180           452,831

Outlays:
 Disbursements                                            257,035           563,345       79,113        5,156,883        6,056,376
 Collections                                             (231,941)         (765,916)     (77,917)               -       (1,075,774)
 Subtotal                                                  25,094          (202,571)       1,196        5,156,883        4,980,602
Less: Offsetting Receipts                                  21,284                 -            -                -           21,284
Net Outlays                                            $    3,810      $   (202,571)   $   1,196    $   5,156,883     $ 4,959,318




                                                                 72
               Federal Communications Commission
           Fiscal Year 2003 Annual Financial Report




   IV. OTHER
ACCOMPANYING
 INFORMATION




      73
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2003 Annual Financial Report



                       IV. Other Accompanying Information
FY 2003 Performance Measures
With the implementation of the revised FY 2003-2008 Strategic Plan, FY 2003 performance measures in
the FY 2003 Annual Performance Plan were closed against the five activities. To be consistent with
performance results that will be reported separately in the FY 2003 Annual Program Performance Report
in February 2004, this report utilizes performance measures that are consistent with the FY 2003 output
activities and outcome indicators in the FY 2004 Annual Performance Plan. The FY 2003 output
activities and outcome indicators are based on the six new long-term goals established by the FY 2003-
2008 Strategic Plan. However, the five activities listed on the Statement of Net Cost are the same as
those used for the budget and the existing cost accounting system.
The FCC has established six general goals in its FY 2003 - FY 2008 Strategic Plan. These goals are:
    1. BROADBAND: Establish regulatory policies that promote competition, innovation, and
       investment in broadband services and facilities while monitoring progress toward the deployment
       of broadband services in the United States and abroad. (47 U.S.C. §157 and note.)
    2. COMPETITION: Support the Nation’s economy by ensuring there is a comprehensive and sound
       framework for communications services. Such a framework should foster innovation and offer
       consumers meaningful choice in services. Such a pro-competitive framework should be
       promoted domestically and overseas. (47 U.S.C. §§251, 271, 253, 254, and 309(j).)
    3. SPECTRUM: Encourage the highest and best use of spectrum domestically and internationally
       in order to encourage the growth and rapid deployment of innovative and efficient
       communications technologies and services. (47 U.S.C. §§301 and 303(g).)
    4. MEDIA: Revise media regulations so that media ownership rules promote competition and
       diversity in a comprehensive, legally sustainable manner and facilitate the mandated migration to
       digital modes of delivery. (47 U.S.C. §§336 and 307(b); Telecommunications Act of 1996
       §202(h).)
    5. HOMELAND SECURITY: Provide leadership in evaluating and strengthening the Nation’s
       communications infrastructure, in ensuring rapid restoration of that infrastructure in the event of
       disruption, and in ensuring that essential public health and safety personnel have effective
       communications services available to them in emergency situations. (47 U.S. C. §§151, 606, and
       337.)
    6. MODERNIZE THE FCC: Emphasize performance and results through excellent management.
       Develop and retain independent mission-critical expertise and align the FCC with dynamic and
       converging communications markets. (47 U.S.C. §155(a).)




                                                    74
                                                                      Federal Communications Commission
                                                                  Fiscal Year 2003 Annual Financial Report

For each of these six general goals, the FCC has established one or more performance goals – for a total
of eleven performance goals:
BROADBAND:              1) Broaden the deployment of broadband technologies across the United States
                           and globally.
COMPETITION:            2) Ensure American consumers can choose among multiple reliable and
                           affordable communications services.
                        3) Ensure that all American consumers retain reliable wireless/wireline phone
                           service, and multichannel video service.
                        4) Create and maintain a two-way dialogue with regulators around the globe in
                           order to foster the creation of pro-competitive global markets.
                        5) Create and maintain a two-way dialogue with American consumers so that
                           they are informed about their rights and responsibilities in the competitive
                           communications marketplace.
SPECTRUM:               6) Ensure that the Nation’s spectrum is used efficiently and effectively.
                        7) Advocate U.S. spectrum interests in the international arena.
MEDIA:                  8) Develop a sound analytic foundation for media ownership rules.
                        9) Facilitate the Congressionally mandated transition to digital television and
                           further the transition to digital radio.
HOMELAND              10) Promote the reliability, security, and survivability of the communications
SECURITY:                 infrastructure.
MODERNIZE              11) Become a more responsive, efficient, and effective agency capable of facing
THE FCC:                   the technological and economic opportunities of the new millennium.


As described in the FY 2004 Annual Performance Plan, the FCC has developed output activities and
outcome indicators to measure progress toward the Commission’s long-term general goals. Figures 9 and
10 on the following pages illustrate the FY 2003 output activities, and a series of outcome indicators,
respectively, which serve as markers of success in achieving the general goals.
The FCC, through its regulatory activities, influences numerous economic and social outcomes.
However, since consumer choice, technological innovation, economic conditions, and international
negotiations can all have greater effect on outcomes than FCC’s regulatory activities, the FCC’s approach
to connecting its goals to outcomes measures those factors within the FCC’s control – noted as output
indicators. The FCC will measure and provide data on the output indicators (within the FCC’s control)
and discuss the relationship between actual performance on these output indicators and the economic and
social outcomes listed as outcome indicators in the FY 2003 Annual Program Performance Report.




                                                     75
                                                                         Federal Communications Commission
                                                                     Fiscal Year 2003 Annual Financial Report

                                             Figure 9
                                     FY 2003 Output Activities
1. Broadband
    •    Complete specified rulemakings that influence the deployment and adoption of broadband technologies.
    •    Develop a statutory definition of and analytical framework for broadband services across multiple platforms.
    •    Initiate study of power line communications in the provision of broadband services to the home.
    •    Collect and publish baseline data on the deployment of broadband services, particularly to rural America.
2. Competition
    Affordable Choice
    •    Conduct review and make recommendations to improve the USF contribution methodology.
    •    Enforce regulations that encourage reliable, affordable provision of multichannel video programming services
         by multiple providers.
    Reliable Service
    •    Conduct quarterly reviews of carrier compliance with Section 214 (continuity of service) requirements.
    Two-way Dialogues
    •    Complete review of settlements accounting rules to promote lower international calling rates for U.S.
         consumers.
    •    Initiate and maintain two-way dialogue with regulators around the globe on broadband and other emerging
         technologies.
3. Spectrum
    Effective Use
    •    Complete study to determine measures to facilitate deployment of cognitive radio.
    •    Increase the number of new spectrum use licenses (prompt assignment).
    •    Initiate procedures to allocate underutilized spectrum and promote the use of unlicensed services.
    International Interests
    •    Negotiate and enforce satellite and other coordination treaties with affected countries.
    •    Advance U.S. positions on spectrum use at the 2003 World Radiocommunications Conference.
4. Media
    Media Ownership
    •    Complete selected studies that support development of appropriate media rules for current media marketplace.
    •    Issue Third Biennial Review Report of Broadcast Ownership Rules.
    Digital TV/Radio
    •    Create and enforce regulations to advance the digital transition and implement public education efforts.
    •    Develop statistical data for tracking consumer/industry investment and deployment of digital programming and
         equipment.
5. Homeland Security
    •    Complete the deliverables required by the Network Reliability and Interoperability Council.
    •    Complete work of the National Coordination Committee, a federal advisory committee established to facilitate
         implementation of wireless public safety interoperability.
    •    Issue regulations facilitating the implementation of wireless public safety interoperability.
    •    Increase coordination with the National Communications System on implementation of wireless priority access
         service (WPAS).
6. Modernize the FCC
    Efficient Processes
    •    Initiate analysis and design of an integrated licensing interface portal and Help Desk.
    •    Initiate policy and rulemaking system (document/knowledge management and workflow) pilot for selected
         auctions proceedings.
    •    Bureau/Office efficiency initiatives reported in the Quarterly Performance & Results Review (QPRR).
    Expert Staff
    •    Develop plan to ensure agency has appropriate engineering, legal, and economic expertise.
    •    Formalize Engineer-in-Training (EIT) Program and establish a mentoring program.
    •    Expand competency-based career development program for key groups.
    Results-based Management
    •    SES performance plans and awards are linked to the FCC’s Strategic Plan goals and measures.
    •    Develop plan for implementation of performance-based budgeting.




                                                      76
                                                                       Federal Communications Commission
                                                                   Fiscal Year 2003 Annual Financial Report

                                          Figure 10
                                  FY 2003 Outcome Indicators
1. Broadband
    •   Increasing percentage of households with access to broadband services.
    •   Increasing access to broadband services across multiple platforms: DSL, cable modem, satellite, et al.
2. Competition
    •   Increasing percentage of households with access to competing providers for multichannel video
        programming and information services.
    •   Increasing number of consumers and businesses that have reliable wireless and wireline phone service
        (continuity of service).
    •   Decreasing price for residential and business domestic (local/interstate) wireless and wireline services.
    •   Decreasing price for international calls.
3. Spectrum
    •   Increasing number of approvals for enhanced telecommunications equipment.
    •   Increasing deployment of new services making use of underutilized or unlicensed spectrum.
    •   U.S. positions on spectrum effectively advanced in international negotiations and enforcement of treaties
        (number of U.S. positions partially or fully adopted).
4. Media
    •   Significant progress in the transition to digital television and radio.
    •   Increasing investment by consumers in digital equipment.
    •   Increasing deployment by industry in digital programming, equipment, and infrastructure.
5. Homeland Security
    •   Increasing deployment of E-911.
    •   Increasing deployment of WPAS.
    •   Increasing Telecommunications Service Priority (TSP) participation.
    •   Increasing reporting of service outages across multiple platforms.
    •   Increasing amounts of spectrum available for public safety communications.
6. Modernize the FCC
    •   Decreasing the cost of maintaining agency licensing systems while increasing customer satisfaction with
        the licensing services provided.
    •   Reducing the average time required to complete rulemakings (knowledge management).
    •   Increasing efficiency in the processing of workload (measured by and reported in the Quarterly
        Performance & Results Review (QPRR)).
    •   Employing appropriate number of attorneys, engineers and economists.
    •   All FCC employees participating in appropriate career development activities.
    •   Increasing rate of agency achievement of strategic objectives.




                                                     77
                                                                                             Federal Communications Commission
                                                                                         Fiscal Year 2003 Annual Financial Report

Figure 11 below describes the processes/strategies, skills, and resources that support of the five budget
activities.
                                              Figure 11
          Processes, Strategies, Skills, and Resources that Support Each Budget Activity30
                        Enforcement             Competition                Licensing               Spectrum                  Consumer
                                                                                                                            Information
                        Carry out strong      Clarify regulatory       Refine licensing       Study and understand         Educate American
       Processes        enforcement of         classification and        assignment           U.S. spectrum use and         consumers about
       and              market opening        access obligations.        processes.            market conditions.          broadband and its
                         requirements.                                                                                        applications.
       Strategies
                                                  Eliminate            Establish proper           Participate in
                      Carry out strong and       unnecessary               technical          national/international       Educate American
                            effective         regulatory barriers.    framework for the            dialogues.               consumers about
                        enforcement in                                digital transition to                              spectrum management
                      harmful interference    Gather data, study,          progress.             Promote flexible          issues, especially
                       and public safety        and understand                                     technology                 interference.
                           situations.        domestic and global      Seek innovative            development.
                                               communications               ways, in                                       Educate American
                            Enforce                markets.           collaboration with      Get existing entities to      consumers about
                      interconnection and                                 industry, to         recommend spectral         media regulation and
                       other competition-     Develop coherent         facilitate digital          efficiencies.         related issues, such as
                      related regulations.       cross-media               transition.                                   DTV and digital radio
                                              ownership policies                               Work closely with               conversion.
                      Vigorously enforce      and translate those     Evaluate impact of        governmental and
                       continuation of         policies into new         FCC rules and          private entities to      Increase governmental
                           service            ownership models.           practices on            ensure network         and non-governmental
                        requirements.                                     markets and            interoperability,            awareness of
                                              Encourage universal     consumers so that       protection, reliability,         emergency
                        Ensure our data        service, consistent      those rules that         and redundancy.              remediation
                         collection and        with competition.      serve as barriers to                                 procedures, such as
                      accounting rules are                            innovation may be           Facilitate the                   the
                      tailored to allow us      Increase digital          eliminated.          deployment of life-        Telecommunications
                          to fulfill our          broadband                                        saving E911           Service Priority (TSP)
                            oversight          competition from         More credibly             technologies.                 system.
                        responsibilities.     multiple technology       review license
                                                   platforms.         transfers to ensure       Establish balanced
                                                                        they are in the        policies for wireless
                                               Continually review       public interest.         priority access.
                                                  FCC rules for
                                                   balance and
                                                appropriateness.
                          Enforcement              Economists,            Attorneys,          Public safety experts,     Consumer advocates,
       Resources        experts, auditors,    attorneys, engineers,      economists,           state and local first-        state and local
                      attorneys, engineers,         analysts.         engineers, analysts.      responder experts,       government experts,
                           economists,                                                             international          attorneys, analysts.
                            analysts.            Hardware and           Hardware and           negotiation experts,
                                                  software for          software for a        engineers, attorneys.      Publications, displays,
                       Enforcement fleet.      assessing today’s      universal licensing                                presentation software
                                                  markets and              system.            Enclosed test facility.       and hardware.
                         Monitoring and        forecasting future
                       testing equipment.          conditions.                                 Monitoring and test
                                                                                                  equipment.

                                                                                               Back-up emergency
                                                                                                  equipment.




30
     FCC’s FY 2004 Budget Estimates to Congress, Annual Performance Plan, pages 29-31.
                                                                      78
                                                                                Federal Communications Commission
                                                                            Fiscal Year 2003 Annual Financial Report

                                   Figure 11 (continued)
    Processes, Strategies, Skills, and Resources that Support Each Budget Activity
              Enforcement             Competition              Licensing              Spectrum                  Consumer
                                                                                                               Information
            Respond quickly in         Study and          Conduct innovative     Study and understand             Facilitate
Skills         emergency            understand market      reengineering to          technologies.          conversations among
                situations.            conditions.        speed up licensing                                key groups (state and
                                                              processes.         Carry out international   local governments and
            Foresee and plan for   Conduct innovative                             communication and          industry) to identify
              the unexpected.         rulemakings,             Negotiate              negotiation.              best practices.
                                         execute          technically sound
                                   economically sound      and socially fair        Carry out sound           Collaborate and
                                      decisions, and      prioritized polices,   engineering studies on      communicate with
                                    conduct rigorous       procedures, and        impacts of spectrum      industry and advisory
                                   and effective policy      agreements.                sharing.               committees.
                                        analysis.
                                                          Review and analyze       Gain full technical      Gather, analyze, and
                                   Encourage the use of        mergers.            knowledge of the            communicate
                                   best practices among                             actual impact of         information with
                                       industry and                                various spectrum            Congress and
                                   government entities.                               practices on              consumers.
                                                                                      interference.
                                   Review, analyze, and
                                    rework regulations.                             Understand and
                                                                                       anticipate
                                       Understand                                    technological
                                   constantly changing                              developments.
                                      technologies.
                                                                                      Negotiate in
                                   Understand, explain,                          international for a for
                                     and encourage                                  global spectrum
                                      competition.                                     allocation.




                                                          79
                                                                     Federal Communications Commission
                                                                 Fiscal Year 2003 Annual Financial Report



Cross-Cutting Functions of the Commission
The Commission routinely interacts with a number of other Federal agencies. For example, the FCC:
    •   coordinates radio antenna and tower proposals with the Federal Aviation Administration to
        prevent interference and to ensure the safety of life and property;
    •   measures spurious radio signal emissions in cooperation with the Environmental Protection
        Agency to monitor public risks associated with radiation;
    •   coordinates with the U.S. Customs Service concerning the import of electronic devices;
    •   coordinates with the NTIA to ensure the effective management of the public and private
        spectrum;
    •   works closely with the Federal Trade Commission on consumer issues, e.g., unscrupulous
        practices such as “slamming” and “cramming” practiced by some service providers;
    •   coordinates with Federal agencies to ensure public safety, public health, and other emergency and
        defense personnel have effective communications services in the event of a terrorist attack or
        other national disaster such as wireless priority access. Agencies sharing responsibility include
        the Homeland Security Office, Network Reliability and Interoperability Council, Media Security
        and Reliability Council, the Department of Defense, and the Federal Emergency Management
        Agency among others; and
    •   coordinates with the DOJ on enforcement Section 271 of the Act, which ensures that a Bell
        Operating Company continues to comply with market opening requirements after the
        Commission has approved its application to provide long distance service in its home region.
In addition to coordination efforts with other Federal agencies, the FCC must also seek the input of state
and local governments to achieve a truly national telecommunications policy. The 1996 Act set the
groundwork for this goal, and the Commission is fulfilling its role in establishing the rules for opening
communications markets across the country, in partnership with state regulators. The Commission will
continue to work with state and local agencies, and toward this end the FCC has instituted a Local and
State Government Advisory Committee to share information and views on many critical communications
issues.




                                                    80
                                                              Federal Communications Commission
                                                          Fiscal Year 2003 Annual Financial Report



                       V. GLOSSARY OF ACRONYMS
3-G            Third generation, advanced wireless services
The 1996 Act   The Telecommunications Act of 1996
The Act        The Communications Act of 1934, as amended
ADA            American’s with Disabilities Act
ADSL           Asymmetric digital subscriber lines
AMD-FO         Associate Managing Director – Financial Operations
ARPM           Average revenue per minute
ARPU           Average revenue per unit
AWS            Advanced wireless services
BAS            Broadcast auxiliary service
BEAMS          Budget Execution and Management System
BLS            Bureau of Labor Statistics
CGB            Consumer and Governmental Affairs Bureau
COTS           Commercial off-the-shelf
CPI            Consumer Price Index
CPI-U          Consumer Price Index for all Urban Consumers
CSRS           Civil Service Retirement System
CTIA           Cellular, Telephone, and Internet Association
DOI            U.S. Department of the Interior
DOJ            U.S. Department of Justice
DOL            U.S. Department of Labor
DSL            Digital subscriber lines
DTV            Digital television
EB             Enforcement Bureau
EI             Effective interest method
EIT            Engineer-in-Training
FCC            Federal Communications Commission
FCRA           Federal Credit Reform Act of 1990
FECA           Federal Employee Compensation Act
FERS           Federal Employee Retirement System
FFS            Federal Financial System
FMFIA          Federal Managers Financial Integrity Act
FOH            Federal Occupational Health

                                                 81
                                                          Federal Communications Commission
                                                      Fiscal Year 2003 Annual Financial Report

FTE     Full-time equivalents
FY      Fiscal year
GAAP    Generally accepted accounting principles
GAO     General Accounting Office
GPRA    Government Performance and Results Act of 1993
ICASS   International Cooperative Administrative Support Services
ITS     International Telecommunications Settlement
ITU     International Telecommunication Union
IVDS    Interactive Video and Data Service
JFMIP   Joint Financial Management Improvement Program
Kbps    Kilobits per second
MDS     Multichannel Distribution Service
MOU     Minutes of use
MSS     Mobile Satellite Service
NA      Not applicable
NAL     Notice of Apparent Liability
NANP    North American Numbering Plan
NANPA   North American Numbering Plan Administrator
NBANC   North American Billing and Collection, Inc.
NBC     National Business Center
NECA    National Exchange Carriers Association
NFC     National Finance Center of the U.S. Department of Agriculture
NTIA    National Telecommunications and Information Administration
OGC     Office of the General Counsel
OIG     Office of Inspector General
OMB     Office of Management and Budget
OMD     Office of the Managing Director
OPM     Office of Personnel Management
OSP     Office of Strategic Planning and Policy Analysis
PCS     Personal Communications Service
PERM    Performance Evaluation and Records Management
PLMR    Private land mobile radio
PLMRS   Private land mobile radio services
PP&E    Property, Plant and Equipment
QPRR    Quarterly Performance and Results Review

                                        82
                                                          Federal Communications Commission
                                                      Fiscal Year 2003 Annual Financial Report

RAMIS      Revenue Accounting and Management Information System
Report     Annual Financial Report
SFFAS      Statement of Federal Financial Accounting Standards
SMR        Specialized Mobile Radio
STA        Special Temporary Authority
TDA        Telecommunications Development Account
TDF        Telecommunications Development Fund
Treasury   U.S. Department of the Treasury
TRS        Telecommunications Relay Service (Fund)
TSP        Telecommunications Service Priority
UCC        Uniform Commercial Code
UNE        Unbundled Network Element
UPCS       Unlicensed personal communications service
U.S.       United States
USAC       Universal Service Administrative Company
U.S.C.     United States Code
USCG       United States Coast Guard
WPAS       Wireless priority access service
WTO        World Trade Organization




                                          83
             SECTION VI

  STATUS OF RECOMMENDATIONS FROM
PRIOR YEAR FINANCIAL STATEMENT AUDIT
SECTION VI                 STATUS OF RECOMMENDATIONS FROM
                           PRIOR YEAR FINANCIAL STATEMENT AUDIT


  Starting with fiscal year 1999, the FCC’s financial statements have been subjected to audit pursuant to the
  Chief Financial Officers Act of 1990, as amended. This matrix consists of prior year financial statement
  audit recommendations to correct identified internal control weaknesses and their resolution status at the
  completion of the FY 2003 audit. A determination as to the status of each recommendation was based on
  the audit fieldwork at FCC and discussion with FCC officials.



                                                                                           Resolution Classification (X)




                                                                                                         In Progress




                                                                                                                                  No Action
                                                                                              Complete




                                                                                                                       Planning
           CONDITIONS                               RECOMMENDATIONS




MATERIAL
WEAKNESSES
I. Financial Reporting
   (Modified Repeat Condition)

   A. Integrated Financial Management Systems (Modified Repeat Condition)
                                          1. Focus on meeting RAMIS milestones and                       X
                                             ensure that all target dates are met.
                                             Document the plan outlining the steps
                                             taken (i.e., processes, data stewardship,
                                             management information, systems
                                             architecture, and internal control) to meet
                                             a unified set of financial systems linked
                                             together electronically in an efficient and
                                             effective manner to provide agency-wide
                                             financial system support.
                                          2. Assess the degree of integration needed in                  X
                                             the USF, TRS and NANP financial
                                             systems. Develop plans to integrate each
                                             of the USF, TRS and NANP financial
                                             systems so that they will meet the
                                             requirements of OMB Circular No. A-127
                                             and the Federal Financial Management
                                             Improvement Act of 1996 (FFMIA).
                                          3. Implement Federal GAAP accounting,                          X
                                             including budgetary accounting, for the
                                             USF, TRS and NANP to facilitate
                                             compliance with Federal financial
                                             reporting requirements.



      03-AUD-05-07             REPORT ON THE FEDERAL COMMUNICATIONS
                               COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                                 Page 1
SECTION VI             STATUS OF RECOMMENDATIONS FROM
                       PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                     Resolution Classification (X)




                                                                                                   In Progress




                                                                                                                            No Action
                                                                                        Complete




                                                                                                                 Planning
        CONDITIONS                            RECOMMENDATIONS




 B. Federal Financial System Setup and Posting Model Definitions
    (Modified Repeat Condition)

                                    4. Continue to update and correct FFS                          X
                                       system setup and posting model
                                       definitions to comply with the transaction
                                       posting models consistent with USSGL
                                       guidance and policies for recording and
                                       classifying transactions. Ensure changes
                                       made to FFS are tested and accepted
                                       before they go into live production.
                                    5. Continue to review all frequently used                      X
                                       transaction types and transaction codes to
                                       ensure that the accounting entries
                                       (budgetary and proprietary) are corrected.

 C. Timely Recording and Analysis of Financial Activities
    (Modified Repeat Condition)

                                    6. Record and analyze financial transactions                   X
                                       at least once a month or more frequently
                                       as appropriate.

 D. Supervisory review of the USF, TRS, and NANP Financial Reporting Process
    (Modified Repeat Condition)
                                    7. Conduct a comprehensive review of the                       X
                                       reporting entities' accounting policies to
                                       ensure their policies are acceptable and in
                                       compliance with FCC's policies. In
                                       addition, FCC should include appropriate
                                       guidelines that will ensure that the
                                       reporting entities obtain FCC concurrence
                                       for any accounting policy changes.




    03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS
                           COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                               Page 2
  SECTION VI             STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                        Resolution Classification (X)




                                                                                                      In Progress




                                                                                                                               No Action
                                                                                           Complete




                                                                                                                    Planning
           CONDITIONS                           RECOMMENDATIONS




                                     8. Ensure that the reporting entities' financial                 X
                                         information provided by the entities'
                                         administrators are reviewed for accuracy,
                                         reasonableness, and propriety prior to
                                         incorporation in the FCC consolidated
                                         financial statements. Improve two-way
                                         open communications allowing the
                                         entities' administrators to review financial
                                         information included in the FCC
                                         consolidated financial statements.
                                     9. Document clearly the legal, financial, and                    X
                                         operational boundaries of FCC, USF,
                                         TRS, NANP, and entities' administrators.
                                         With the assistance of FCC Office of the
                                         General Counsel (OGC) and the entities'
                                         administrators, FCC management needs to
                                         formally define in writing each entity's
                                         financial management role and
                                         responsibility to avoid confusion and
                                         misunderstanding.
                                     10. Expand and document a formal financial                       X
                                         reporting compilation process that
                                         adequately addresses the processes and
                                         issues for consolidating the USF, TRS and
                                         NANP.
II.   Cost Accounting
      (Modified Repeat Condition)
      A. Cost Accounting System
         (Modified Repeat Finding)
                                     11. Ensure that the cost systems to be                           X
                                         developed or acquired meet the minimum
                                         requirements outlined in the JFMIP
                                         system requirements.
                                     12. Determine outputs for all responsibility                                    X
                                         segments as required and calculate the
                                         cost per unit of each type of output.




       03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS
                             COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                                Page 3
SECTION VI           STATUS OF RECOMMENDATIONS FROM
                     PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                  Resolution Classification (X)




                                                                                                In Progress




                                                                                                                         No Action
                                                                                     Complete




                                                                                                              Planning
        CONDITIONS                         RECOMMENDATIONS




                                 13. Document the costing methodologies and                     X
                                     processes in a formal policy and
                                     procedure manual or handbook.
                                     Management should determine the cost
                                     objects to define, the costing methodology
                                     to use, the type of costs to include for
                                     reporting, or decision making purposes
                                     (i.e., full cost), and other items of a
                                     similar nature.

  B. Cost Finding Techniques
                                 14. Evaluate the adequacy of the modified            X
                                     cost-finding techniques in accumulating
                                     and allocating costs, matching revenue,
                                     accounting and generating financial
                                     information as they are applied in fiscal
                                     year 2003.
                                 15. Ensure that cost finding techniques are          X
                                     sufficiently documented and supported.
                                 16. Provide clear, consistent and uniform            X
                                     terminology and definition of each
                                     program, especially the USF. Clearly
                                     document and outline direct costs that
                                     should be charged to each program.
                                 17. Continue training employees on the               X
                                     proper use of the revised activity codes
                                     and emphasize the importance of properly
                                     coding their time. Ensure that appropriate
                                     employees of bureaus and offices fully
                                     understand the importance of properly
                                     classifying costs and are trained on the
                                     proper application of the activity codes.
 C. Matching Revenues to Costs
    (Repeat Finding)
                                 18. Review the propriety of the costing                                                   X
                                     methodology and the matching of earned
                                     revenue against costs (costing
                                     methodologies).



    03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS
                         COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                              Page 4
 SECTION VI               STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                        Resolution Classification (X)




                                                                                                      In Progress




                                                                                                                               No Action
                                                                                           Complete




                                                                                                                    Planning
           CONDITIONS                            RECOMMENDATIONS




III. USF Financial Reporting
     (Modified Repeat Condition)
   A. Accounting and Reporting Controls
      (Modified Repeat Condition)
                                    19. Update an accounting system where dual                        X
                                        entry method and budgetary accounting
                                        entries, when appropriate, are recorded at
                                        the transaction level.
                                    20. Update accounting policies and                                X
                                        procedures to ensure consistent
                                        accounting application and consistent
                                        definition of transactions.
                                    21. Establish and perform supervisory                             X
                                        reviews to ensure that reports and
                                        financial data received from USAC
                                        contractors are supported, accurate,
                                        reasonable and that transactions are
                                        properly and consistently classified and
                                        recorded.
   B. Controls Over USF Disbursements to "At Risk" Service Providers
                                       22. Tighten controls to ensure that immediate                  X
                                           communication to appropriate parties is
                                           made regarding service providers that are
                                           placed in the watch list.
                                       23. Compare payments to be made against the                    X
                                           disbursement watch list prior to releasing
                                           the payment, or institute a payment
                                           system flagging the service providers in
                                           the "do not disburse" list.




       03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS
                              COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                               Page 5
 SECTION VI              STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                           Resolution Classification (X)




                                                                                                         In Progress




                                                                                                                                  No Action
                                                                                              Complete




                                                                                                                       Planning
           CONDITIONS                              RECOMMENDATIONS




IV. Auction Related Subsidiary System
                                        24. While the spreadsheets are used as the                       X
                                            detailed records, periodically and
                                            haphazardly select detail auction
                                            subsidiary records for testing to determine
                                            that the formulas are calculating the
                                            correct amounts and the calculated
                                            amounts can be supported by the
                                            underlying transaction and
                                            documentation.
                                        25. Develop and implement policies and                           X
                                            procedures for the use and review of the
                                            auction subsidiary spreadsheets. These
                                            policies should include, but not limited to:
                                            Allowing only limited users to make
                                            changes to the files; Requiring changes
                                            made by authorized users to be verified
                                            and authorized by another person, and;
                                            Periodic reconciliation that verifies
                                            auction totals is being accurately captured
                                            and reported in the worksheets.
                                        26. Implement control features in the                  X
                                            spreadsheet software, such as cell locking,
                                            using a data entry form, worksheet and/or
                                            password protections, and others.
V. FCC Loan Subsidiary Ledgers
   (Modified Repeat Finding)
   A. Loan Subsidiary System
      (Modified Repeat Finding)
                                        27. Continue with thorough and regular                           X
                                            reviews and analysis of activities included
                                            and excluded in the loan models until
                                            RAMIS and/or the loan servicing become
                                            operational.




       03-AUD-05-07         REPORT ON THE FEDERAL COMMUNICATIONS
                            COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                                    Page 6
 SECTION VI              STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                       Resolution Classification (X)




                                                                                                     In Progress




                                                                                                                              No Action
                                                                                          Complete




                                                                                                                   Planning
           CONDITIONS                          RECOMMENDATIONS




                                     28. Ensure that the loan subsidiary system            X
                                         being tested (RAMIS) and/or the loan
                                         servicing system is capable of interfacing
                                         with other financial management systems
                                         and meets applicable requirements in the
                                         Direct Loan System Requirements issued
                                         by JFMIP.

    B. Loan Subsidiary Ledger Non-Financial Information
                                     29. Perform a complete review of the                  X
                                         accuracy of the non-financial data in the
                                         loan subsidiary system to ensure that data
                                         converted to RAMIS or to the loan
                                         servicer's system is accurate.

   C. Re-Auctioned Licenses
                                     30. Create a database linked to RAMIS or the                    X
                                         future loan subsidiary system to create an
                                         audit trail (or record) of licenses with
                                         delinquent loans cancelled then re-
                                         auctioned, and the proceeds or receivable
                                         from the re-auction. While RAMIS is not
                                         yet operational, FCC should create and
                                         maintain a comprehensive schedule that
                                         will provide this information. The
                                         comprehensive schedule should be
                                         subjected to a quality control review and a
                                         reconciliation should be performed on a
                                         periodic basis.
VI. Information Technology (IT)
    (Modified Repeat Condition)

    A. Compliance with OMB Circular No. A-130 Requirement for a Comprehensive Security Plan
       (Modified Repeat Condition)

                                     31. Develop and implement an FCC-wide                 X
                                         security plan as prescribed by OMB
                                         Circular No. A-130.

       03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS
                              COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                              Page 7
SECTION VI            STATUS OF RECOMMENDATIONS FROM
                      PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                      Resolution Classification (X)




                                                                                                    In Progress




                                                                                                                             No Action
                                                                                         Complete




                                                                                                                  Planning
        CONDITIONS                            RECOMMENDATIONS




                                   32. Conduct current risk assessments for the                     X
                                       two FCC general support systems and
                                       seven major applications
                                   33. Develop and implement security plans for           X
                                       FCC's two newly identified major
                                       application systems and mission-critical
                                       general support systems.
                                   34. Certify and accredit FCC's major                             X
                                       applications and general support system,
                                       based on the security plans developed and
                                       implemented.
                                   35. Establish a system to periodically review          X
                                       security controls over FCC's computer
                                       systems in accordance with OMB Circular
                                       No. A-130, Appendix III.
                                   36. Enhance audit trail facility utilization and                 X
                                       review.

 B. Inadequacies and Inconsistencies in the Mainframe and Network Access Request Process
    (Repeat Condition)

                                   37. Address inadequacies and inconsistencies           X
                                       in the mainframe and network access
                                       request process.

 C. Accelerate Efforts to Develop and Test FCC's Contingency Plans
    (Repeat Condition)

                                   38. Develop and test contingency plans for                       X
                                       FCC's major applications, networks, and
                                       telecommunications facilities.
                                   39. Obtain written documentation from FCC's            X
                                       data centers of developed and tested
                                       contingency plans and participate in the
                                       scheduled tests of the plans.
                                   40. Develop a comprehensive contingency                          X
                                       plan that integrates the individual plans of
                                       its data centers, networks, and
                                       telecommunications facilities.



    03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS
                          COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                                 Page 8
 SECTION VI              STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                       Resolution Classification (X)




                                                                                                     In Progress




                                                                                                                              No Action
                                                                                          Complete




                                                                                                                   Planning
           CONDITIONS                            RECOMMENDATIONS




REPORTABLE
CONDITIONS

 VII. Accounts Receivable and Related Revenues
      (Modified Repeat Condition)

    A. Regulatory Fees
       (Modified Repeat Condition)
                                      41. Ensure that RAMIS, when fully                              X
                                          operational, could generate user reports
                                          such as non-payer of regulatory fees.
                                      42. Develop and implement an agency-wide                       X
                                          policy the bureaus and the Financial
                                          Operations Center (FOC) should follow
                                          when regulatory fee non-payers are
                                          identified.
VIII. Auction Revenue Recognition Policy
                                      43. Establish and implement accounting                         X
                                          procedures that will track the status
                                          (issuance of Prepared to Grant Public
                                          Notice) of auction licenses as "not
                                          granted," "ready to grant," and "granted."
                                          This will include tracking the dates when
                                          the status of the license changed and
                                          reference to supporting documentation
                                          such as the Prepared to Grant Public
                                          Notice.
IX. Revenue in Proper Accounting Period
                                      44. Implement procedures to ensure that              X
                                          revenue transactions are recorded in the
                                          proper accounting period. One of these
                                          procedures should include the use of the
                                          billing documents on all revenue related
                                          transactions and properly and timely
                                          applying collections to the billing
                                          documents.



       03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS
                             COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                               Page 9
 SECTION VI              STATUS OF RECOMMENDATIONS FROM
                         PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                          Resolution Classification (X)




                                                                                                        In Progress




                                                                                                                                 No Action
                                                                                             Complete




                                                                                                                      Planning
           CONDITIONS                            RECOMMENDATIONS




X. Obligation and Accounts Payable Activities

    A. Accounting for Obligation
                                      45. Ensure that existing policies and                   X
                                          procedures and internal controls outlined
                                          in the FCC manual on accounting for
                                          obligations are adequate and that these
                                          policies and controls are strictly and
                                          consistently implemented.
    B. Accounting for Accounts Payable
                                      46. Ensure that a liability is recognized for the       X
                                          unpaid amount when goods and services
                                          are received and establish proper cut-off
                                          procedures to ensure that all liabilities are
                                          recorded as of a reporting period.
XI. Payroll Activities
    (Modified Repeat Condition)
                                      47. Perform a periodic reconciliation of all the                  X
                                          leave categories from the two systems,
                                          NFC and FCC records.
                                      48. Conduct training of employees to re-                X
                                          emphasize the importance of proper
                                          coding and to ensure that timesheets are
                                          properly completed and certified by
                                          supervisors.
                                      49. Ensure that payroll documents are filed             X
                                          timely.

XII. Debt Collection Improvement Act Reporting
     (Modified Repeat Condition)

                                      50. Update policies and procedures to                             X
                                          incorporate the Department of the
                                          Treasury referral requirements for the
                                          reporting entities accounts receivables.
                                      51. Refer eligible delinquent debt, more then                     X
                                          180 days old, to the Department of the
                                          Treasury for offset or cross-servicing.

       03-AUD-05-07          REPORT ON THE FEDERAL COMMUNICATIONS
                             COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                                  Page 10
 SECTION VI               STATUS OF RECOMMENDATIONS FROM
                          PRIOR YEAR FINANCIAL STATEMENT AUDIT

                                                                                        Resolution Classification (X)




                                                                                                      In Progress




                                                                                                                               No Action
                                                                                           Complete




                                                                                                                    Planning
           CONDITIONS                            RECOMMENDATIONS




                                       52. Ensure that FCC has all the reporting            X
                                           entities' supporting documentation for the
                                           TROR.

XIII. Compliance with Certain Aspects of the Clinger-Cohen Act of 1996
      (Modified Repeat Condition)

                                       53. Document and implement a migration               X
                                           strategy for the RAMIS application.
                                       54. Commit adequate resources to the                 X
                                           management of the RAMIS project.
                                       55. Document a Capital Asset and Business            X
                                           Case to address summary of spending
                                           during project stages.
                                       56. Utilize project management tools (i.e.,                    X
                                           time, function, budget) to determine
                                           milestone dates and measure project
                                           performance against these target dates.
                                       57. Ensure that applications in development          X
                                           (i.e., CORES, E/MTS, COALS, and
                                           RAMIS) adhere to FCC's SDLC
                                           methodology.

XIV. OMB Circular Nos. A-127 and A-130 Reviews
     (Repeat Condition)

                                       58. Institute a program for conducting               X
                                           periodic reviews in accordance with OMB
                                           Circular Nos. A-127 and A-130.
                                       59. Include the results of OMB Circular Nos.                   X
                                           A-127 and A-130 reviews as part of the
                                           applicable section in FCC's annual
                                           FMFIA report.




       03-AUD-05-07           REPORT ON THE FEDERAL COMMUNICATIONS
                              COMMISSION’S FY 2003 FINANCIAL STATEMENTS                                               Page 11
       SECTION VII

ACRONYMS & ABBREVIATIONS
SECTION VII       ACRONYMS & ABBREVIATIONS




   BEAMS          Budget Execution and Management System
   CFO Act        Chief Financial Officers Act of 1990
   CFO            Chief Financial Officer
   CFR            Code of Federal Regulations
   CSP            Computer Security Program
   DAS            Disbursement Aggregation System
   DCIA           Debt Collection Improvement Act of 1996
   DRP            Disaster recovery plan
   EDP            Electronic data processing
   FCC            Federal Communications Commission
   Federal GAAP   Generally accepted accounting principles for Federal entities
   FFMIA          Federal Financial Management Improvement Act of 1996
   FFS            Federal Financial System
   FIPS PUBS      Federal Information Processing Standards Publications
   FMFIA          Federal Managers’ Financial Integrity Act of 1982
   FOC            Financial Operation Center
   FPPS           Federal Personnel/Payroll System
   FTE            Full-time equivalent
   FY             Fiscal year
   GAAP           Generally accepted accounting principles
   GAO            General Accounting Office
   GMRA           Government Management Reform Act of 1994
   GSS            General support system
   HRM            Human Resource Management
   IC Report      Independent Auditor’s Report on Internal Control
   IT             Information technology
   ITC            Information Technology Center
   JFMIP          Joint Financial Management Improvement Program
   NANP           North American Numbering Plan
   NFC            National Finance Center
   OIG            Office of Inspector General
   OMB            Office of Management and Budget
   RAMIS          Revenue Accounting and Management Information System
   SFFAS          Statement of Federal Financial Accounting Standards
   SM             Spectrum Management
   SNC            Statement of Net Cost
   TROR           Treasury Report on Receivables
   TRS            Telecommunications Relay Services Fund
   USAC           Universal Service Administrative Company
   USF            Universal Service Fund
   USSGL          United States Standard General Ledger
   WTB            Wireless Telecommunications Bureau




03-AUD-05-07      REPORT ON THE FEDERAL COMMUNICATIONS                            Page 1
                  COMMISSION’S FY 2003 FINANCIAL STATEMENTS
